<html>
<title> - THE FUTURE OF NATIONAL SURFACE TRANSPORTATION POLICY</title>
<body><pre>[Senate Hearing 111-426]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-426
 
          THE FUTURE OF NATIONAL SURFACE TRANSPORTATION POLICY

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 28, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
52-161                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY, AND SECURITY

FRANK R. LAUTENBERG, New Jersey,     JOHN THUNE, South Dakota, Ranking 
    Chairman                             Member
DANIEL K. INOUYE, Hawaii             OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         JOHN ENSIGN, Nevada
BYRON L. DORGAN, North Dakota        JIM DeMINT, South Carolina
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           JOHNNY ISAKSON, Georgia
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 28, 2009...................................     1
Statement of Senator Lautenberg..................................     1
    Prepared statement of Hon. John D. Rockefeller IV submitted 
      by Hon. Frank R. Lautenberg................................     1
Statement of Senator Thune.......................................     3
Statement of Senator Pryor.......................................     4
    Prepared statement...........................................     4
Statement of Senator Hutchison...................................     5
    Prepared statement...........................................     6
Statement of Senator Begich......................................     8
Statement of Senator Johanns.....................................     8
Statement of Senator Warner......................................     9
Statement of Senator Cantwell....................................    10
    Prepared statement...........................................    10
Statement of Senator Udall.......................................    11
    Prepared statement...........................................    12
Statement of Senator Isakson.....................................    28

                               Witnesses

Hon. Ray LaHood, Secretary, U.S. Department of Transportation....    13
    Prepared statement...........................................    14
Steve Heminger, Member, National Surface Transportation Policy 
  and Revenue Study Commission...................................    30
    Prepared statement...........................................    32
Ned S. Holmes, Texas Transportation Commissioner, and Chairman, 
  Transportation Transformation Group............................    35
    Prepared statement...........................................    36
James Corless, Director, Transportation for America..............    39
    Prepared statement...........................................    40
Anne P. Canby, President, Surface Transportation Policy 
  Partnership....................................................    43
    Prepared statement...........................................    45

                                Appendix

American Society of Civil Engineers, prepared statement..........    61
Response to written questions submitted to Hon. Ray LaHood by:
    Hon. Frank R. Lautenberg.....................................    68
    Hon. Maria Cantwell..........................................    69
    Hon. Tom Udall...............................................    71
Response to written questions submitted to Steve Heminger by:
    Hon. Frank R. Lautenberg.....................................    74
    Hon. Tom Udall...............................................    74
Response to written questions submitted to Ned S. Holmes by:
    Hon. Frank R. Lautenberg.....................................    75
    Hon. Tom Udall...............................................    75
Response to written questions submitted to James Corless by:
    Hon. Frank R. Lautenberg.....................................    76
    Hon. Tom Udall...............................................    77
Response to written questions submitted to Anne Canby by:
    Hon. Frank R. Lautenberg.....................................    77
    Hon. Tom Udall...............................................    79


          THE FUTURE OF NATIONAL SURFACE TRANSPORTATION POLICY

                              ----------                              


                        TUESDAY, APRIL 28, 2009

                               U.S. Senate,
Subcommittee on Surface Transportation and Merchant 
       Marine Infrastructure, Safety, and Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
room SR-253, Russell Senate Office Building, Hon. Frank R. 
Lautenberg, Chairman of the Subcommittee, presiding.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. The Committee will come to order.
    First, I thank everyone who is here for being here with us 
today.
    I am sorry to convey the news that Senator Rockefeller has 
been injured and he is not ready to come back. It is said that 
he is in good shape but it will take a while for some bone-
healing to be in order. He asks that his statement be included 
in the record, and I will include the statement in the record, 
unless there are any objections. That will be the first 
document in this hearing.
    [The prepared statement of Senator Rockefeller follows:]

          Prepared Statement of Hon. John D. Rockefeller IV, 
                    U.S. Senator from West Virginia

    I am excited about today's hearing and regret that I cannot be in 
attendance.
    Our national surface transportation system provides the physical 
foundation for our economy, allowing people and goods to move 
throughout the country. Unfortunately, investment has not kept up with 
demand in the system over the past few decades. As a result, our 
physical infrastructure is in disrepair, congestion plagues our 
highways, ports, and railroads, and limited financial resources are 
available to fix the broken system. In addition, the transportation 
sector continues to be the largest emitter of carbon dioxide in the 
United States.
    The upcoming reauthorization of Federal surface transportation 
programs is a prime opportunity to prepare our transportation system 
for 21st Century demands. With an additional 120 million people in the 
country expected by 2050, significant changes must be made to make sure 
movement remains accessible, efficient, and affordable.
    In order to correct our existing shortcomings and prepare our 
system for the next generation of users, we must set far-reaching goals 
and objectives that span across individual modes and develop reliable 
standards and methods for attaining them.
    We must take a holistic approach to solving our transportation 
challenges, especially furthering the connection to our rural 
communities, in order to remain competitive in a global economy, reduce 
the consequences of climate change, and maintain safety and efficiency 
in our daily lives.
    I recognize the hard work Senator Lautenberg has done to make 
intercity passenger rail a more viable transportation alternative 
throughout the country, and look forward to working with him closely to 
prepare our entire transportation system for the next 50 years.

    Senator Lautenberg. I am pleased to be here with our 
colleagues, Senator Thune from South Dakota and Senator Kay 
Bailey Hutchison from the great State of Texas, a great Senator 
representing the great state. Now, have I done enough?
    [Laughter.]
    Senator Lautenberg. I am pleased to be here with Senator 
Hutchison and Senator Thune.
    Today in America we are being overtaken by congestion. Our 
surface transportation is wallowing in all kinds of difficult 
things. Travelers and shippers experience crippling delays on 
our highways and our skyways. Congestion is so bad that you 
almost cannot go anyplace where there is a significant roadbed 
that does not have more traffic by far than it used to have. If 
you look just at 2007, it was one of the worst years on record 
for flight delays, more than one in four flights was late. I 
think I took only the late ones.
    [Laughter.]
    Senator Lautenberg. Just as an example, the other day I 
flew up to LaGuardia Airport which is near my house in New 
Jersey, and I got in an airplane, a rather new airplane. They 
closed the door. The pilot gave us his quick review and said 
the flight time would be about 36 minutes and expected that we 
would have an on-time departure. And within a couple of 
minutes, he said, oh, and I just got news that we have a 2-hour 
ground delay. A 2-hour ground delay for a 36-minute flight does 
not seem to make sense. Well, we have seen that in almost every 
place that there is any volume of flight traffic.
    In 2008, while the number of flight delays went down 
slightly, the length of those delays went up. And safety is an 
even more important concern. Last year more than 37,000 men, 
women, and children lost their lives on our roads. We all know 
the impact that America's vehicles are having on global 
warming. To overcome these challenges, we need a national 
transportation policy that will reduce delays, improve safety, 
create jobs, and reduce greenhouse gas emissions, as well as 
reduce our dependence on foreign oil.
    This year Congress will reauthorize our Nation's surface 
transportation programs. In the past, this legislation has been 
more commonly referred to as the ``highway bill,'' but highways 
alone cannot meet the transportation needs of the future. The 
reality is that Congress will be producing a surface 
transportation bill, a bill that recognizes the critical role 
of mass transit and passenger and freight rail service. Most 
mass transit reduces our dependence on foreign oil. It relieves 
stress and congestion on our already overburdened roads and 
bridges and saves commuters money on gas and other costs 
associated with traveling by car.
    In my State of New Jersey, we are ready. The term ``shovel 
ready'' is generally used. Mr. Secretary--and I will introduce 
you in just a minute, you and I have had a running debate about 
how soon we are going to get going on these things. So ``shovel 
ready'' seems to be the easiest way to convey our readiness to 
get to work. Well, we are ready to build a new Hudson River 
rail tunnel that will create 6,000 construction jobs a year and 
remove 22,000 cars from the roads each day. And like transit, 
passenger rail reduces not only congestion, but toxic emissions 
and fuel consumption.
    We took the first step toward revitalizing passenger rail 
last year when an Amtrak bill that I was fortunate to author, 
was signed into law. Amtrak's record ridership shows that 
Americans crave a travel option that is more convenient, less 
hassle than a car or a plane. And I am pleased that President 
Obama shares my commitment to passenger rail. More than $9 
billion for Amtrak and high-speed rail was provided in the 
economic recovery law, which was a bold step by the President.
    But we need to do more. Between now and 2050, America's 
population is expected to reach 420 million people. By the way, 
I remind everyone that in 1970, the American population was 200 
million people. So we are headed to building the world's 
biggest beehive.
    In order to meet the demands of our Nation's travelers, 
keep our businesses competitive in the world's economy, and 
create jobs, we need to establish a bold vision for a national 
surface transportation system. We need to make our system 
better not only for ourselves, but for the generations yet to 
come. And I look forward to hearing from today's witnesses 
about how we can make that happen.
    And I would ask Senator Thune if he has an opening 
statement.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman. I thank you for 
holding today's hearing on the future of national surface 
transportation policy. I am very pleased to be able to serve as 
the Ranking Member of this Subcommittee, and I look forward to 
working with you, Mr. Chairman, as well as with the Senator 
from Texas and the Senator from West Virginia and many other 
members of this Committee as we focus on the pressing surface 
transportation issues that are facing our country.
    This is our Subcommittee's first hearing, and I want to 
extend a warm welcome to the Secretary of Transportation, Ray 
LaHood, a former colleague from the House days, who is joining 
us today as our first witness. I think his presence is 
reflective of the importance of the transportation agenda that 
is ahead of us, and I look forward to working with him as we 
consider an array of issues involved with reauthorizing our 
Nation's surface transportation programs which expire, I might 
add, in September.
    Like many members of the Committee, I represent a state 
that is mostly rural. Rural states face unique challenges when 
it comes to transportation, while playing a crucial role in 
transport of goods and people. South Dakota is a state that is 
very large in size and has an extensive highway network, but a 
low population density. It also contains large tracts of 
Federal lands. These factors make it very difficult for states 
like mine to maintain and provide for a modern national 
transportation system.
    Of course, states in our area of the country are a vital 
part of our national transportation system, our highways serve 
as connectors for traffic and commerce that benefit citizens 
from other States. In fact, more than two-thirds of the truck 
traffic on highways in South Dakota neither begins nor 
terminates in the State. Our roads also provide access to many 
of the Nation's great national parks and are essential in 
transporting agricultural goods to the market. So there is a 
real national interest in facilitating interstate commerce 
mobility that requires good highways in, and connecting across, 
rural states.
    In order to meet our national transportation needs, it is 
essential that we maintain the viability of the Highway Trust 
Fund. While some have suggested that the Trust Fund be 
eliminated or significantly altered, I feel this is unwise and 
would have a particularly negative effect on large rural states 
such as mine and, in turn, travelers throughout the country.
    For example, there are about 19 people per lane-mile of 
Federal aid highways in South Dakota while the national average 
is about 128 people per lane-mile. Furthermore, our per capita 
contribution to the Highway Trust Fund of $150 per person 
exceeds the national average of only $109 per person.
    So clearly, there is a lot more to consider than simply 
coining one state as ``donee'' and another state as ``donor.'' 
It is far more complicated and would result in enormous 
ramifications to the transportation system as we know it if we 
make knee-jerk changes to the distribution from the Highway 
Trust Fund without considering the far-reaching implications to 
the traveling public.
    Finally, I would like to talk briefly about the Build 
America Bonds Act of 2009, which I have joined in sponsoring 
with Senators Wyden, Wicker, Collins, and Klobuchar. Our 
legislation would provide $50 billion in new funding for 
transportation projects such as roads, bridges, transit, rails, 
and ports. In turn, Build America Bonds would create jobs for 
economic recovery and ultimately help to save lives by making 
needed improvements to our Nation's transportation system.
    While our legislation is not a substitute for fixing the 
Highway Trust Fund, it would provide valuable supplemental 
funding for transportation projects. I hope that the Senate 
will seriously consider this legislation.
    Mr. Chairman, again, I thank you. I look forward to hearing 
from today's witnesses and want to welcome Secretary LaHood to 
our first committee hearing.
    Senator Lautenberg. What we are going to have is 5-minute 
opening statements for those who would like to make them, and I 
now call on Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Mr. Chairman, thank you, but I will just 
submit mine for the record. Thank you very much.
    [The prepared statement of Senator Pryor follows:]

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas

    I want to thank the Chairman and Ranking Member and other members 
of this Subcommittee for holding this important hearing today to 
discuss the future of national surface transportation policy.
    I look forward to working with all members of this Committee and 
our witnesses in the coming weeks and months to address the many issues 
and needs of our Nation's surface transportation system.
    As we work to reauthorize the Federal surface transportation 
programs enacted as part of the Safe, Accountable, Flexible, Efficient 
Transportation Equity Act: A Legacy for Users (SAFETEA-LU), we will 
face a wide range of issues that will largely depend on funding.
    The largest challenges facing Congress in this reauthorization 
process will rest in developing policy to provide adequate funding and 
streamline existing programs to better meet the critical surface 
transportation needs of our country.
    I think this hearing provides an excellent opportunity for our 
Subcommittee to hear from an excellent panel of witnesses. I hope in 
this hearing the Subcommittee will learn more about the issues and 
needs of our transportation system and explore the potential solutions 
for providing our citizens with a surface transportation system that 
matches today's demands and plans for future needs.
    I especially look forward to hearing from Secretary LaHood as he'll 
discuss the Administration's vision for the future of surface 
transportation and provide an update on the progress made on 
infrastructure investments provided in the American Recovery and 
Reinvestment Act.
    Again, I thank the witnesses and members for participating today. I 
expect this to be a very productive hearing.

    Senator Lautenberg. Thank you.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I do thank you 
for holding this hearing today. It is the first hearing of this 
Committee to consider the many important issues we do confront 
in reauthorizing our Nation's surface transportation programs 
which expire in September.
    I believe there is a proper Federal role in promoting the 
safety and security of our national transportation system, and 
I hope this hearing marks the beginning of a thorough debate on 
this issue. It is my hope that we can together reform the 
Federal role in a manner that will better meet our States' 
transportation priorities.
    I want to welcome, obviously, Secretary LaHood and also Ned 
Holmes, who will be on the second panel, who serves on the 
Texas Transportation Commission and is Chairman of the 
Transportation Transformation Group.
    It has been more than 50 years since President Eisenhower 
signed legislation to create the interstate system, and 
construction on the final span of national highway was finished 
nearly 20 years ago. Yet, highway users in all 50 states are 
still paying into the national highway system through a formula 
designed around the now obsolete purpose of completing the 
interstate system. Many of those states, including Texas, are 
forced to bear an unfair burden through the current funding 
scheme whereby a far greater portion of our gas tax dollars are 
being diverted away from critical transportation needs in our 
State.
    In my view, the existing funding formula is no longer 
serving the best interests of each state and the traveling 
public. Our transportation mission should evolve to maintaining 
and improving this valuable infrastructure. We must add highway 
capacity in areas where population and commercial growth is 
exceeding what our infrastructure can withstand. Our funding 
structure must change to meet these shifting priorities.
    That is why today I am introducing the Highway Fairness and 
Reform Act of 2009, along with Senators Martinez, Cornyn, and 
Kyl. Our bill would give states the choice to opt out of the 
Federal highway program and instead be rebated Federal fuel 
taxes collected within our borders. It would cut the 
overwhelming majority of Federal strings attached but would 
require that rebated taxes be spent on surface transportation 
projects. This option would allow all states to receive a more 
equitable distribution of gas tax dollars while ensuring funds 
are directed toward improving transportation in the high-growth 
areas within those states.
    The policy of revenue-sharing was instituted in 1956 
because some states with a lot of land mass but lower 
populations were unable to generate enough revenue to build the 
roads comprising a truly national highway system. Even though 
the highway system is complete, the current formula continues 
to send some states excess revenues, while the roads and 
residents of donor states, those paying in more than they are 
receiving back, are short-changed. In short, the gas tax 
revenues of these states like Texas, Arizona, Florida, Ohio, 
and more could be spent on bike trails in Vermont or bridges in 
Madison County rather than on crumbling or congested highways 
in Miami or Cincinnati.
    I also think that as we address the proper Federal role in 
transportation, we need to alleviate states from the 
unnecessary burdens that have accumulated over the years. For 
example, of the Federal funding that states do receive, there 
are no fewer than 108 federally mandated programs that must be 
factored into decisions on how the money will be spent. Once 
the state decides to begin a transportation project, using some 
of its Federal highway funding, it takes an estimated 12 to 15 
years of bureaucratic process before the state can even break 
ground. This level of Federal micromanagement fails to 
acknowledge that our state and local leaders are best 
positioned to carry out the present transportation mission 
which should be maintenance and improvement.
    My legislation is designed to ensure interstate equity and 
to allow states to efficiently maintain and improve their 
highways while removing unnecessary regulatory burdens. Opt-out 
states would be required to maintain their interstate highway 
system but could determine which Federal programmatic 
requirements could be eliminated.
    So, Mr. Chairman, I thank you for calling this hearing. I 
think this is the time to start this debate, and I hope that we 
can come to agreement on what is equitable for all of our 
states, not just some. Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement by Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Mr. Chairman, for holding today's hearing on the Future 
of Surface Transportation Financing. This is the Committee's first 
hearing to consider the many important issues we confront in 
reauthorizing our Nation's surface transportation programs, which 
expire in September. I believe there is a proper Federal role in 
promoting the safety and security of our national transportation 
system, and I hope this hearing will mark the beginning of a thorough 
debate on this important issue. It is my hope that together we can 
reform the Federal role in a manner that will better meet our states' 
transportation priorities--a goal we all share.
    I want to welcome today's witnesses, and I am pleased that not only 
are we joined by the Secretary of Transportation, Ray LaHood, but also 
by Ned Holmes, who serves on the Texas Transportation Commission and is 
Chairman of the Transportation Transformation Group. I know each of the 
witnesses will provide us with useful insights into the many 
transportation challenges facing our country and how we may best secure 
adequate funding among competing demands.
    It has been more than 50 years since President Eisenhower signed 
legislation to create the Interstate System, and construction on the 
final span of national highway was finished nearly 20 years ago. Yet, 
highway users in all 50 states are still paying into the national 
highway system through a formula designed around the now-obsolete 
purpose of completing the Interstate System. And, many of those states, 
including Texas, are forced to bear an unfair burden through the 
current funding scheme, whereby a far greater portion of our gas tax 
dollars are being diverted away from critical transportation needs in 
our state.
    In my view, the existing funding formula is no longer serving the 
best interests of each state and the traveling public. Our 
transportation mission should evolve to maintaining and improving this 
valuable infrastructure. We must add highway capacity in areas where 
population and commercial growth is exceeding what our infrastructure 
can withstand. Likewise, our funding structure must change to meet 
these shifting priorities.
    That is why today, I am introducing the Highway Fairness and Reform 
Act of 2009, along with Senators Kyl, Cornyn, and Martinez. Our bill 
would give states the choice to opt-out of the Federal highway program 
and instead be rebated Federal fuel taxes collected within their 
borders. It would cut the overwhelming majority of Federal strings 
attached, but would require that rebated taxes be spent on surface 
transportation projects. This option would allow all states to receive 
a more equitable distribution of gas tax dollars, while ensuring funds 
are directed toward improving transportation in the high-growth areas 
within those states.
    The policy of revenue sharing was instituted in 1956 because some 
states with a lot if land mass but lower populations were unable to 
generate enough revenue to build the roads comprising a truly national 
highway system. Even though the highway system is complete, the current 
formula continues to send some states excess revenues while the roads 
and residents of ``donor states,'' those paying in more than they are 
receiving back, are shortchanged. In short, the gas tax revenues of 
these states like Texas, Arizona, Florida, Ohio, and more could well be 
spent on the bridges of Madison County or bike trails in Vermont, 
rather than on crumbling or congested highways in Miami or Cincinnati.
    I also think that as we address the proper Federal role in 
transportation, we need to alleviate states from the unnecessary 
burdens that have accumulated over the years. or example, of the 
Federal funding that states do receive, there are no fewer than 108 
federally mandated programs that must be factored into decisions on how 
the money ill be spent. And once a state decides to begin a 
transportation project using some of its Federal highway funding, it 
takes an estimated 12 to 15 years of bureaucratic process before a 
state can even break ground. This level of Federal micromanagement 
fails to acknowledge that our state and local leaders are best 
positioned to carry out the present transportation mission: maintenance 
and improvement.
    Our legislation is designed to ensure interstate equity and to 
allow states to most efficiently maintain and improve their highways, 
while removing unnecessary regulatory burdens. Opt-out states would be 
required to maintain their Interstate Highway System, but could 
determine which Federal programmatic requirements, such as highway 
enhancements and design standards, would be continued. To ensure that 
our Nation's roads are safe for all American motorists, safety 
provisions under the Federal highway program, like the minimum drinking 
age, would continue to fall under the jurisdiction of the U.S. 
Transportation Secretary.
    The Federal highway system is one of our Nation's greatest cultural 
and economic advantages, and it must be maintained for the prosperity 
of future generations. However, its preservation must not cost some 
Americans more than others, nor be micromanaged by those who are least 
equipped to know the intricacies of existing congestion and traffic-
flow issues. No state should be forced to send its gasoline taxes to 
Washington and get it back with mounds of regulations and a cut in the 
mound returned.
    I thank the Chairman for holding this important hearing to begin 
our Committee's work on reauthorization, and I look forward to hearing 
from today's witnesses.

    Senator Lautenberg. Thank you very much.
    Going from side to side, I would call now on Senator Begich 
for 5 minutes, please.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. I am 
going to limit my statement and just get into the Q and A at 
some point here, but I just want to say thank you, Mr. 
Secretary, for being here.
    I do have some questions regarding specifically kind of 
Alaskan issues. I beg to differ with the Senator from Texas in 
regards to the needs when 52 percent of our state is still 
owned by the Federal Government through the Department of the 
Interior and the need that we have in regards to infrastructure 
and roads. But I will ask you some specific questions on that.
    Along with that, I am going to be interested in having 
additional conversation regarding, as a former mayor, how you 
see local governments and the role they can play in regards to 
our highway system.
    And then the third is, I believe, in one part of what the 
Senator from Texas talked about regarding the regulatory 
process of the Federal Government is so burdensome and very 
costly to the highway system that I want to put on the table an 
idea in regards to where there might be states or local 
communities that have had very good, solid reputations with 
maybe the EPA, the Corps, Federal Highway, whatever those many 
different regulatory bodies are, that there is a way to 
streamline those for doing good behavior because we do not want 
to reward the ones that do poorly designed roads and end up 
paying for it later, environmentally or otherwise, but in order 
to streamline it.
    And there are several examples I can give you. In 
Anchorage, Alaska we did not use Federal money. We used State 
money, in some of our urban areas where we went through 
wetlands and other areas, did great mitigation. The project is 
fantastic. The environmental community supports it. But because 
of what we did, we shaved probably 2 years off the project and 
almost $2.5 million in process.
    I think the goal is to get these projects done but do them 
in the right way. And I think there are ways to maybe modify 
these Federal regulations to allow more flexibility for those 
well-performing communities, again not rewarding the bad ones 
because those are the folks that we have got to watch out for, 
but well-performing and recognizing very sensitive 
environmental issues that may be in the new development of 
especially urban roads.
    So I just want to kind of put that on there again. I am 
looking forward to the Q and A and have some back and forth. 
Thank you very much.
    Senator Lautenberg. Thank you.
    Senator Johanns?

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you very much, Mr. Chairman.
    Mr. Secretary, good to see you again.
    I will speak very, very briefly. There are just two or 
three things that I did want to highlight, however.
    Of course, I come from a state that is a mix of urban 
centers and very, very rural areas. In our State, our railroads 
are very important. In fact, we are the home of Union Pacific 
in Omaha. Railroads in Nebraska move a lot of freight. They do 
not move a lot of passengers. The state is just not set up for 
that kind of railroad transportation.
    So, when we look at surface transportation, we really 
concentrate and focus on not just the railroads but roads and 
bridges. That is our lifeblood. That is our lifeline between 
farm and ranch to market. So, I am very, very anxious to hear 
how we work together to provide the funding necessary to do 
those kinds of projects.
    In a state like Nebraska, we also have some significant 
issues because if you look just at traffic count, you would 
never build a road in some parts of the state, but it is so 
much more than traffic count. It is moving people to critical 
services, to market their products. It really, again, is the 
lifeblood of that community to have a good road system and good 
bridges.
    I also want to lend my support to some comments made by 
Senator Begich relative to the regulatory process. As a former 
county commissioner, mayor, and governor, I can tell you we 
would tear our hair out just in terms of the slowness of the 
process. Some of that is tied up in very, very difficult 
environmental issues. Roads and bridges do cross rivers and 
streams and sensitive environmental areas, but it does add 
significant cost to get the project done.
    So, Mr. Secretary, again I really appreciate your being 
here, look forward to working with you, anxious to hear what 
you have to say.
    And with that, Mr. Chairman, thank you very much.
    Senator Lautenberg. Thank you.
    Senator Warner?

               STATEMENT OF HON. MARK R. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. Let me also say 
greetings to the Secretary.
    I was hoping, as Senator Johanns went through that list of 
things, you would not forget the Governor component because as 
a former Governor grappling with the Federal transportation 
funds or lack thereof is something that continues to stymie us. 
And many in the audience who live in the greater Washington 
area know the challenges we have had to confront.
    One of the things I am anxious to hear--and I think Senator 
Hutchison raised some of this in terms of the old formulas. I 
really do hope we take this opportunity to think beyond the 
silos within your Department. I know when you first came before 
us for your confirmation, you, I think very appropriately, 
pointed out you were willing to take a fresh look at how we 
look at all of our various aspects of surface transportation.
    I, for one, personally believe that a much greater emphasis 
on multimodal analysis is terribly important. I, for one, 
believe that many of our old VMT and other formulas need to be 
reexamined and, prior to my tenure, I worked closely with the 
bipartisan policy group who had a transportation initiative 
that I think has done some quite good work about different 
types of criteria we ought to be using from issues, as my 
colleagues have mentioned, in terms of productivity, energy 
usage, safety, a whole host of criteria beyond just the amount 
of fuel consumed or vehicle miles traveled. So I, like my 
colleagues, am anxious to work with you going forward.
    Particularly for all of us who live in the greater 
Washington area, if there is ever a case of how transportation 
has not worked because of the failure of the jurisdictions to 
work together, because of the failure to have an adequate 
planning process, the failure to have a real focus on 
multimodalism, as well as the fact of inadequate funding 
sources, greater Washington ought to be the case study. It sure 
would be great if we could all agree that this ought to be the 
definition of how we get it right in the 21st century.
    So thank you, Mr. Chairman, and I look forward to the 
Secretary's comments.
    Senator Lautenberg. Thank you very much, Senator Warner.
    Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I am going to 
add my statement to the record.
    Senator Lautenberg. Thank you for that wonderful 
contribution.
    [Laughter.]
    [The prepared statement of Senator Cantwell follows:]

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington
    Chairman Lautenberg, thank you for holding this important hearing.

    As we prepare for the upcoming highway bill reauthorization, I 
think it is important for the Subcommittee to take a step back and look 
at the goals for our national surface transportation system and 
consider what the appropriate Federal role is.
    I believe the overall goal of our surface transportation system is 
to move people and goods, efficiently, safely, and with the smallest 
environmental impact as possible. Reducing congestion is essential to 
meeting the overall goal.
    We must lessen the environmental impact of our surface 
transportation system in the air, on water, and on land. The 
transportation sector is the second largest source of greenhouse gas 
emissions after utilities. Cars stuck in stop-and-go traffic release 
considerable amounts of greenhouse gases and pollutants.
    We need to ensure there are alternative modes available to move 
people--transit systems, intercity rail, bicycle paths, and sidewalks--
and in Washington State, a sustainable ferry system. We also need to 
integrate plug-in hybrids and other alternative fuel vehicles, along 
with their corresponding infrastructure, into our transportation 
planning and programs. Back home, a number of new parking garages are 
already setting aside parking places for recharging batteries. But we 
need to approach this on a national scale.
    In Washington State, we are attempting to reduce contaminated run 
off from highways and roads because it is a primary source of pollution 
for our state's streams, rivers, and the Puget Sound. The more braking 
in stop-and-go traffic, the more copper comes off brakes pads and 
ultimately into Puget Sound. Yet another good reason for reducing road 
congestion.
    Improving safety will also reduce congestion. Roadway incidents and 
the subsequent rubbernecking are one of the leading causes of 
congestion.
    The efficient movement of people and freight increasingly relies on 
making multi-modal connections. At the Ports of Seattle and Tacoma, 
containers are unloaded from ships arriving from overseas. Most of 
these containers get placed on rail, some placed on trucks for direct 
shipments, some placed on trucks heading to local warehouses, and some 
placed on ships for delivery at other points nearby along the coast. To 
improve freight mobility, it is important that we reduce congestion on 
these key freight transportation corridors. Farmers in my state also 
rely on an integrated surface transportation system that includes 
trucks, rail, and barges to get their produce to market. The next 
surface transportation bill should make improving freight mobility as 
one of its guiding principles.
    So what is the appropriate Federal role in the transportation 
system? Let me start with the obvious ones.
    First, the Federal Government has a responsibility to maintain and 
improve the Interstate Highway System. The Interstate highways 
represent slightly more than 1 percent of the Nation's highway miles, 
but carries approximately one quarter of U.S. highway traffic and three 
quarters of long-haul track traffic.
    Second, the Federal Government needs to ensure the condition of the 
roads connecting to Federal and tribal lands.
    Third, the government must help reduce congestion by adding 
capacity, supporting alternative modes of transportation, and providing 
incentives for state and local governments to use traffic management 
tools such as congestion pricing to reduce traffic.
    Then there is improving highway safety--in both urban areas, as 
well as the rural two lane road--protecting the environment, and 
supporting projects that improve freight mobility.
    What actions are required?
    For starters, it will require continuous planning and coordination 
by stakeholders at all levels of government.
    It will require us to supplement our current system for financing 
surface transportation, which is done today by and large through a fuel 
tax. We need to keep all options on the table.
    It will require a willingness to work through a number of practical 
issues surrounding congestion pricing.
    It will require a willingness to take risks and insert new 
technologies such as intelligent transportation systems.
    I look forward to hearing from the witnesses.

    Senator Lautenberg. Senator Udall?

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman. I would also like 
to put my statement in the record and then just touch on a 
couple of points that I hope Secretary LaHood touches in his 
testimony.
    You have talked a lot, I think, about rural transportation 
and livability in rural communities. So, I hope you can talk a 
little bit about that initiative, Secretary LaHood. I know that 
you are new on the job.
    One of the other areas that I am very interested in, 
though, is drinking and driving and bringing down the fatality 
rate. I wonder what kind of new thinking is going on within the 
Department to keep pushing this in terms of lowering those 
numbers. My State of New Mexico is looking at things like 
ignition locks, all sorts of a variety of different things in 
order to keep people from getting back in cars. I do not know 
whether those have been looked at at the Federal level, but I 
would be very interested in your thoughts on that.
    And then railroad safety. You say in your testimony that 
freight and passenger transportation is expected to be 
increased two and a half times over the next 40 years. And I am 
wondering what the balance is going to be. Are you pushing more 
on passenger, as Senator Johanns talked about, more freight? I 
hope that we move like our Governor, Governor Richardson, did 
to push commuter rail especially in the big areas.
    Your transportation plan, I believe, has 10 regions where 
you are looking at the overall, when you unveil this, of high-
speed rail. Maybe I missed it, but I did not see anything on 
the Southwest. I did not see anything on El Paso, Denver, 
Albuquerque, connections there, north, south, or east and west. 
I do not know whether that is because the states have not 
gotten together to push you. I am just wondering what we need 
to do to get on the map in that particular respect.
    So, it is wonderful to have you here again. I saw you at a 
town hall meeting with Bernie Sanders up in Vermont. You are 
obviously making it around the country. You have got a lot of 
energy that you bring to this job, and we are happy to have you 
here today. I hope you can address a couple of those questions. 
Sorry, I am going to have to slip in and out of here, but we 
look forward to hearing from you. Thank you.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico

    Thank you, Mr. Chairman for calling this hearing today. I also want 
to thank Secretary LaHood and the distinguished panelists for sharing 
their insights into our Nation's transportation needs.
    We must ensure that our National Surface Transportation Policy is 
guided by the need to promote economic growth while protecting public 
safety and the environment.
    Efficient transportation fuels job growth and enhances our quality 
of life. Yet America's transportation system relies heavily on foreign 
oil and pollutes the air with greenhouse gas emissions. We must 
therefore encourage alternatives to automobiles and look at ways to 
reinvigorate rail transportation for both passengers and freight.
    We all remember the dramatic--and fatal--collapse of the 
Mississippi River Bridge in Minnesota. Although such collapses are 
thankfully rare, many Americans do not realize just how much of our 
Nation's transportation infrastructure is crumbling. The American 
Society of Civil Engineers gives most of the country's infrastructure a 
``D'' grade due to lack of investment over the decades since this 
infrastructure was built.
    President Obama's stimulus plan is helpful but--as Secretary LaHood 
has pointed out--it will not be enough to meet all of our Nation's 
transportation challenges.
    Yet infrastructure challenges are not the only safety hazards we 
face. This committee has the important responsibility of ensuring that 
transportation policies help ensure public safety--for roads, rail, and 
pipelines. In my state, tragic accidents have highlighted the dangers 
of each of these types of hazards.
    One safety problem we confront is drunk driving, which continues to 
kill far too many Americans. One third of traffic fatalities in my 
state involved alcohol-impaired drivers--even though New Mexico is 
aggressively addressing this problem through a combination of 
enforcement and education efforts. I therefore appreciate Secretary 
LaHood's strong commitment to safety and his interest in exploring 
innovative ways to reduce death and injury from impaired driving.
    Finally, as Congress considers Federal transportation 
reauthorization, I will be looking for ways to ensure coordination and 
cooperation at the Federal, state, and local level to ensure that 
transportation funds are spent efficiently and wisely.
    I want to thank our panelists again for sharing their thoughts on 
how we can not only meet today's transportation needs but also build a 
strong foundation for future generations of Americans.

    Senator Lautenberg. Thank you, Senator Udall.
    I am going to call on the Secretary momentarily.
    I have several charts that I think we can hand out to 
everybody that will show you what the investments have been 
like in rail, as well as aviation and highways. They will help 
you to see the comparison and to try to get some understanding 
across the board.
    What we are looking for here is a balanced transportation 
policy. We cannot ignore the problems of the urban states and 
we dare not forget about the contribution made by the rural 
states in our country. But the needs definitely in the 
transportation modes are quite different.
    That is why I was so pleased when President Obama selected 
former Congressman Ray LaHood to take this job not only because 
he was quite a vote of trust, as well as respect, but because 
Mr. LaHood was a conscientious Republican and he cared about 
the general interests in a very direct way. So, he comes here 
with good credentials, and we are pleased to see Ray LaHood 
here. He has already shown his commitment to change about how 
we travel by supporting funding for new high-speed rail lines 
and mass transit across the country and in my region. I look 
forward to working with him to achieve the vision that we both 
foresee for our country.
    Secretary LaHood, please, let us have your testimony.

           STATEMENT OF HON. RAY LaHOOD, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary LaHood. Thank you, Mr. Chairman, and to Ranking 
Member Thune and members of the Subcommittee, thank you for 
inviting me here today to highlight the policy priorities of 
the Department of Transportation and outline some of the 
challenges we must overcome.
    Transportation has always been critical to America's 
economic health and competitiveness. From the construction of 
the Erie Canal to the interstate highway system, our ability to 
facilitate the safe and efficient flow of people and commerce 
has accounted for much of our success.
    Today the stakes are higher than ever. President Obama 
recognizes that strengthening our transportation infrastructure 
is tied to broader efforts to restore our economy and put 
Americans back to work. Clearly, the American Recovery and 
Reinvestment Act was designed in part to do just that, and I 
believe we are succeeding. Of the roughly $48 billion allocated 
for transportation under the Recovery Act, we have already made 
nearly $38 billion available to more than 2,800 surface and 
aviation improvement projects. More than $9 billion of these 
funds have been obligated in nearly every state and territory.
    This summer, we will begin awarding a portion of the $8 
billion to deserving rail corridor projects around the country. 
This investment will jump start the development of a world-
class, high-speed rail system and strengthen our existing rail 
infrastructure. Through these investments, we are helping to 
restore a measure of hope to the middle class by putting men 
and women back to work in good-paying local jobs.
    But we must understand that the Recovery Act is not an end 
in itself. It is, rather, the beginning of a new direction for 
transportation policy in this country. Several trends suggest 
we need to find new ways to preserve and invest in multimodal 
transportation solutions that meet the evolving needs of urban, 
rural, and suburban communities. For instance, a rapidly aging 
population is becoming less mobile and seeking alternatives to 
the automobile.
    Meanwhile, demand for public transit in congested 
metropolitan areas is at an all-time high. Our domestic 
seaports and intermodal rail and truck freight systems 
experience delays that impede the efficient, cost-effective 
movement of imported goods. And the increase in vehicle miles 
traveled on our roadways has outpaced population growth by 
almost four to one.
    We cannot continue down this path. And we cannot expect the 
transportation policies of the past to take us where we need to 
go in the future. We must realign our priorities and our 
investments so we can focus on national and regional 
transportation solutions that promote safety, economic growth, 
and make our communities more livable and sustainable in the 
long run.
    We are tackling these challenges head on. For example, we 
are actively exploring new approaches and performance measures 
to help reduce transportation-related fatalities across all 
modes.
    To support livable communities, our Department is working 
with the Department of Housing and Urban Development on 
specific initiatives to encourage the development of more 
affordable housing near transit. This is imperative, given that 
American families spend nearly 60 percent of their household 
budget on housing and transportation.
    We are coordinating with the Department of Energy and the 
Environmental Protection Agency to reduce our dependence on oil 
and reduce greenhouse gas emissions by setting new fuel 
efficiency standards for autos and trucks.
    And we are also investing in cleaner, alternative-fuel 
buses and environmentally sustainable technology for transit 
and aviation.
    We will work closely with Congress on a new transportation 
authorization bill that we hope will give communities the 
ability to prioritize investments in local roadways, transit, 
and bicycle and pedestrian paths. One size will not fit all as 
urban and rural communities seek to preserve their unique 
qualities while encouraging economic growth.
    We also need innovative approaches to financing our 
transportation needs for the years to come. President Obama's 
Administration is committed to investing in transportation 
systems that work for all Americans and enable us to compete in 
a global economy for years to come.
    I assure the Committee that as we move forward, we will 
adhere to the highest standards of accountability and 
transparency and seek measurable results for all that we do.
    Mr. Chairman, this concludes my testimony. I am happy to 
receive any questions.
    [The prepared statement of Secretary LaHood follows:]

           Prepared Statement of Hon. Ray LaHood, Secretary, 
                   U.S. Department of Transportation

    Chairman Lautenberg, Ranking Member Thune, and members of the 
Subcommittee:
    I appreciate the opportunity to appear before you today to discuss 
the policies that will guide our Federal transportation programs in 
meeting our Nation's economic, safety, social, and environmental goals.
    Before I address the question of future policy directions, it is 
essential that we take account of the very serious economic problems 
facing the Nation and the efforts underway by the Department to rapidly 
and efficiently allocate the transportation funds made available under 
the American Recovery and Reinvestment Act of 2009 (ARRA). These funds 
are being used by states and localities to both create and retain jobs 
and, at the same time, to make important improvements to the national 
transportation system. Of the $787 billion of spending and tax law 
changes in ARRA, over $48 billion will be invested in transportation 
infrastructure; a good portion of those funds are already in the hands 
of recipients and work is underway on hundreds of projects. We are 
working diligently at the Department of Transportation to ensure these 
funds are distributed and that project work is started as quickly as 
possible so that jobs are created, economic growth begins again.
    Turning to the longer-term transportation policy, we need to 
consider that over the next 50 years the U.S. population is expected to 
rise by over 60 percent, and the Gross Domestic Product (GDP) to 
quadruple. As our population grows, and as incomes rise, the demand for 
transportation will grow accordingly. The question is how will we 
respond to this demand?
    Since 1970, there has been a 173 percent increase in vehicle miles 
traveled (VMT; the total miles traveled by all U.S. vehicles), while 
the population grew 47 percent. In other words, VMT increased at almost 
four times the rate of population growth. Notwithstanding some 
anticipated reduction in VMT growth in the near term, reflecting the 
current downturn in the economy, this growth trend is clearly 
unsustainable.
    In the past, population and economic growth have always led to 
large increases in highway travel. This is because most communities' 
have built transportation systems that only allow people and goods to 
move by road. This Administration believes that people should have 
options to get to work, school, the grocery or the doctor that do not 
rely solely on driving. We want to transform our transportation system 
into a truly multimodal system with strong alternatives to driving in 
order to maximize highway capacity, combat traffic congestion, reduce 
our reliance on oil and decrease greenhouse gas emissions.
    President Obama has already begun to chart a different course. 
Beginning with the ARRA, $8 billion was included for passenger rail 
investment. The Department of Transportation has released a strategic 
plan outlining the President's vision to rebuild existing rail 
infrastructure while developing a comprehensive high-speed intercity 
passenger rail network through a long-term commitment at both the 
Federal and state levels. We will begin accepting applications for this 
funding this summer. ARRA also provided $8.4 billion for transit 
capital improvements that will enhance local transportation and help 
relieve congestion.
    Addressing the mobility needs of our citizens, we must keep in mind 
that an aging population will increasingly challenge our transportation 
system. The percentage of the population over 65 will almost double 
during the next 50 years, from 12 percent to 21 percent. Those older 
people--the people just graduating from college today--will demand a 
high level of mobility. This population should be able to maintain a 
high level of mobility without having to rely only on the automobile. 
Public transportation, that provides convenient and affordable 
transportation service, must be available. Transit-oriented, mixed-use 
development can especially benefit our older citizens. We need to 
continue our efforts to coordinate government and non-profit 
transportation services to make it easier for older adults--as well as 
people with disabilities and people with low incomes--to live 
independently and get where they need to go.
    Within metropolitan areas, non-work-related trips will continue to 
become a larger percentage of all trips, as the population ages and the 
percentage of population in the workforce declines. Some of this non-
work-related travel will take place during peak commuting hours, as 
workers combine several errands into one trip on their way to and from 
work. Some will take place outside of traditional peak commuting hours, 
contributing to the spreading of the peak traffic hours over the entire 
day. That is why investments in alternatives to driving and livable 
communities are so important: it will allow many of these trips--such 
as school drop-offs or trips to the post office--to bypass the roads 
all together, making room for those that must rely on highway travel. 
Innovative policies such as road pricing can, where appropriate, 
significantly reduce congestion by providing users with incentives to 
shift non-essential travel to off-peak hours or seek alternatives to 
peak driving. The availability of reasonable alternatives to driving is 
crucial to the success of such innovation.
    Over the next 40 years, we expect the demand for both freight and 
passenger transportation to increase by about two-and-a-half times. 
Since 1970, exports as a percentage of GDP have almost doubled, and 
imports have tripled. Moreover, the U.S. manufacturing base is 
increasingly shifting to high-value, high-tech products like 
pharmaceuticals and instruments, in which we retain a comparative 
advantage. These high-value products require an expedited 
transportation system that relies increasingly on overnight truck and 
air freight delivery. Our increasing reliance on imports of lower-value 
manufactured goods (and parts for domestic manufacturers) places a 
growing reliance on key ports of entry, such as the San Pedro Bay ports 
of Los Angeles and Long Beach, Puget Sound ports of Seattle and Tacoma, 
and the Port of New York and New Jersey, one of the busiest on the East 
Coast. Landside connections to these ports, linked to an efficient 
domestic intermodal rail and truck freight transportation system, will 
be important to keeping the delivery costs of these commodities low. 
Overall, the shift in GDP from goods production to services production 
will cause freight vehicle-miles traveled to grow more slowly than GDP, 
but the growth will still be large.
    Overall, we can anticipate an economy in the year 2050 four times 
as large, with surface transportation demands increasing by perhaps 
two-and-a-half times. How will our transportation system handle these 
demands? We certainly cannot more than double the number of lanes-miles 
of highways. Lane-miles of highway have increased by only 5.42 percent 
over the past 24 years, and an extrapolation to 2050 suggests that 
highway capacity will only increase by 10 percent by that year. So we 
can anticipate that highway capacity will not keep up with 
transportation demand, if we continue to invest our transportation 
dollars as we have in the past.
    With these great challenges it is essential that our transportation 
policies be framed so that we can meet these demands and at the same 
time be consistent with the major goals I have established for guiding 
the actions of the Department of Transportation: economic recovery; 
safety; and livable and sustainable communities will be the key 
organizing themes as we in the Department reformulate existing policies 
and develop new policy directions for the future. I would like to 
expand just a bit on these goals and how they will guide policies for 
the future. They will be important themes as we prepare reauthorization 
ideas and proposals for both surface and air transportation.

Economic Recovery
    Surface transportation investment is an important element of 
President Obama's Economic Recovery and Reinvestment efforts to put 
people back to work and reinvigorate the economy. I have already 
mentioned the tremendous cost that congestion exacts on the Nation's 
economy. Improving the efficiency and reliability of our surface 
transportation system will be vital to enhancing the Nation's 
productivity and competitiveness in an increasingly global economy. 
Good transportation allows people to get to jobs and businesses to 
access wider pools of labor, suppliers, and customers. The ability to 
efficiently move freight will be critical to our economic recovery. 
Without renewal and restoration of our transportation infrastructure, 
it will not be able to support the needs of a growing economy. We need 
to better integrate the different transportation modes so that they 
work better in achieving lower costs and improved service quality.

Safety
    Safety will continue to be a high priority for the Department. The 
total number of transportation-related fatalities in the country is 
unacceptable. Concerted efforts to improve safety are needed in all 
surface transportation modes including auto, truck, transit, rail, bus, 
motorcycle, and pedestrian safety. Innovation and technology will be 
critical to improving vehicle and infrastructure safety. We must also 
explore innovative ways to reduce deaths and serious injuries caused by 
impaired driving, failure to wear seatbelts and motorcycle helmets, and 
other high risk behaviors. As safety problems vary from state to state, 
data-driven, performance-oriented programs must be established to 
identify the most cost-effective strategies to improve safety in each 
jurisdiction.

Livable and Sustainable Communities
    One of my highest priorities is to help promote more livable 
communities through safe, reliable and accessible surface 
transportation choices. Actions on many fronts will be required to 
enhance transportation's contribution to strong and connected 
communities. A livable community requires that transportation solutions 
be tailored to the needs of the individual community or region as one-
size-fits-all solutions are no longer viable.
    Our initial focus will be on expanding the transportation choices 
available to American families. All segments of the population must 
have access to transportation services to get to work, housing, 
medical, educational, shopping, and other essential activities. Linking 
transportation and land-use planning to promote improved access to 
transit and creating walkable, bikeable communities will increase 
overall mobility and benefit all Americans.
    The average working American family spends nearly 60 percent of its 
household budget on housing and transportation costs, making these two 
areas the largest expenses for American families. Affordable housing 
near transportation is an important element of livable communities and 
we have already started working with HUD to help provide American 
families with more choices for affordable housing near jobs and improve 
their range of transportation options while lowering their 
transportation costs.
    Livability is not just an urban idea. The Department is working to 
improve livability of rural Americans as well. Many rural communities 
face tough choices as they try to attract economic development. They 
want to grow and attract new jobs but do not want to lose the unique 
character of the area. Transportation investments in these communities 
can be designed in a way to support new development while maintaining 
the small town character that makes these communities home.
    The Obama Administration considers a comprehensive energy plan that 
will generate clean energy jobs, reduce our reliance on oil, reduce 
pollution and natural resources impacts, create more livable 
communities, and attack climate change, a major priority. The President 
has announced a series of aggressive actions to lower greenhouse gas 
emissions. These actions include improving the fuel efficiency of 
automobiles, intensifying U.S. actions on energy efficiency and 
renewable energy through the Recovery Act, and asking Congress to pass 
comprehensive legislation to address carbon pollution. DOT recently 
issued new fuel economy standards for passenger cars and light trucks 
for model year 2011 and is coordinating with the Environmental 
Protection Agency and the Department of Energy to develop standards for 
2012-2016. Sustainability also means that as we plan for transportation 
and make system improvements that we enhance the natural environment.
    These goals will help guide the Department in policy formulation 
and in reformulating our programs where needed. Our actions will also 
adhere to several other themes that are central to this 
administration's objectives and way of doing business:

Accountability, Transparency, and Performance
    Key tenets of the Obama Administration are accountability, 
transparency, and performance in Federal programs. Congress demands it, 
the public demands it, and it is the right thing to do. New processes 
will be needed to implement performance-based programs. In some cases 
this may require changes to long-standing procedures. Performance-based 
programs cannot be implemented overnight, but when fully implemented 
they will provide the means to improve investment decisions, improve 
the performance of our transportation systems, and improve our 
stewardship of taxpayer dollars. As we recently pointed out in the 
President's Budget for Fiscal Year 2010, greater use of economic 
analysis will be needed in transportation planning and project 
development. When planning begins with an accurate analysis of the 
benefits and costs of transportation investments, we can ensure that 
the taxpayer is getting the greatest return on project spending.

Innovative Programs and Projects
    Innovation traditionally has been a hallmark of progress in 
transportation. Challenges today may be different from the past, but 
the role of technology and innovation is just as important. Technology 
will be central to our efforts to improve safety, reduce congestion, 
and manage our infrastructure more effectively. NextGen and the ITS 
program are examples of technological breakthroughs that are close on 
the horizon that will greatly improve the safety and efficiency of our 
national aviation system and our surface transportation systems. We 
must continue to invest in research and development as important 
elements of our overall policy development. Absent research and 
development to identify and develop smarter and more environmentally 
friendly transportation solutions that will fully, effectively and 
efficiently address the challenges facing our transportation system, we 
will have no choice but to apply old and inadequate technologies to 
solve new and more complex problems. Our nation can ill-afford the 
financial and system performance costs of attempting to address 21st 
century challenges with 20th century solutions.
    Innovation is not limited to new technologies, however. Innovations 
in the way we deliver programs and in the way we incentivize optimal 
user behavior will be just as important in our efforts to improve all 
aspects of transportation system performance. We should also be 
adopting principles of economic return and cost-benefit measurement in 
the planning processes that prioritize future system investments.
    In conclusion I would like to thank the Committee for allowing me 
to discuss the goals and themes that will guide the development of 
policies during my tenure at the Department of Transportation. While 
the immediate needs of economic recovery are the primary concerns 
today, we must also prepare for the future when the Nation's and the 
world's economies are back to normal. We have established guiding 
principles to ensure that our transportation systems meet the 
challenges of the 21st Century and support our energy, environmental, 
and livability goals for all citizens.
    I would be happy to answer any questions you may have.

    Senator Lautenberg. Thank you very much, Mr. Secretary.
    You noted that congestion is all over, whether in the 
largest cities or in the more distant communities. And it has 
had a tremendous negative impact on our economy, delays, 
highway wear and tear, and it is facilitated by insufficient 
trackage for freight rail.
    So in the next surface transportation bill, what do you 
think we ought to do to address this congestion that prevents 
us from functioning and that creates the other problems that we 
all are aware of that plagues both travelers and freight 
traffic in terms of rail?
    Secretary LaHood. Mr. Chairman, first of all, I think we 
have to make a commitment to continue to make sure that the 
state-of-the-art interstate system that we have in this country 
is well maintained. We built a state-of-the-art system and we 
need to make sure that it is maintained.
    But we also have to offer opportunities for people that 
want to get out of their automobiles, that want to use light 
rail, that want to use transit, that want to use Amtrak, that 
want to use other modes of transportation. In the economic 
recovery, our portion of it, the largest share of the dollars 
is for roads and bridges, but we also have money committed for 
airport repair. We have runway repair. We have money committed, 
$8 billion, for transit. We have more money committed for high-
speed rail than we have ever had.
    And I think that is an indication that this Administration 
will make a commitment to not only continue to maintain our 
Highway Trust Fund, but to really look at priorities for how do 
we move people from rural communities into opportunities to go 
to doctors appointments and hospital appointments and those 
kind of things, to go to the grocery store, but also for people 
who want to get out of their cars, make other forms of 
transportation available to them.
    Senator Lautenberg. I have a chart here. At best from a 
distance, only the color variation is available. But there is a 
very thin line here that is rail investment. This is highway 
and then air. I hope that these charts have been distributed. 
If not, we will get them to you.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    But what we have is pitifully small investments in rail.
    The car has been such a convenience for America to get in 
and go someplace. The problem is that going someplace means 
that you have to have the ability to jump over lots of cars in 
front of you.
    The patterns have changed substantially. I have seen it in 
my own state. New Jersey is the most densely populated state in 
the country, more people per square mile than any other state. 
So we have to get around as efficiently as possible.
    We have essentially built light rail lines that connected 
some cities and found out that hardly anybody boarded those 
lines in the earliest days but now there are opportunities for 
businesses to come to essentially transit-type villages around 
the stations, which is a European concept. Development does 
take place and jobs occur along light rail lines.
    But the one thing also that we dare not ignore is the 
contribution that rail freight makes to our society. Freight 
traffic is projected to increase nearly 70 percent by 2020. In 
the last administration, DOT failed to develop a complete 
freight policy program.
    Now, does your Administration now--and it is yours--and 
your Department have a strategy to improve the efficiency of 
freight transportation, as well as the safety side of things?
    Secretary LaHood. You know, I take your point on this, Mr. 
Chairman. I think it is a good point. I think it was the point 
that Senator Johanns was also making. Freight rail is very 
important in America and we should have a very strong freight 
rail system and plan and program. I have met with some of the 
freight rail folks, some of the CEOs of these companies. They 
have come by to see me. We are committed to working with you, 
the Senate and the House, to make sure we have a comprehensive 
freight rail system that is safe because it makes an enormous 
contribution in our country.
    Could I say one word about light rail, Mr. Chairman?
    Senator Lautenberg. Sure.
    Secretary LaHood. I was in Houston recently and rode on a 
light rail system that goes from downtown Houston and delivers 
people to one of the finest medical centers anywhere in the 
world, Children's Hospital, M.D. Anderson, and many other 
facilities. And for poor people who cannot afford to get in an 
automobile and drive the 15 or 20 miles, this is one of the 
best light rail systems. It is proof that people will use light 
rail if you provide them the opportunity. And to be able to 
deliver these folks to the best medical care perhaps in the 
world, I think is an example of where we need to replicate that 
in places around the country. It works.
    Senator Lautenberg. And I mentioned to Senator Hutchison, 
who knows that I used to run a good-sized computer company, and 
we located in Houston above a road that was just being 
developed. And it was suggested that there might be a light 
rail system there. And I heard skeptics say, oh, you cannot 
have a light rail system here. And when we hear something like 
this, you ain't got no choice, as they say. I agree.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, in your written testimony, you state that--
and I quote--``this Administration believes that people should 
have options to get to work, school, the grocery, or the doctor 
that do not rely solely on driving. We want to transform our 
transportation system into a truly multimodal system with 
strong alternatives to driving in order to maximize highway 
capacity, combat traffic congestion, reduce our reliance on 
oil, and decrease greenhouse gas emissions.''
    And then you go on to say that President Obama has already 
begun to chart a different course and highlight that with the 
economic stimulus package. $8 billion was included for 
passenger rail investment.
    South Dakota is one of four states that is not served by 
Amtrak, and so it will not benefit much from any of that money. 
We rely on driving. That is not going to change much during 
this administration regardless of how much we try to transform 
our transportation system. And while bus transportation can be 
an option for certain travel, people out here should not kid 
themselves. Public transportation does not exist as a practical 
matter for average South Dakotans to attend a PTA meeting or to 
get to church on a Sunday. It just is not a reality.
    So I guess my question is sort of a broader one. How does 
the Administration's vision to transform our transportation 
system impact rural states like South Dakota?
    Secretary LaHood. Well, Senator, I will go back. When I 
started answering the Chairman's question, I made the point 
that we have to maintain a commitment to our interstate system. 
It is a state-of-the-art system, and people around the world 
come to America to look at our interstate system because they 
know it works. We cannot give up on our opportunities to make 
sure that that is a well-maintained system, particularly in 
states where you have no other form of transportation. So we 
are going to be committed. We are not giving up on the 
interstate system. We know, particularly in rural areas and 
states like you come from, that it is the mode of 
transportation, and we will be committed to it.
    Senator Thune. I want to say that in your written testimony 
you did acknowledge rural America with regard to the issue of 
livable and sustainable communities.
    I think the biggest food fight that happens around here in 
Washington generally is the fight between donor and donee 
states when it comes to a highway bill reauthorization. It is 
probably the least pleasant part of any highway bill, and I am 
afraid that is likely to hold true for the forthcoming debate 
that we will have about the next bill.
    But the real issue here is going to be funding and how we 
come up with the funding that is necessary to truly maintain a 
national transportation system. So I guess I am curious to know 
what your views are concerning the shortfall in the Highway 
Trust Fund and what are your thoughts about how best to strike 
the proper balance among urban and rural states.
    Secretary LaHood. Well, look it, we would not have the 
interstate system that we have without the Highway Trust Fund. 
It was a good mechanism for funding roads, but it is a system 
that is clearly inadequate to do all the things that we want to 
do, that you all want to do. So I have said, everywhere that I 
have been going, we need to think outside the box. We need to 
think about public-private partnerships.
    We need to think about your bill that would hopefully 
create some kind of an infrastructure bank, you know, the Buy 
America Bonds. I hope that you all get around to debating that 
bill and perhaps including it. I think it is one of the 
alternatives that we can use when we think outside the box 
about not eliminating the Highway Trust Fund. We should use it 
but we know that it is inadequate.
    In some states where they have congestion, they put these 
HOT lanes which they have built with tolls in order to add a 
lane on a road that allows people then, if they need to go 
faster, if you need to put a bus on there, you have these 
lanes. And they have been built by using tolls. Tolling bridges 
is a good way to build bridges. We have lots of opportunities 
where people want to build bridges too.
    There are four or five different alternatives other than 
the Highway Trust Fund.
    I mean, I will tell you this, and I know this causes some 
people heartburn. The Administration is not going to be for 
raising taxes to increase the Highway Trust Fund. With the kind 
of economy that we have today, it is not the time to be raising 
the gas tax.
    So we are committed to thinking about a lot of 
alternatives. The one that we just simply think is the wrong 
time is raising the gas tax.
    But there are other alternatives, and one of them is your 
bill, Senator, and we think it is a pretty good approach. I 
hope you all get around to debating that, and I hope it can be 
included as one of the alternatives. We need some alternatives 
to fund all the things we want to do.
    I want to say a word about broadband because I think it 
does affect states like you represent. In the economic recovery 
plan, there is money in the bill that if we are going to lay 
down roads, if we are going to build new roads, there is 
opportunity to put the fiber in the ground and begin to think 
about how we broadband states. You know, I am from a state 
where if you go south in Illinois, the technology is not there 
to do what people can do in Peoria or Chicago. And there is 
some money in the economic recovery to really begin to think 
about how we broadband states and particularly in rural 
America. And you can do it when you begin the construction of a 
rail line or a highway, and we hope there will be continued 
funding to do that. We think it is an important part of really 
connecting America technologically.
    Senator Thune. Mr. Chairman, I had another question but 
with that endorsement of my bill, I think I will quit while I 
am ahead.
    [Laughter.]
    Senator Lautenberg. That is not unanimous consent.
    [Laughter.]
    Senator Lautenberg. Senator Hutchison?
    Senator Hutchison. Well, thank you, Mr. Secretary. I am 
wondering if I could get an endorsement for my bill. That was a 
joke.
    [Laughter.]
    Senator Hutchison. I do want to ask you, though, on that 
because I am sure you would not want to endorse it without even 
looking at it. But a question is since the highway system was 
completed 20 years ago, do you think that it is time for us to 
start looking at perhaps different ways of dividing this up 
where you have some high-growth states that are hurting for 
highway money and then you have these areas that are so 
congested, as you have pointed out? And of course, tolling one 
lane to build another is, I think, a very legitimate way to do 
it with local input.
    But do you think it is time to look at this formula to 
determine how is the fairest way to have a Federal role for the 
states? And if so, what are your thoughts about what would be 
maybe the next step for maintenance and keeping the highways up 
but not necessarily adding to the system?
    Secretary LaHood. Senator, I am going to leave the debate 
on the formula to you all. You know, I think it is better left 
to Congress.
    But I want you all to know that we are going to be 
committed at DOT to maintaining the interstate highway. We 
should do that. That has to be a priority. The interstate was 
built with the hard-earned dollars of taxpayers, and it is a 
state-of-the-art system and we need to maintain it.
    The formula I am going to leave for you all to figure out, 
and whatever you decide, DOT will implement.
    Senator Hutchison. But let me ask you this. This is 
something that you can affect. This is the book of laws that 
affect what you require of state departments of transportation 
when you are giving Federal money. That was 1998. This is the 
book for 2008. You have heard the complaints from highway 
departments of the delay that is necessary because of all of 
the Federal regulations and mandates.
    My question is, are you looking at this with maybe a view 
toward lowering the number of strings and requirements and 
mandates that would lower the amount of time that it takes from 
planning a highway that would use Federal funds to completion?
    Secretary LaHood. Absolutely. I think that I can safely say 
that we have proven that with $48 billion, we put together a 
team of people that goes to something that Senator Warner and I 
have talked about. How do you break down the modes? We created 
a TIGER Team, and that's an acronym for something. But what it 
really means is that----
    [Laughter.]
    Secretary LaHood. What it really means is that we took all 
the modes and they get together every day and talk to one 
another about how we get the $48 billion out the door, meet all 
of our requirements, no earmarks, no boondoggles, no sweetheart 
deals, but the money is spent correctly.
    And we have proven that we can do it with $48 billion. I 
think we can do it with whatever dollars you give us, which 
will be much more than $48 billion. It takes people talking to 
one another at DOT and making sure that things are done by the 
book, but we do not string people out for years and years and 
years.
    Every time I come before the Senate, I hear this complaint. 
It is a legitimate complaint. And we are going to be committed 
to streamlining how we get money out the door so that people 
can do the things that are necessary to get around the country.
    Senator Hutchison. What role will the Administration play 
in the reauthorization bill? Are you going to present a bill?
    Secretary LaHood. We are going to present some principles 
to the Congress that we think are very important, some 
transportation principles. We want to be in the room. We want 
to be in the game. We want to be available when folks are 
writing the bill. So we are working with the President and his 
team at OMB to develop these principles. As soon as we have 
them, you will all have them, and you will know what direction 
the President wants to take with transportation and the 
authorization.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Thank you, Senator Hutchison.
    Senator Begich?
    Senator Begich. Thank you very much, Mr. Chairman.
    Mr. Secretary, thank you very much for being here. If I can 
ask you just a couple questions. One, I just want to get the 
hard issue out of the way for me at least.
    A couple months ago, I sent you a letter regarding a 
comment you made, and I just wanted to give you an opportunity 
to expand on it. And that is, as a former mayor, I am biased, 
of course, and you can probably imagine that. I think when we 
had your confirmation, I mentioned that too. And it was the 
comment that they simply do not have the ability to do what we 
want to do.
    I guess I would just like you to expand on that because, of 
course, I think in a lot of ways some of the large city local 
governments have been able to achieve some great things in 
regards to their road infrastructure. I just want to get your 
thoughts on that comment about how you see local communities 
participating in direct allocation from DOT to directly get 
dollars onto the street literally.
    Secretary LaHood. Senator, I have met with a number of 
mayors. Mayor Hickenlooper put together a group of mayors. He 
is the Mayor of Denver. He put a group of mayors together. And 
we just had a meeting--I do not know--2 or 3 weeks ago talking 
about how we can interface better with our Department and 
mayors who have to work through governors and state DOTs in 
order to fix up their infrastructure.
    One of the things we talked about--the metropolitan 
planning organizations were good in terms of building the 
interstate system and fixing up roads. But you have mayors like 
Mayor Daley in Chicago and other big city mayors that have 
reached out well beyond their cities. They have gone out into 
the suburban area.
    Senator Begich. Regional, yes.
    Secretary LaHood. They have gone regional and they have 
done it because it benefits them, but they know it benefits 
other mayors out in these other communities.
    And I hope that when you are all writing this new 
transportation bill, that you will look at an opportunity to 
restructure how planning is done for infrastructure beyond just 
the urbanized areas out into the rural areas, out into the 
suburban areas so that it can be inclusive for mayors so that 
when dollars are spent, your point of contact does not always 
have to be the governor or the state DOT. It could be a region 
of the country that has the capability.
    I mean, one of the things under the stimulus plan under our 
part was we needed to get the money out the door in 120 days 
because that is the way you all wrote the bill. In order to do 
that, we had to have relationships with state DOTs and 
governors who had the mechanism to check all the boxes to make 
sure it was done right. Some small cities do not have that 
capability.
    Senator Begich. Understood.
    Secretary LaHood. But if they hook up with other cities and 
other suburban mayors and other rural mayors with a big city 
mayor, they can all work together to get it right.
    And that is what I am really hoping. We need to restructure 
the way that we get the money out the door so we can be 
inclusive.
    Senator Begich. Perfect. That gives me a lot of opportunity 
then, and that is what I am looking for. I think you are right. 
It is more of a regional approach that mayors are doing now 
versus just their city or their community.
    In Alaska, we have a system called the Marine Highway 
System, which is a transportation network for southeast Alaska, 
Juneau, Sitka, Ketchikan, Wrangell, Petersburg, and so forth. 
It is never really part of the Federal highway transportation 
bill because they do not view it as transportation. The fact is 
that is our highway. That is the only way you move freight, 
people to hospitals, and so forth.
    How do you view those types of systems where that is the 
exclusive way to move from one place to the next. There is no 
road. There is air but no road transportation. And it is cost 
prohibitive because you would be building bridges decades 
centuries later.
    Secretary LaHood. In our Department, we have an agency 
called MARAD----
    Senator Begich. I know MARAD well.
    Secretary LaHood. Yes. Again, we need to work with you as 
we get into the authorization bill about providing some 
opportunities for states just like yours. I mean, the folks in 
MARAD believe in what you are talking about. And we have talked 
about it in the agency and we have talked about it as a part of 
authorization.
    We are willing to work with you. In the authorization bill, 
this is the creative thinking of the 21st century, if you will.
    Senator Begich. Let me ask you one more. On this, I may not 
have all the information right, but I became aware of it and I 
just want your thoughts on it.
    I think it was in 1967 or so, but the Coast Guard managed 
permitting bridges when it was with the Transportation 
Department. Then the Coast Guard got shifted to Homeland 
Security in 2003. The permitting is still over there with the 
bridges.
    Do you see the Federal Highway Administration really 
managing that into the future, and is that something we should 
look at within the reauthorization putting permitting of 
bridges within the----
    Secretary LaHood. I will tell you this.
    Senator Begich. I do not want to get your agency to agency, 
but I just----
    Secretary LaHood. No. Look it, we would love if Congress 
would give Coast Guard back to DOT.
    [Laughter.]
    Secretary LaHood. There was a lot of heartburn when Coast 
Guard was taken away, and if you all want to give it back to 
us----
    Senator Begich. I am not sure I want to get into that, but 
I am more interested in the permitting on the bridges.
    Secretary LaHood. Look it, I will look at it, Senator.
    Senator Begich. But you are not closed to it.
    Secretary LaHood. I am not closed to it, but I doubt if 
Coast Guard wants to give up that kind of responsibility. But 
certainly, if Congress decides that is a better way to go, we 
will live with that.
    Senator Begich. I will leave it at that. My time is out. 
Thank you very much, Mr. Secretary.
    Secretary LaHood. Thank you.
    Senator Lautenberg. Senator Warner?
    Senator Warner. Mr. Secretary, I have got some questions, 
but I have got to go back to one of your earlier comments. I 
completely understand during these challenging times why the 
Administration does not want to take on the question of gas 
tax, a declining long-term source of revenue anyway. And trust 
me, I still bear the scars from getting whooped really bad on a 
transportation referendum for this region in 2002 when I was 
Governor.
    But I do hope that we will continue to make the case that 
our current transportation funding sources at the Federal or 
the State level are basically bankrupt. The Highway Trust Fund 
cannot meet even maintenance needs, let alone new starts.
    Secretary LaHood. Agreed.
    Senator Warner. And while I am all for public-private 
partnerships--and no state has probably done more in public-
private than the Commonwealth of Virginia--but it is not free 
money. Sometimes the private sector deals would come in and 
would not pass business school 101 type classes in terms of 
being bad deals for the taxpayers.
    While tolling is one viable option, I hope we would not 
walk away from the continuing education process that we do not 
have enough funding to meet our core transportation needs. I 
can tell you for our state there is recognition it is a 
bipartisan issue. It is one that we have got to take on, but I 
recognize the constraints you are under, but we have to 
continue making the case that there needs to be additional 
funding.
    On the broadband, I also want to make one quick comment on 
that. We were very big advocates of that, and the minimal 
amounts of new construction we were doing during my term as 
Governor, we put in place a policy to always put in the dark 
fiber even if it was not immediately needed. But enormous 
challenges at the Federal level in terms of needing additional 
Federal go-aheads. So I would love to continue. I know Senator 
Klobuchar has got a bill on this. I would love to work with you 
on that because we are going to need some authority because of 
the jumbled masses of all the other right-of-ways that you have 
to deal with. I would urge you to think as boldly as possible 
there.
    Earlier you heard me talk--and we have talked again about 
multimodal. Let me ask my two questions very quickly. One is 
the jump-ball amount of multimodal funds that were available in 
the stimulus package--do you feel like you are making good 
progress on how you are going to assess those projects that are 
available for those jump-ball multimodal funds, number one, in 
terms of how we get to really the right criteria?
    And number two, we all talk about productivity measures, 
mobility, other non-VMT-type assessment tools. It is easy to 
talk about at the macro level. To actually to write it into 
regulations and how you drill down on that is a real challenge. 
Do you feel the Department has enough data collection 
capabilities to be able to get the information to make the 
assessment if we are going to use new assessment tools about 
which projects are going to be awarded Federal funding, if we 
are going to move away from the more simplistic VMT and other 
current----
    Secretary LaHood. Well, I mean, I think we have plenty of 
tools in the Department. I think we can make these assessments.
    Was your first question about the discretionary money?
    Senator Warner. The first question was about the 
discretionary multimodal money, which I was a big advocate for, 
thinking it was a great first step and a great way to have a 
beta test of a new, fairly unrestricted pot of money looking at 
multimodal, a way to maybe try out some new assessments on how 
you are going to evaluate the projects that applied for those 
funds. How do you feel that is going?
    Secretary LaHood. We just sent our criteria to OMB. We hope 
we will get it back very quickly. We think we can use this 
money in very, very creative ways. In the one pot, we have $28 
billion for roads. We have $8 billion for transit, $8 billion 
for high-speed. So we are looking at things like ports and 
multimodal opportunities around ports and some other 
opportunities that did not exist in the economic recovery or to 
build on some opportunities that were there where we really did 
not have the dollars.
    So we think we are going to come up with some pretty 
creative ideas for people. And we think people in the country, 
when they see the criteria, are going to come up with some very 
creative ideas.
    Senator Warner. And you think this criteria will be out 
there so that as the Congress takes on the next reauthorization 
bill, that we will see your criteria that might be able to be 
used to be----
    Secretary LaHood. Absolutely. You will see it very soon, 
probably within the next, hopefully, 10 days or so. Absolutely. 
I think it will be a creative use of the money.
    Senator Warner. Very good.
    Thank you, Mr. Chairman.
    Senator Lautenberg. Senator Cantwell?
    Senator Cantwell. Thank you, Mr. Chairman.
    I would like to continue on that same discussion and thank 
you for being willing to look at this from a perspective of 
continuing to improve the ability of commerce to flow 
effectively through our ports and to their destinations. 
Obviously, the Northwest relies heavily on our port systems for 
our economic well-being. That is moving products into the 
country and agricultural products out of the country.
    And so we have created a Freight Mobility Strategic 
Investment Board that meets every year to determine which of 
these projects should be funded from state funds so that we are 
best facilitating freight mobility. That is, obviously, not 
just for us within the state but through the Nation. The board, 
obviously, briefs Members of Congress on their list of 
projects, and so it helps us in prioritizing these from an 
economic perspective.
    One of the ideas circulating around in the new highway bill 
is to create a separate national account for freight mobility 
projects. Does the Administration have a position on this?
    Secretary LaHood. Well, we do not. As I said, we have sent 
some principles to the President and his team and to OMB. We 
hope to be able to share those with you very soon. So at this 
point, I think it is premature for me to comment specifically 
on that.
    Senator Cantwell. OK. Well, I hope that you will consider 
the success of the programs that have been implemented at the 
state level and the fact that, obviously, in our current 
economic situation, getting products moving means jobs and it 
means jobs for not just the Pacific Northwest but for everyone. 
And it has been very successful from a strategic perspective. 
So I look forward to working with you on that.
    A second question is the same priorities for another 
economic engine of the Northwest, our Washington State ferry 
system that operates 22 vessels and 20 ferry terminals and 
serves nearly 23 million people annually. I think at one point 
in time I saw that the ferry system basically served more than 
Amtrak as it relates to various populations.
    But one of the questions that I have is, obviously, the 
funding program. You know, the ferry systems overall are 
weighed together, both those that are moving tourists and 
moving integral parts of a transportation system. We use it as 
part of our national highway system in moving population 
centers to and from work locations. And so I would like to get 
your thoughts on the adequacy of the current program, and do 
you think we need to think about altering that distribution 
formula?
    Secretary LaHood. I do think that we need to--we are going 
to be making some announcements. We will receive some funds in 
the economic recovery, our portion, for some ferry grants, and 
we are going to be making those announcements very soon.
    We also have spoken out. When the ferry boat operators on 
the Hudson River saved people's lives by rushing to the US 
Airways flight, we paid great compliments to them. We know 
these ferry systems are very, very important, not the least of 
which for what they did on the Hudson River, but also for the 
kind of transportation opportunities they provide in states 
like yours and other states.
    I hope that Congress will put more of a priority on it. 
Look, we will support you on that. We think these ferry systems 
are very important.
    Senator Cantwell. It is not a paved highway system, but it 
is moving lots of people. So, I personally think we need more 
in the account, and I think we need to recognize that part of 
the system that is an integral part to moving people in 
employment centers. So I look forward to working with you on 
that.
    Secretary LaHood. I agree.
    Senator Cantwell. And I will have a couple of other 
questions, Mr. Chairman, for the Secretary about privatization 
on infrastructure, including highways and some of your thoughts 
about where we should go from there.
    But thank you, Mr. Chairman.
    Senator Lautenberg. Thank you.
    We are joined by Senator Isakson from Georgia, and we 
welcome him to take his 5 minutes.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, I will not take that long, Mr. 
Chairman. I want to apologize to the Secretary for not being 
here for his entire statement, but I am in another markup of an 
equally important appointee by the Administration.
    But I did want to come by to say that I have told everybody 
this is the best pick the President has made.
    Secretary LaHood. Thank you.
    Senator Isakson. I do not say that because we are in 
desperate need of Federal money for highways, but it might not 
hurt.
    [Laughter.]
    Senator Isakson. But I had the privilege, when I was 
elected to the House in 1999, of meeting Ray LaHood. From the 
very first time I walked in and he was presiding over the House 
with that rather authoritative scowl that he can get on his 
face, I was impressed by his ability to command a large group 
of pretty independent-thinking people.
    And we have a significant challenge in the United States 
transportation system, and I know Ray and I have talked about 
this. My state has one of the largest ports on the eastern 
coast of the United States, the major port receiving 
automobiles. We have the compressed natural gas Elba Island 
facility there which, of course, is of national significance. 
We have probably as many miles of interstate as just about 
anybody but maybe Texas and California. We have a rapid transit 
system in the City of Atlanta. We have the busiest airport in 
the United States of America and the largest airline in the 
world. So I am going to spend a lot of time at Ray's office 
trying to talk about challenges that we have.
    But I want to welcome you to the Administration. You have 
been a great friend of transportation when you were in the 
House as a member of the Committee, and I look forward to 
working very closely with you as we meet the challenges that we 
all face in the years ahead.
    So that is why I made a special effort to get here. I 
wanted that on the record.
    Secretary LaHood. Well, thank you, Senator Isakson. I 
appreciate that. I also want you to know that your Governor 
took time to come by our office, and we had a visit for an hour 
on many of the things that you just mentioned and many of the 
different transportation issues that your state is facing. He 
is providing lots of good leadership. So I look forward to 
working with you.
    Senator Isakson. We are proud to have you. Thank you.
    Secretary LaHood. Thank you.
    Senator Isakson. Thank you, Mr. Chairman.
    Senator Lautenberg. Thanks very much.
    Mr. Secretary, thank you very much for your presence and 
for your participation in the discussion. You, obviously, have 
known but note maybe more particularly when you are in front of 
this Committee that we have our differences. These are not 
party differences as much as regional or state differences. And 
the physical characteristics of South Dakota are much different 
than New Jersey.
    But we are obliged by history to patch together a common 
interest in transportation. For this rich country of ours to be 
in its state is unacceptable by any measure. We put the 
transportation system together in a piecemeal form. We have not 
necessarily put money where our funds are most needed, but 
rather, where the strength is most garnered. And we have got to 
change that. We have to get balance in our transportation 
system.
    I have now been in the Senate 25 years, and one of the 
things that brought me to the Senate was what I saw happening 
in the New York-New Jersey region with traffic. We were in a 
business there that depends on movement of material. And we are 
still not caught up with what we have to do, in my view, by way 
of rail service, good planning for aviation service, and making 
sure that more rural communities are not left out of the 
opportunity to participate in America's growth and interests.
    So we have got quite a bundle of things to put together in 
a good, sensible fashion. It is going to take reason. It is 
going take time. But we trust your hand, Mr. Secretary, to help 
us level these conditions so that we can get on with something 
that is better for America, that protects our kids from being 
enveloped by pollution, that permits more time with family and 
work instead of just sitting on the highways and burning up 
fuel that we no longer can afford to import like we do. The 
world is changing around us, and we must not let it change 
without us. So, I thank you very much.
    Secretary LaHood. Thank you.
    Senator Lautenberg. We call our second panel: Mr. Heminger, 
Ms. Anne Canby, James Corless, and Ned Holmes.
    Mr. Heminger and Mr. Holmes, I know that each of you has a 
time constraint. I want to try to accommodate you. You are 
important witnesses and we want to hear from you. What are your 
timeframes like? Do you have to catch planes out of here?
    Mr. Heminger. Mr. Chairman, mine is 4:30.
    Senator Lautenberg. At the airport?
    Mr. Heminger. Leaving here.
    Senator Lautenberg. Leaving here.
    Mr. Heminger. Yes, sir.
    Senator Lautenberg. OK.
    And you, Mr. Holmes?
    Mr. Holmes. Mr. Chairman, I am riding with him.
    [Laughter.]
    Senator Lautenberg. OK. So the two trapped in the middle 
will please forgive me.
    We welcome you, and as you have heard, we are onto 
something big. Your contribution is important. Mr. Heminger, 
the Commissioner of National Surface Transportation Policy and 
Revenue Study Commission, and you are the Executive Director of 
the San Francisco Bay Area Metropolitan Transportation 
Commission.
    Ms. Canby, we know that you are the President of the 
Surface Transportation Policy Partnership and also are a former 
commissioner of the DOT in my home State of New Jersey. Now, 
that is a mix of things.
    Mr. Corless, you are Campaign Director for Transportation 
for America.
    Mr. Holmes, we already met, said hello. You are, I recall, 
the Commissioner of the Texas Transportation Commission.
    Each of you will have 5 minutes to present your summarized 
papers. Mr. Heminger, I will call on you first.
    Is it Heminger or Heminger?
    Mr. Heminger. I will answer to either one, Mr. Chairman.
    Senator Lautenberg. All right, Steve.
    [Laughter.]

              STATEMENT OF STEVE HEMINGER, MEMBER,

   NATIONAL SURFACE TRANSPORTATION POLICY AND REVENUE STUDY 
                           COMMISSION

    Mr. Heminger. Thank you very much, sir, and I appreciate 
the courtesy about letting me go first.
    As you mentioned, I served with great pleasure on the 
National Surface Transportation Policy and Revenue Study 
Commission. I was appointed by House Speaker Nancy Pelosi, but 
today I speak on behalf of nine Commissioners who signed our 
final report, five of them appointed by Republican 
officeholders, four by Democratic officeholders.
    We reached a bipartisan result.
    And I think I noted one of my colleagues, Tom Skanky from 
the State of Nevada in the audience, and I would like to 
acknowledge him as well.
    Our blueprint for the Nation's future transportation policy 
is comprised of three key elements: reform, restructuring, and 
reinvestment, the 3 R's.
    First, reform. Our Commission's fundamental finding is 
this, that the Federal surface transportation program should 
not be reauthorized in its current form. Instead, we should 
make a new beginning. We must reform how the Nation upgrades 
and expands its network from how we pick the projects in the 
planning process to how we build them in the field. Federal 
investment should be guided by a national surface 
transportation strategic plan that employs benefit-cost 
analysis and performance-based outcomes just as in the private 
sector. In particular, we believe the Nation should set 
ambitious and achievable performance goals for our surface 
transportation system, such as cutting traffic fatalities in 
half by 2025.
    Another aspect of our reform agenda is shortening the time 
to complete environmental reviews in conjunction with other 
measures that speed the design and construction of new highway, 
transit, and freight capacity. All members of the committee 
talked about this earlier.
    One example. Last September a new replacement interstate 
bridge was opened for traffic in downtown Minneapolis only 13 
months after the tragic collapse of its predecessor. This 
stands in stark contrast to the 13 years that the average major 
highway project takes to advance from project initiation to 
completion. If Minnesota can do it, so can the rest of the 
Nation. And if we can do it in an emergency, why can we not do 
it all the time?
    Second, restructuring. As you noted, there are 108 separate 
categorical surface transportation programs in current law. It 
is safe to say that any agency of Government with more than 100 
priorities really has none at all. Our commission report, 
Transportation for Tomorrow, recommends replacing this plethora 
of programs with 10 new initiatives to guide Federal investment 
in areas of genuine national interest, such as upgrading the 
Nation's roads and bridges and transit systems to a state of 
good repair, improving our global gateways and national goods 
movement system, and restoring mobility in congested 
metropolitan areas of greater than 1 million people that will 
be the engines of our economic recovery and prosperity.
    Finally, three, reinvestment. Our report estimates that the 
U.S. needs to invest at least $225 billion annually for the 
next 50 years to repair our existing network and to build the 
more advanced facilities we will require to remain competitive 
in a global economy. We are spending less than 40 percent of 
this amount today. To boost investment, we will need to raise 
new revenue from the private sector, as well as all levels of 
government, Federal, State, and local. The additional public 
funding, we believe, should come primarily from users of the 
system who will benefit the most from its improvement, whether 
in the form of higher fuel taxes and truck weight charges or a 
new fee on passenger rail tickets and container cargo. While no 
one likes higher taxes or fees, if we want a better 
transportation system, we are going to have to pay for it. 
There is no free lunch.
    It was noted earlier that U.S. population is projected to 
reach 420 million people, a 50 percent increase from the year 
2000 by 2050. In short, the Nation will be faced with a massive 
increase in passenger and freight travel in the years to come, 
and we must accommodate this future travel demand in far more 
sustainable ways than we have in the past, such as through 
increased reliance on urban and intercity passenger rail.
    Faced with these daunting challenges, Federal surface 
transportation policy has reached a crossroads. I think Senator 
Hutchison today--her proposal to let some states opt out of the 
Federal program represents one path forward.
    Respectfully, my Commission colleagues and I urge you to 
take a different approach. We urge you to blaze a new path 
toward a more robust Federal program refocused to protect our 
national security, enhance our international competitiveness, 
and safeguard our enviable quality of life.
    If I can conclude my oral remarks with a quotation from 
President Eisenhower, father of the interstate system--and we 
use this quotation at the beginning of our report. So, I would 
like to conclude my testimony with it. President Eisenhower 
said: ``Our transportation and communication systems are 
dynamic elements in the very name we bear, `United States.' 
Without them, we would be a mere alliance of many separate 
parts.''
    Thank you very much.
    [The prepared statement of Mr. Heminger follows:]

             Prepared Statement of Steve Heminger, Member, 
  National Surface Transportation Policy and Revenue Study Commission

    Chairman Lautenberg, Ranking Member Thune, and Members of the 
Committee. My name is Steve Heminger, and I am Executive Director of 
the Metropolitan Transportation Commission (MTC). MTC is the 
metropolitan planning organization for the nine-county San Francisco 
Bay Area. It allocates more than $1 billion per year in funding for the 
operation, maintenance, and expansion of the region's surface 
transportation network. MTC also serves as the Bay Area Toll Authority 
(BATA) responsible for administering all toll revenue from the seven 
state-owned bridges that span the Bay. BATA has a ``AA'' credit rating 
and has issued over $5 billion in toll revenue bonds to finance bridge, 
highway, and transit construction projects.
    I was appointed to the National Surface Transportation Policy and 
Revenue Study Commission by House Speaker Nancy Pelosi. It was a rare 
privilege to serve on that commission, just as it is a distinct honor 
to appear before this Committee today to discuss our Commission's 
findings and recommendations. In my brief testimony, I would like to 
summarize our 2 years' worth of work in a format that is familiar to 
all of us from school days: the 3 R's. Our blueprint for the Nation's 
future transportation policy is comprised of three key elements: 
reform, restructuring, and reinvestment.

1. Reform
    Our Commission's fundamental finding is this: the Federal surface 
transportation program should not be reauthorized in its current form. 
Instead, we should make a new beginning. We must reform how the Nation 
upgrades and expands its transportation network, from how we pick the 
projects in the planning process to how we build them in the field. 
Federal investment should be guided by a national surface 
transportation strategic plan that employs benefit cost-analysis and 
performance-based outcomes, just as in the private sector. In 
particular, we believe the Nation should set ambitious and achievable 
performance goals for our surface transportation system, such as 
cutting traffic fatalities in half by 2025 or reducing urban traffic 
congestion by 20 percent from today's levels over the same period of 
time.
    Another aspect of our reform agenda is shortening the time to 
complete environmental reviews, in conjunction with other measures that 
speed the design and construction of new highway, transit, and freight 
capacity. In an era when--until the recent recession--steel and 
concrete prices were rising at 7-10 percent annually, we can no longer 
afford to wait a decade or more to move transportation projects from 
concept to completion (see Exhibit 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Bureau of Labor Statistics.

    For example, last September a new replacement Interstate 35W bridge 
was opened for traffic in downtown Minneapolis only 13 months after the 
tragic collapse of its predecessor span. This stands in stark contrast 
to the 13 years that the average major highway project takes to advance 
from project initiation to completion, according to the Federal Highway 
Administration. If Minnesota can do it, so can the rest of the Nation.

2. Restructuring
    There are 108 separate categorical surface transportation programs 
in current Federal law. It is safe to say that any agency of government 
with more than 100 priorities really has none at all. Our commission 
report--Transportation for Tomorrow--recommends replacing this plethora 
of programs with 10 new initiatives to guide Federal investment in 
areas of genuine national interest such as: upgrading the Nation's 
roads, bridges, and transit systems to a state of good repair; 
improving our global gateways and national goods movement system to 
ensure U.S. international competitiveness; and restoring mobility in 
congested metropolitan areas of greater than 1 million population that 
will be the engines of our economic recovery and prosperity (see 
Exhibit 2). We also propose to restructure the U.S. Department of 
Transportation so it can better accomplish this streamlined mission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

3. Reinvestment
    Transportation for Tomorrow estimates that the U.S. needs to invest 
at least $225 billion annually for the next 50 years to repair our 
existing transportation network and to build the more advanced 
facilities we will require to remain competitive in a global economy 
(see Exhibit 3). We are spending less than 40 percent of this amount 
today. To boost investment, we will need to raise new revenue from the 
private sector as well as all levels of government--Federal, state, and 
local. The additional public funding should come primarily from users 
of the transportation system who will benefit the most from its 
improvement, whether in the form of higher fuel taxes and truck weight 
charges or a new fee on passenger rail tickets and container cargo. 
While no one likes higher taxes or fees, if we want a better 
transportation system we are going to have to pay for it. There is no 
free lunch.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: Commission staff analysis.

    When we released our Commission report in January 2008, we called 
on the country to ``create and sustain the preeminent surface 
transportation system in the world.'' Since that time, members of the 
Commission have testified numerous times before committees of both 
houses of Congress and have made presentations to dozens of industry, 
civic, and community groups throughout the Nation. Our call for a 
comprehensive overhaul of Federal surface transportation policy has 
resonated strongly with many key stakeholders and decision-makers.
    By 2050, the total U.S. population is projected to reach 420 
million, a 50 percent increase from the year 2000. This growing society 
will demand higher levels of goods and services, and will rely on the 
transportation system to obtain them. If history is any guide, this 
will cause travel to grow at an even faster rate than population 
itself. As part of an increasingly integrated global economy, the U.S. 
will see greater pressures on its international gateways and domestic 
freight distribution network to deliver products to where they are 
needed. In short, the Nation is faced with a massive increase in 
passenger and freight travel in the years to come. And we must 
accommodate this future travel demand in far more sustainable ways than 
we have in the past, such as through increased reliance on urban and 
intercity passenger rail.
    Faced with these daunting challenges, Federal surface 
transportation policy has reached a crossroads. Will it continue to 
function as it has since the substantial completion of the Interstate 
Highway System in the late 1980s, essentially as a block grant program 
with little accountability for specific outcomes and burdened by 
widespread congressional earmarking? Or will it advance concerted 
actions to confront the transportation challenges facing the Nation as 
a whole? My Commission colleagues and I urge you to blaze a new path 
toward a more robust Federal program refocused to protect our national 
security, enhance our international competitiveness, and safeguard our 
enviable quality of life.

    Senator Lautenberg. Thank you very much.
    Mr. Holmes?

                  STATEMENT OF NED S. HOLMES,

        TEXAS TRANSPORTATION COMMISSIONER, AND CHAIRMAN,

              TRANSPORTATION TRANSFORMATION GROUP

    Mr. Holmes. Thank you, Mr. Chairman, Senator Hutchison, 
Senator Begich. I am honored to be here as member of the Texas 
Transportation Commission and also as Chairman of the 
Transportation Transformation Group, or T2.
    Texas is a high-growth state with significant congestion. 
TxDOT formed the 2030 Committee. It was a panel of 
transportation experts and business leaders. It estimated that 
Texas will require $14 billion a year just to maintain the 
status quo. We currently have around $3 billion a year, a huge 
shortfall.
    With SAFETEA-LU expiring this year, we have a challenge and 
an opportunity to create a new vision. As Secretary LaHood so 
eloquently stated, sustainable funding mechanisms that expand 
and enhance our infrastructure investments are critically 
needed now. Funding is not sustaining our current needs, much 
less those of the future. The longer we wait to act, the more 
it will cost to address the problems.
    Inflation has dramatically increased costs and decreased 
the purchasing power of motor fuels tax. To compound the 
situation, fuel taxes are declining. In Texas, the state fuel 
taxes were 8 percent lower this April compared to last April, 
and that is in a high-growth state. States have to choose 
between maintenance and new capacity. In Texas, our forecasts 
indicate that in 2012, gas taxes will only be sufficient to pay 
for a portion of much-needed maintenance.
    Other troubling Federal funding issues are the Federal 
Highway Trust Fund which is trending toward insolvency and 
rescissions which have been almost $14.5 billion to date, with 
another $8.5 billion this year. Texas' share of the total by 
the end of this year will be nearly $2 billion. We urge you to 
end the rescissions.
    T2 was formed to address these challenges. We are an 
alliance of State DOTs from Florida, Indiana, New Hampshire, 
Texas, and Utah, port and toll authorities, think tanks, 
academic institutions, financial and engineering firms. We 
believe that national transportation policy needs to be 
transformed from a process-based system to a goal-based system 
that maximizes flexibility and enhances the roles of the public 
sector and the private sector partners.
    T2 elected not to engage in past debates such as donor-
donee fights and the gas tax issues. The reforms that are 
needed transcend those issues. We believe the Federal 
Government should be primarily responsible for establishing a 
customer-focused, long-range vision of surface transportation 
that includes all modes of moving people and goods.
    We suggest that Congress empower states to set goals, make 
decisions, and deliver projects that implement that national 
strategy. States must be accountable and transparent and their 
performance measured.
    We support the continuation of the Federal motor fuel tax, 
coupled with significant program reforms and additional 
innovative financing methods. We also believe that our current 
static per-gallon fuel charge is not a sustainable, long-term 
method to fund our system. We support the transition from a 
fuel-based funding system to a user-fee system such as VMT 
pricing. The lengthy time for transition will require revenue 
enhancements, a suggestion made by recent Federal study 
commissions.
    In summary, T2 emphasizes a multimodal approach with 
flexibility in all areas, fewer and less restrictive Federal 
funding categories, and more sustainable financial models and 
business strategies. In Texas, we need flexibility to blend 
transit, rail, and highways. In New Hampshire, they need 
flexibility for Commissioner George Campbell's rail 
revitalization to link Concord and Boston. Florida has created 
a strategic intermodal system that includes airport, highway, 
rail, and seaport facilities which will require more flexible 
funding. Utah, Indiana, and other states also need flexibility 
to solve their own unique transportation issues.
    Our citizens deserve a renewed focus on customer service, 
reduced congestion, improved air quality, and improved quality 
of life for our increasingly urban nation. Infrastructure 
investment also promotes economic growth and prosperity, a 
promising legacy to leave for our children.
    The needs of our Nation are great and your task is very 
difficult. On behalf of TxDOT and T2, I appreciate your time 
and I thank you very much for your service.
    [The prepared statement of Mr. Holmes follows:]

Prepared Statement of Ned S. Holmes, Texas Transportation Commissioner, 
           and Chairman, Transportation Transformation Group

    Thank you, Mr. Chairman. I am Ned Holmes. Thank you for inviting me 
to testify. I am honored to be here. I am here wearing two hats today, 
one as a Texas Transportation Commissioner and the other as Chairman of 
the Transportation Transformation Group. Before I finish, I want to put 
on a third hat as a transportation consumer.
    Texas is a big state with a big transportation system and big 
problems. Texas has more paved lane-miles than any other state--192,150 
to be exact--and it is the responsibility of our Commission to maintain 
and improve our transportation system. We have more bridges than any 
other state, just over 51,000. Our state's population is forecast to 
grow from 23 million to 34 million by 2030.
    There are many positive aspects of living in a high growth state, 
but one of the unfortunate realities is the mounting congestion that 
accompanies the population growth. Our Commission convened a panel of 
transportation experts and business leaders to determine the 
transportation needs in Texas. This group, the 2030 Committee, recently 
concluded that highway traffic delay in urban Texas has increased more 
than 500 percent in the last two decades. The average urban Texas 
commuter spends an extra 32 hours in traffic each year, 60 percent more 
than a decade ago and that extra delay costs them $6.7 billion per year 
(2007). The price tag to meet the state's needs, defined as not getting 
any worse, is $315 billion from 2009 through 2030. Each high-growth 
state has a similar story to tell.
    I do not believe that our national transportation system is facing 
a looming crisis because that crisis is already here and is destined to 
decline further unless we all take meaningful action to improve 
funding. Population, income and economic activity have risen for many 
years, increasing the demand for transportation, but infrastructure has 
not kept pace. While the economy is currently experiencing a downturn, 
history shows that it will come back strong, and that a reliable 
transportation system lays the foundation for economic growth and 
productivity. Funding is not sustaining our current needs, much less 
those of the future. The investment choices that we make today are the 
legacy that we are leaving to our children, either the opportunity for 
growth, or the problem of how to fund a deteriorating system. The 
longer that we wait to act, the more it will cost to address the 
problems.
    Inflation has dramatically decreased the purchasing power of the 
motor fuels tax while increasing construction and maintenance costs 
over time. To compound the situation, motor fuels taxes are declining. 
In April, Texas state motor fuels taxes were over 8 percent lower than 
the same time last year. States have to choose between maintaining 
their aging infrastructure and adding new capacity because there isn't 
enough funding to do both. Soon there won't be enough to do either. In 
Texas our current forecasts indicate that will occur in the first 
quarter of 2012.
    Funding is even more complicated by dozens of Federal programs with 
narrow focus and often competing priorities. Many states that have 
borrowed in the past few years to fill the funding gap are now reaching 
their debt capacity. The Federal Highway Trust Fund is having solvency 
issues, adding yet another layer of uncertainty for future funding. 
This is a dire picture, and it calls for a new approach to fund our 
transportation system. The opportunity for change is before us now.
    To help address the transportation challenge to Texas and the 
Nation, I participated in forming the Transportation Transformation 
Group, known as T2. We are an alliance of state departments of 
transportation from Florida, Indiana, New Hampshire, Texas and Utah, 
port and toll authorities; think tanks, academic institutions, 
financial and engineering firms. We have explored the details of major 
studies produced over the past year related to reauthorization and a 
summary of their views is included in your packet. We concluded that 
national transportation policy needs to be transformed from a process- 
based system to a goal-based arrangement that maximizes flexibility and 
enhances the roles of the state and local public sectors and their 
private sector partners to solve the growing problems of congestion and 
mobility.
    Fundamental reform of transportation policy is needed to retain our 
status as a global leader. Since the old means are no longer 
sustainable, new methods are critical for success. T2 seeks to move 
beyond past debates: whether fuel taxes can be increased and the fight 
among donor-donee states. The reforms needed transcend those issues. 
Our Federal transportation policy has evolved from a goal of completing 
the interstate system to a program with a vague central focus and more 
recently, inadequate funding. Customer needs, both motorists and 
shippers, should drive the transformation. We believe the Federal 
Government should primarily be responsible for establishing a long-
range vision of surface transportation that includes all modes for 
moving people and goods, as well as the providers and customers of the 
system.
    We also firmly believe that states and their regional partners can 
deliver that vision if provided enough latitude.
    Once Congress defines the strategy and the policy framework, we 
suggest empowering states to set goals, make decisions, and deliver 
projects that implement the national strategy. The states must then be 
accountable and transparent; using performance measures to prove how 
they have met the goals they set. Common performance measures would 
likely include safety, environmental stewardship, reduced congestion, 
well-maintained roads, and improved economic opportunity.
    We support the continuation of the existing Federal motor fuel tax 
coupled with significant program reforms and additional innovative 
financing methods which are made fully available to the states. We also 
believe that our current static per gallon fuel charge is not a 
sustainable means to fund our system. We support the transition from a 
fuel tax-based funding system to a fee-based system, such as vehicle 
miles traveled (VMT) pricing and at a pace acceptable to Congressional 
leaders. Revenue enhancements will be needed to bridge the transition 
from one revenue source to the other, a suggestion made by both recent 
Federal study commissions.
    Transformation should redefine the roles of the Federal, state and 
local governments. The stimulus bill includes features that could 
provide a foundation for a transformed relationship, including:

  <bullet> Providing the bulk of Federal funding to states by formula;

  <bullet> Giving states the flexibility to deliver projects; and

  <bullet> Measuring the results for all to see.

    Building on this start, transportation transformation should 
encourage and enable states to employ business strategies and 
innovative finance techniques that help meet transportation goals. 
These might include tolling, congestion pricing, high occupancy toll 
(HOT) lanes, VMT pricing, and the full range of public private 
partnerships mechanisms to bring additional resources to solving 
transportation issues. The unmet needs are so great, it will take all 
options.
    By way of example, there are two outer loops being planned in 
Texas, Loop 9 in Dallas and the Grand Parkway in Houston, that are each 
estimated to cost over $5 billion. These are complex projects that will 
require multiple funding sources. There are many similar needs 
throughout the Nation.
    T2 supports flexibility and access to all available tools from 
which states and regions can develop creative solutions to best meet 
their transportation goals and solve their diverse transportation 
problems. That is how great innovators solve problems, not by 
identifying which box to check. The process should not drive the 
solution. We currently have to plan transportation projects around the 
rigid limitations of the funding categories, a frustrating exercise at 
best. Project priorities should not be set according to available 
balances in funding categories. America's transportation innovators 
need to be given the flexibility and incentives to creatively solve the 
challenges we face, including mixing modes, delivery methods and 
funding sources.
    If Congress will define the vision and give us the flexibility to 
fulfill it, we will answer the challenge. All forms of project 
delivery, funding sources and financial options in any combination need 
to be available, including:

  <bullet> Blending different modes and fund sources in one project;

  <bullet> An expanded Transportation Infrastructure Finance and 
        Innovation Act of 1998 (TIFIA) program, allowing eligible 
        projects to proceed and the development of additional projects 
        in the near term;

  <bullet> Ability to tap private sector capital (public private 
        partnerships) as states and regions choose;

  <bullet> Uncapped use of private activity bonds (PABs);

  <bullet> Strategic sourcing procurement techniques for materials such 
        as steel;

  <bullet> Loosened Federal tolling restrictions at state and local 
        discretion and increased number of exemption options under 
        current programs;

  <bullet> Concession-based comprehensive project delivery and 
        operation;

  <bullet> Modified accelerated depreciation;

  <bullet> Investment tax credit; and

  <bullet> A transportation investment bank.

    In summary, T2 emphasizes flexibility in all areas, fewer and less 
restrictive Federal funding categories, and more sustainable financial 
models and business strategies. All states, whether high growth or low 
growth, big or small, will benefit from having flexible options which 
will allow the creation of custom solutions to meet their goals. In 
Texas, we need flexibility to blend transit, rail and highways. We are 
currently struggling to find funds to improve rail to road crossings, a 
major safety and congestion issue in urban and rural areas. In New 
Hampshire, they need flexibility for Commissioner George Campbell's 
rail revitalization to link Concord and Boston, which will regenerate 
downtowns, create jobs, and protect the environment. Florida, Utah, 
Indiana and other states each have their own unique transportation 
issues and added flexibility will facilitate their solutions.
    Citizens will benefit by a renewed focus on customer service, 
reduced congestion which improves our quality of life and the 
prosperity that added infrastructure investment allows. We also deserve 
added levels of accountability and transparency, having easy-to-use 
Internet information, knowing where public funds are being spent, and 
the status of current projects. As a citizen these benefits appeal to 
me.
    On behalf of the Texas Transportation Commission, the 
Transportation Transformation Group and the Holmes family of mobility 
consumers, I appreciate your time and thank you for your attention.

    Senator Lautenberg. Thank you very much, Mr. Holmes. I 
listened with amazement. I know Texas is big. I have been 
through Texas and many places, but when I hear that you have 
more paved lanes than any other state more than I think 
California, more length, and the high number bridges and so 
forth. You called off problems that each state has. And you 
left out New Jersey. So I do not know if the implication is 
that we are perfect in what we are doing or whether or not we 
are just too far down to get into line. But I can tell you 
transportation is the lifeblood of New Jersey, and we have to 
be able to do it.
    It is so interesting. And I will take no further time. But 
I mentioned the breadth of the differences that we have in our 
society. There are wholesome differences. These states are 
different, and we cannot just have a one-size-fits-all. So I 
hope that we can all cooperate.
    Anyway, we are thankful to have you here.
    Mr. Corless?

   STATEMENT OF JAMES CORLESS, DIRECTOR, TRANSPORTATION FOR 
                            AMERICA

    Mr. Corless. Chairman Lautenberg, Ranking Member Thune, 
Members of the Subcommittee, I am James Corless. I am the 
Director for Transportation for America, or T4 America. You 
have got T2. I promise we are not twice as big. T4 America.
    Thank you very much for inviting us today to testify on the 
future of our national surface transportation policy. T4 
America is the country's broadest and most diverse 
transportation coalition with more than 270 member 
organizations nationwide in the fields of transportation, 
housing, environment, public health, real estate, safety, and 
social equity.
    Mr. Chairman, T4 America is grateful for your leadership on 
both Amtrak and ARC, the new mass transit tunnel connecting New 
Jersey with Midtown Manhattan that is set to break ground in 
June because they are paving the way for a 21st century 
transportation system.
    We are here today because we believe, while Congress has 
the chance to rewrite our Nation's transportation law every 6 
years, the chance to truly change national transportation 
policy comes only once in a generation. The upcoming 
authorization of the Federal transportation bill presents just 
such an opportunity.
    But we know, as do you, the challenges ahead of us in this 
authorization are immense. The Federal transportation program 
had a brief moment on the national media stage in last year's 
Presidential election, but it was not a positive one. It was 
the ``bridge to nowhere'' that became a symbol of what needed 
to be fixed in Washington. And now we find ourselves with the 
Highway Trust Fund going broke and the difficult political 
reality that we are going to have to ask the American people to 
pay more if we are going to keep the Federal transportation 
program solvent.
    Of course, if we are going to ask the public to pay more, 
they will want to know exactly what they are getting for their 
money. It is our responsibility to provide America with a new 
vision. We have done this before. President Lincoln pledged to 
link the coasts of our Nation with a transcontinental railroad 
in the 19th century. Nearly 100 years later, the Members of 
Congress who sat in your very seats were inspired to create the 
interstate highway system.
    And now we need a vision for a 21st century transportation 
system, a system that should be smarter, safer, cleaner, and 
provide more choices for all Americans, a system that T4 
America believes ought to be based on the following six 
national transportation objectives: economic competitiveness; 
the preservation and maintenance of existing assets; safety, 
and improved public health; energy conservation and security; 
protecting the environment and addressing environmental 
justice; and finally, providing equal access to transportation 
options in urban, suburban, and rural communities.
    Using these objectives as a framework, the new 
transportation bill should define specific, measurable targets 
that transportation agencies must meet. T4 America is 
specifically recommending the following performance targets 
over a 20-year period: to improve the share of transportation 
facilities that are well-maintained and in good condition by 20 
percent; to reduce traffic-related crashes by 50 percent; to 
reduce vehicle miles traveled per capita by 16 percent; to 
triple the rates of walking, biking, public transportation, and 
passenger rail use; to reduce the transportation-generated 
levels of carbon dioxide by 40 percent; to reduce vehicle delay 
per capita by 10 percent; to increase the share of freight 
carried on rail by 20 percent; to achieve zero population 
exposure to health-harming levels of air pollution; to reduce 
household expenditures on housing and transportation by 10 
percent; finally, to increase by 50 percent the number of 
essential destinations accessible for low-income, senior, and 
disabled populations.
    Now, unfortunately, we do not have currently a performance-
driven transportation planning process. In order to get there, 
we are going to have to invest more in robust data collection 
efforts and provide significant technical assistance to 
transportation agencies at all levels of government.
    Finally, T4 America believes that there should be a renewed 
commitment to rural areas in the next Federal transportation 
bill. We are calling for a new program designed specifically 
for small cities and rural regions because there are such a 
number of key issues that we believe need to be addressed, such 
as developing rural road safety measures that prioritize cost-
effective solutions; developing public transportation, van 
pools, ride-sharing for rural areas that can realize 
efficiencies through the use of technology, shared vehicles and 
volunteer services; reinvesting in rail freight and short line 
railroads; supporting stronger coordination of transportation 
and land use in rural areas to preserve rural town character 
and promote local economic development efforts; and finally, 
elevating the capacity of rural planning to promote greater 
cooperation with state departments of transportation.
    As Congress considers the upcoming transportation 
authorization, T4 America stands ready to assist you in 
developing a new vision for a world-class transportation system 
through strong national transportation objectives, performance 
targets, and programs that meet the needs of our cities, 
suburbs, and rural areas.
    Thank you again for inviting Transportation for America to 
testify before this Subcommittee.
    [The prepared statement of Mr. Corless follows:]

            Prepared Statement of James Corless, Director, 
                       Transportation for America

    Chairman Lautenberg, Ranking Member Thune, and Members of the 
Subcommittee, I thank you for inviting Transportation for America to 
testify today on the future of our national surface transportation 
policy. Transportation for America is the country's broadest and most 
diverse transportation coalition. Our members hail from the fields of 
transportation, housing, environment, public health, real estate, 
safety, and social equity, representing more than 270 different 
organizations. We work closely with local elected officials and 
transportation practitioners. And together, we are calling for a 21st 
Century transportation system that is smarter, safer, and cleaner--and 
provides real choices for all Americans.
    Transportation investments are our Nation's best tool to improve 
our economic competitiveness, reduce energy usage and curb greenhouse 
gas emissions, provide good paying green jobs and increase economic 
opportunity and quality of life for all Americans. The upcoming rewrite 
of our Federal transportation law represents a once in a lifetime 
opportunity to develop a new national transportation vision and leave 
behind a legacy for our children and grandchildren.
Lack of a Compelling National Surface Transportation Policy
    Unfortunately, our Nation lacks a cohesive national surface 
transportation policy and consequently cannot adequately address many 
of our transportation challenges let alone address other pressing 
national issues. Today our strength as a nation is specifically being 
limited by:

  <bullet> a dependency on petroleum that threatens our national 
        security, drains household budgets, exacerbates climate change, 
        undermines public health, and imperils the U.S. economy;

  <bullet> a haphazard, inefficient relationship between our 
        transportation systems and our land development patterns;

  <bullet> a backlog of crumbling, unsafe, and obsolete transportation 
        facilities;

  <bullet> an outmoded freight transportation system that is over-
        capacity and incapable of efficiently linking the U.S. national 
        economy into the global economy; and,

  <bullet> a transportation system that provides few options for aging 
        Americans, low-income families and others who are unable or 
        can't afford to drive.

The Need for a National Vision, Objectives and Performance Targets
    First and foremost, the next Federal surface transportation bill 
must articulate a clear and compelling vision for a new National 
Transportation System; one that prepares for and responds to the myriad 
challenges facing our Nation today and tomorrow. While the 1956 
Interstate Highway Act met the needs of our country in the mid-
twentieth century, America in the 21st Century needs a complete 
national transportation system that includes safe, well-maintained 
interstates, highways, high speed rail, public transportation, 
bicycling and pedestrian networks to face the ongoing challenges of 
energy security, global warming, changing demographics, public health 
care costs, and global economic competition.
    Transportation for America therefore calls on Congress to develop a 
new national vision for a 21st Century transportation system, and to 
clearly define the national interest and purpose of the Federal 
transportation program through the establishment of National 
Transportation Objectives. Specifically, Transportation for America 
proposes the following six objectives:

        1. Improve Economic Competitiveness, System Efficiency and 
        Workforce Development Opportunities;

        2. Improve Transportation System Conditions and Connectivity;

        3. Ensure Safety for All Transportation Users and Improve 
        Public Health Outcomes;

        4. Promote Energy Conservation and Achieve Energy Security;

        5. Ensure Environmental Protection, Restore Climate Stability 
        and Resolve Persistent Environmental Justice issues;

        6. Provide Equal and Equitable Access to Transportation Options 
        in Urban, Suburban and Rural Communities.

    Only by defining a set of objectives for our transportation system 
can we then identify and follow through with a set of measures to 
achieve them thereby addressing the numerous challenges facing this 
Nation.

Ensuring Accountability by Measuring Performance
    Transportation for America further recommends that Congress 
establish National Transportation Performance Targets for states and 
regions to evaluate progress on achieving the National Transportation 
Objectives. This combination of measures should be powerful drivers of 
change since no single measure can fully assess achievement of a 
particular national goal, since all are complex, are dependent on many 
variables and have multiple ways in which they can be evaluated. 
Consistent with typical planning horizons, targets could be set for 20 
years. Financial rewards and penalties based on progress toward NTO's 
should serve as a basis for accountability.
    Transportation for America recommends the following key performance 
targets be embedded in new transportation legislation as a means for 
ensuring national progress toward the National Transportation 
Objectives:

  <bullet> Increase the share of surface transportation facilities in a 
        state of good repair by 20 percent in 20 years.

  <bullet> Reduce traffic-related crashes by 50 percent in 20 years.

  <bullet> Reducing per capita vehicle miles traveled by 16 percent in 
        20 years.

  <bullet> Triple walking, biking, public transportation, and passenger 
        rail use in 20 years.

  <bullet> Reduce the transportation-generated CO<INF>2</INF> levels by 
        40 percent in 20 years.

  <bullet> Reduce vehicle delay per capita by 10 percent in 20 years.

  <bullet> Increase the share of freight carried on rail by 20 percent 
        in 20 years.

  <bullet> Achieve zero population exposure to at-risk levels of air 
        pollution in 20 years.

  <bullet> Reduce household expenditures on housing and transportation 
        by 10 percent in 20 years.

  <bullet> Increase by 50 percent the number of essential destinations 
        accessible within 30 minutes by public transportation or a 15-
        minute walk for low-income, senior and disabled populations in 
        20 years.

The Importance of Rural Transportation
    Transportation for America strongly believes that there should be a 
renewed commitment to rural areas in the next Federal transportation 
bill. In our forthcoming policy proposal for the Federal transportation 
authorization, we call for a new funding program designed specifically 
for small cities and rural regions. There are a number of key issues 
that we believe need to be addressed for rural areas:

  <bullet> Developing rural road safety measures that prioritize 
        quicker and more cost-effective solutions for all users;

  <bullet> Developing effective, flexible forms of public 
        transportation, vanpools and ridesharing for rural areas that 
        can realize efficiencies through the use of technology, shared 
        vehicles and volunteer services.

  <bullet> Addressing freight demand through reinvestment in short haul 
        freight railroads.

  <bullet> Supporting stronger coordination of transportation and land 
        use in rural areas, particularly to preserve traffic capacity 
        by managing growth along roadway corridors that are prone to 
        haphazard development.

  <bullet> Elevating the status of rural planning districts by 
        providing additional planning funds and providing rural regions 
        greater access to and cooperation with decisionmakers within 
        state departments of transportation.

Our Nation's Transportation Future
    In the future, our Nation's surface transportation system should 
provide the foundation for personal opportunity, robust commerce and a 
healthy population. It should achieve national goals for economic 
development, environmental sustainability and equitable access. It 
should be a modern, 21st Century system, investing strategically in new 
capacity with care and upkeep of existing infrastructure. Public 
transit systems, high-speed intercity rail corridors, roadway 
facilities, waterways, ports, bridges, bicycle and pedestrian 
facilities all should be kept in a state of good repair. The trillions 
of dollars in asset value of the systems and facilities built over the 
past century should be protected and enhanced.
    The transportation program should be designed to invigorate local 
and regional economies and facilitate efficient inter-regional 
commerce. It should reduce energy use and greenhouse gas emissions by 
supporting more sustainable land use and travel patterns. Our national 
transportation investments should help provide affordable housing 
opportunities near good public transit service and employment centers 
and should promote walking and bicycling as economical and healthy 
modes. America's surface transportation system should enable us to 
compete successfully in a global economy and should be a model for 
other nations to follow.
    Transportation for America supports a rejuvenated, redirected 
national transportation program that would result in a national 
mobility network providing a vital, complete array of mobility choices 
easily accessible to the vast majority of Americans--whether walking, 
bicycling, driving or traveling on public transportation--in a unified, 
interconnected, energy-efficient manner. Such a system will serve our 
national interests, add value to communities, contribute positively to 
public health and safety, and reflect the values of equity and fairness 
that have been hallmarks of our Nation's domestic policy.
    As Congress considers the upcoming transportation authorization, 
Transportation for America stands ready to assist its efforts in 
developing a world leading and sustainable transportation system that 
will turn this Nation back into a world leader on surface 
transportation policy. Again, thank you for inviting Transportation for 
America to testify before this Subcommittee.

    Senator Lautenberg. Thank you very much.
    Now, Ms. Canby, please.

            STATEMENT OF ANNE P. CANBY, PRESIDENT, 
           SURFACE TRANSPORTATION POLICY PARTNERSHIP

    Ms. Canby. Thank you, Senator, Ranking Member Thune, and 
other Members of the Committee. I am very pleased to be here 
this afternoon representing the Surface Transportation Policy 
Partnership and also as a founding member of the OneRail 
Coalition.
    STPP commends the Committee for holding this hearing to 
launch a discussion on the need for a national surface 
transportation policy. We strongly support the idea of defining 
a national policy that makes the connection between our surface 
transportation policies and other critical national issues.
    There is a long history in defining national transportation 
policy, which is spelled out in my full statement, from 
Secretary Coleman's statement back in 1975 to SAFETEA's 
``bridges to nowhere.'' Suffice it to say, we have yet to 
establish a meaningful policy for surface transportation with 
clear objectives, goals, or accountability.
    The negative reaction to ``bridges to nowhere'' created, 
however, a positive result in the sense that people are 
beginning to talk about the need for a clearer sense of 
national purpose, calling for meaningful outcomes, and for 
greater accountability in the expenditure of Federal resources. 
The Transportation Policy and Revenue Study Commission that my 
colleague, Steve Heminger, served on addressed this issue head 
on in its report, saying that new revenue should be accompanied 
by a performance-based approach that identifies priorities and 
avoids parochial and wasteful spending.
    Establishing a clear national policy would create a 
framework for moving to such an outcome-driven performance-
based set of programs and, hopefully in my lifetime anyway, 
away from a donor-donee set of issues. Integrating modal 
systems into national, state, regional, and local networks 
would yield system efficiency and productivity benefits for all 
users.
    The current program structure could be described, I would 
suggest, as a jumble of functional, modal, and system-related 
mechanisms to distribute funds to state transportation and 
transit agencies. Rail programs currently have no connection to 
the highway or transit programs. This structure makes it 
extremely difficult to integrate the various forms of 
transportation into an efficient network.
    With energy and climate challenges facing our Nation, STPP 
believes it is critical that a national policy should encompass 
rail, pipeline, and waterborne systems, along with highway, 
transit, and bicycle and pedestrian facilities.
    National policy is best served if the relationship between 
the Federal, State, and local governments and the private 
sector is truly a partnership. The Federal-State relationship, 
as described in section 145 of Title 23, providing for a 
``federally assisted State program'' has constrained the 
Federal role in terms of policy direction and accountability 
for national policy outcomes. Federal leadership is critical to 
direct and oversee implementation of national policies across 
sectors and modes and to ensure that transportation contributes 
to the national solutions for some of the challenges we face.
    To measure performance, we have to know what it is we want 
to accomplish. Today congestion and time delays have become the 
de facto performance indicators, along with the physical 
condition of our roads, bridges, and transit facilities. In our 
view, this is too narrow a perspective especially in light of 
President Obama's agenda to implement energy and climate 
policies, to restore America's prosperity, and to reduce our 
health care costs. His agenda calls out for synergies between 
transportation policy and other sectors of national interest.
    Clearly, transportation affects a number of sectors: its 
heavy reliance on fossil fuels, as has been noted, as well as a 
significant share of our carbon emissions, the impact on our 
pocketbooks, our economic leadership, and our health, just to 
name a few.
    Objectives should address both the internally focused areas 
of safety, system connectivity, network efficiency, and asset 
preservation, as well as key external links between our 
transportation system and energy use, carbon emissions, 
reasonable access for all users, and sustainable development 
patterns.
    For national policy to have any meaning, it is important to 
connect objectives with outcomes expected from Federal programs 
and funding support. My statement provides more description of 
that.
    Provisions under the current law ensuring accountability 
are insufficient or nonexistent. Only one program that I am 
familiar with, Congestion Mitigation and Air Quality, is tied 
to a national purpose with specific goals and consequences for 
failing to meet them. And having lived through the initiation 
of that law, I can tell you it was a challenge in the early 
years. Other programs may have a clear purpose, but no goals or 
accountability for results.
    Aligning program structure, funding distribution factors, 
and use of funds in support of our national policies would go a 
long way to meaningful accountability. More detail is provided 
also in my full statement.
    A good step in the next authorization would be to require a 
report that measures the performance of the transportation 
system in the context of national goals. STPP believes that 
Congress should establish a baseline year from which to measure 
the performance of all elements of the system, from local 
walking trips to regional work trips, to shipment of products 
and markets around the Nation and to the world.
    The report should examine emerging trends that affect the 
performance of our transportation system, assess the critical 
impediments to achieving national goals and propose strategies 
for success.
    Further, we suggest including an analysis of expenditures 
for surface transportation by program and by type of investment 
for all modes in this report, along with surveys on how the 
public thinks the system is in fact performing.
    A critical component----
    Senator Lautenberg. The rest of your statement will be 
included in the record. If you could conclude.
    Ms. Canby. Thank you. Let me do that.
    We believe it is essential to have a statement of national 
purpose supported by clear objectives with goals and regular 
reporting. And we stand ready to work with you to achieve this. 
Thank you, Senator.
    [The prepared statement of Ms. Canby follows:]

            Prepared statement of Anne P. Canby, President, 
               Surface Transportation Policy Partnership

    Chairman Lautenberg, Ranking Member Thune, Subcommittee Members, I 
am Anne Canby, President of the Surface Transportation Policy 
Partnership, a national transportation reform coalition. STPP is a 
founding member of the Transportation for America coalition and 
OneRail, a coalition of passenger and freight rail organizations 
committed to advancing rail as a cornerstone of our Nation's 
transportation network. Over the years, I have directed two state 
transportation departments (DE & NJ).
    We commend the Committee for holding this hearing to discuss the 
need for a coherent national surface transportation policy to shape 
Federal surface transportation programs and guide the investments made 
by the public and private owners and operators of our various 
transportation systems.
    STPP strongly supports the idea of defining a national 
transportation policy, particularly one that acknowledges the 
connection between our surface transportation policies and other 
critical national issues. A national policy should be supported by 
clearly stated objectives with specific goals. The objectives and goals 
should be backed up with a requirement to track progress, or lack 
thereof, toward meeting national goals. Regular reporting on 
performance would provide focus for our national transportation 
priorities and desired outcomes. For too long the U.S. Transportation 
Department has been more of a rule keeper than a policy implementer.

Background
    Back in 1975, then Secretary William Coleman issued a Statement of 
National Transportation Policy in which he called for ``a more safe, 
efficient, diverse and competitive transportation system'' and 
highlighted five areas--the Federal role, U.S.-International concerns, 
Federal-state relations, government and the private transportation 
sectors, and the public interests-enhanced quality of life. (A copy of 
the Excerpts from the 1975 Statement is attached.) Thirty some years 
later these issues are still relevant.
    There here have been periodic trend reports since then, but little 
to no focus on how the system is performing relative to a set of 
defined national goals.
    The 1991 authorization of the surface transportation program, 
ISTEA, included a declaration of policy (Sec. 2) which described the 
nature of the transportation system and stressed the need for an energy 
efficient system that links American enterprise to world commerce, and 
improves productivity while addressing the mobility needs for the 
elderly, persons with disabilities and economically disadvantaged 
persons. A copy of the declaration is attached to my written statement.
    In the next authorization, TEA-21, this policy was removed. Some 
elements were listed under the state and metropolitan planning sections 
to be ``considered'' in the development of the long-range 
transportation plans. However, there are no consequences for failure to 
do so.
    The most recent authorization, SAFETEA, was project heavy and 
failed to include policy goals, becoming an embarrassment, as critics 
tarred it as building bridges to nowhere.
    In the absence of any clearly defined national purpose, congestion 
and time delays have become the de facto performance indicators along 
with the physical condition of our roads, bridges, and transit 
facilities. In our view, this represents too a narrow perspective, 
especially when one considers the role and impact of our surface 
transportation system across a wide array of sectors--on climate 
emissions, energy dependence and use, on our public and personal 
pocketbooks, economic efficiency, our health, and the well being of our 
communities.
    As you are aware, there is a strong connection between our carbon 
emissions and transportation. Similarly, transportation plays a major 
role in our Nation's energy dilemma. With 97 percent of transportation 
fuel derived from fossil fuels, the transportation sector is 
particularly vulnerable to any disruption in oil supplies and price 
escalation.
    To date the approach has been to focus on technology (CAFE and 
alternate fuels) to reduce transportation's share of energy use and GHG 
emissions. Both are necessary, but together will not produce the level 
of emission reductions necessary to bring transportation related 
emissions down to 60-80 percent of 1990 levels.
    In terms of our pocketbooks, transportation today represents an 
average of 18 percent of household expenditures, second only to 
housing. Higher than food, health care, or education. For families in 
the lower income brackets, transportation can represent as much as 30 
percent of expenditures. As we seek to shore up America's middle class, 
we should focus both on improving incomes and also on reducing the cost 
of transportation to our families. Our reliance on auto-based 
transportation is forcing families to acquire depreciating assets and 
in many cases depriving them of ever having access to enough credit to 
purchase a home and build wealth as so many American have done in the 
past.
    Sustaining our economic leadership in the world requires an 
efficient, resilient transportation network with every mode carrying 
its share of trips. We have come to realize that meeting our Nation's 
transportation demands will require more than expanding our 
overburdened highway system. We must ensure that other modes will play 
a greater role in moving people and goods to their destinations.
    Finally, with health costs rising and our population aging, 
facilitating physical activity as part our transportation agenda will 
not only improve our health, reduce obesity, a rising health threat, 
but reduce the rise in health care costs. The longer we stay healthy, 
the lower our costs.
    These are all issues of national significance and transportation is 
connected to each one of them.
    President Obama's commitment to implement energy and climate 
policies, to restore America's prosperity, and to reduce our health 
care costs, provides the opening to link transportation with other 
sectors of national interest.
    Establishing a national surface transportation policy with clear 
objectives, goals, outcomes, and regular reporting on the progress 
toward meeting them can help create synergies that do not exist today.

Moving Forward
    The negative reaction over ``bridges to nowhere'' from the SAFETEA 
law created a positive result in the sense that people began to talk 
about the need for a clearer sense of the Federal purpose, what 
outcomes we should be working to achieve, and the need for greater 
accountability in the expenditure of Federal resources. We began to 
hear questions like--what is our money buying, how will our lives be 
better with this investment, how will our economy function more 
efficiently.
    The National Surface Transportation Policy and Revenue Study 
Commission addressed this issue head on in its report released in early 
2008--saying that new revenue should be accompanied by ``a performance-
based approach that identifies priorities, and avoids parochial and 
wasteful spending.''
    The financial crisis facing the Federal Highway Trust fund has also 
forced the question of what the Federal role in surface transportation 
should be.

National Policy
    STPP and our partners agree that a clear sense of national purpose 
(why do we have this legislation) with clear goals and meaningful 
accountability for meeting them (what will we get with this investment) 
are essential if we are going have a transportation system that is 
capable of delivering the services to support America's economy in the 
21st Century. Establishing a sense of purpose with accountability for 
outcomes will also help build support for additional financial 
resources for transportation investment.
    With energy and climate challenges facing our nation, STPP believes 
it is critical that any definition of our surface transportation system 
include rail, pipeline and waterborne systems along with highway, 
transit, and bicycle and pedestrian facilities. Over time as technology 
advanced, we have tended to build individual modal systems. We have not 
truly integrated these modes into an energy efficient network. This may 
be our next challenge.
    The current program structure reflects this mono-modal approach. 
Taken together today's highway and transit programs comprise a jumble 
of functional, modal, and system related mechanisms to distribute funds 
to state transportation and transit agencies. Rail programs currently 
have no connection to the highway and transit programs. This structure 
makes it extremely difficult to integrate the various modes into an 
efficient network.
    Establishing a clear national policy sets the stage to move away 
from today's programmatic fragmentation to an outcome driven, 
performance based set of programs in which each mode from--sidewalks to 
intercity rail lines--plays a key role in providing access to 
education, healthcare, jobs, shopping and entertainment, domestic and 
international markets, distribution centers, and manufacturing 
facilities. I include the local network because, if we ignore it, too 
many trips move to the regional or interstate networks overloading them 
and adding to congestion.
    The integration of modal systems into national, state, regional, 
and local networks will yield system efficiency and productivity 
benefits for all users and provide options for all types of trips.

Federal Role
    STPP has had concerns for some time over the relationship between 
the Federal Government and the states described in Section 145 of Title 
23 as providing for ``a federally-assisted State program.'' For all 
intents and purposes, this language has constrained the Federal role in 
terms of policy direction, oversight and accountability for outcomes 
that are clearly in the national interest. We believe the relationship 
between the Federal, State, and local governments and the private 
sector should be a partnership, with each level of government playing a 
role in delivering results that address our goals for the Nation.
    As our Nation begins to tackle the challenges of climate change and 
greenhouse emissions, our dependence on fossil fuel, the demands of an 
aging population on our health care system, and creating a framework 
for renewed prosperity for America's communities and the families who 
live in them, Federal leadership is critical to direct and oversee 
implementation of national policies across sectors. We believe the 
Secretary should be responsible for overseeing the implementation of 
national policy and have the ability to adjust policies, programs, and 
priorities to meet national objectives. The Secretary should also be 
responsible for overall coordination among the various surface modes as 
well as with the aviation sector.
    STPP commends Secretary LaHood for his leadership with Secretary 
Donovan at HUD for their sustainable communities' initiative to help 
American families gain better access to affordable housing, more 
transportation options, and lower transportation costs. This is s good 
first step in recognizing the synergies of multiple Federal programs. 
It is worth noting that this initiative includes the development of 
``livability'' measures.

Objectives
    In order to measure performance, one has to know what it is we want 
to accomplish. Establishing a clear set of objectives is an important 
role for the Congress and the Federal transportation department. The 
objectives should provide the framework for Federal programs. 
Objectives should address both the internally focused areas of safety, 
system connectivity, network efficiency, and asset preservation, as 
well as the key external links between our transportation system and 
other sectors--energy use, carbon emissions, reasonable access for all 
users, sustainable land-use and development. The objectives should also 
represent the importance for America to be innovative and to reposition 
our economy for a new prosperity.

Goals
    STPP believes it is important to establish outcomes expected from 
Federal programs and funding support. We have worked closely with our 
partners, including Transportation for America, on defining specific 
national goals to be met over the next 20-25 years. These include:

  <bullet> Safety--Reduce traffic-related fatalities and injuries by 50 
        percent.

  <bullet> Asset Preservation--Increase the share of surface 
        transportation facilities in a state of good repair by 20 
        percent.

  <bullet> Energy and Climate
      --Reducing per capita VMT by 16 percent.
      --Double walking, biking, public transportation, and passenger 
            rail use.
      --Increase the share of freight carried on rail by 20 percent.
      --Reduce the transportation generated CO<INF>2</INF> levels by 40 
            percent.

  <bullet> Congestion--Reduce delay per capita by 10 percent.

  <bullet> Health--Achieve zero population exposure to at-risk levels 
        of air pollution.

  <bullet> Prosperity--Reduce the combined household + transportation 
        costs by 25 percent.

  <bullet> Access--Increase by 50 percent the number of essential 
        destinations accessible to adequate public transportation.

Accountability
    Today, the words ``accountability'' and ``transparency'' are 
frequently used when talking about government programs. STPP is a long-
time supporter of the need to measure and report on the performance of 
the transportation system against national goals. Unfortunately, 
provisions in the existing surface transportation programs ensuring 
accountability are insufficient or nonexistent.
    The Congestion Mitigation and Air Quality (CMAQ) program is 
currently the only program that is tied to a national purpose with 
specific goals and consequences for failing to meet them. Other 
programs--Interstate Maintenance (condition of the Int. system), Safety 
(reducing fatalities and injuries), Safe Routes to Schools (safe 
pedestrian pathways)--have a clear purpose but no goals or 
accountability for results.
    An example of our overall ignorance about how Federal funds are 
spent came to light in the aftermath of the collapse of the I-35 bridge 
in Minneapolis. An examination of the expenditure of Federal bridge 
funds showed that a number of states had not made full use of their 
bridge funds, others had rescinded these funds, and others had large 
unobligated balances. There was little awareness of this outside the 
FHWA and the specific state transportation department.
    The structure of the highway program--the relationship between 
contract authority and the annual obligation limit--enables some 
programs to be underfunded while other programs are fully utilized. 
This arrangement makes it possible to undermine the intent of specific 
programs.
    It is time that we require performance and results for the billions 
of Federal dollars provided to improve our surface transportation 
system and ensure it functions efficiently. From STPP's perspective, 
performance must be a basic element of the next authorization.
    Clearly it would be helpful if accountability measures were built 
in to the law. These could include changing the factors used to 
distribute funds via formula programs to reflect national objectives, 
using criteria for discretionary programs that also reflect national 
goals, providing bonuses or restrictions to grantees on the use of 
funds depending on progress toward meeting goals, and/or adjusting the 
Federal match to provide incentives/disincentives to address national 
objectives. Aligning the program structure, funding distribution 
factors, and use of funds in support of our national policies would go 
a long way to meaningful accountability.
    Regular progress reports create transparent evidence on how well we 
are doing to meet national objectives and they provide the basis for 
any adjustments that may be needed to assure we stay on course.
    STPP believes Congress should require the Transportation Department 
to report on a regular basis on the performance of the Nation's surface 
transportation system, including all parts of the surface network from 
the local walking trip to the regional trip to work and the shipment of 
products to markets around the Nation and to the world. This should be 
a performance based rather than a needs based report.
    We should establish a baseline year from which to measure progress. 
This report should describe the current performance of the system, 
including all of its parts, examine emerging trends that could affect 
the performance of the transportation system, assess the critical 
impediments to achieving the national goals, and propose strategies for 
success.
    STPP suggests that an analysis of the expenditures for surface 
transportation by program and by type of investment should be part of 
any performance reporting. As we say ``follow the money'' to learn what 
is really going on. Today, the Secretary is required to provide a 
report to the Congress on the obligation of highway funds (Title 23, 
Chapter 1, Section 104(j)). (A copy of the language is attached to my 
statement). The last report sent to Congress is for FY 2005.
    In our view, public policy benefits from an open and transparent 
reporting of how funds are spent and whether objectives are being met. 
Over time this transparency shapes our decision-making process.
    In addition to regular reporting on the performance of the 
transportation system, STPP believes it is important that there be 
opportunities for a broad array of entities including non-profit 
organizations to provide their ideas and suggestions as to how best to 
assess the performance of the transportation system.
    The ability to monitor performance against the goals requires the 
availability of data and the allocation of sub-targets. A critical 
component of a performance based approach must include a strong data 
collection and research component. STPP believes the Transportation 
Department must strengthen its data collection, analysis, and reporting 
capacities and require that this information be made available on the 
Internet in an easily accessible and understandable format in a timely 
manner. For a meaningful performance regime to come into being, 
additional effort is required to further refine the targets, 
particularly the allocation of sub-targets, and assure consistent, but 
not necessarily identical, measures across the country.

Summary
    Overall, STPP is pleased that this Committee is launching a 
discussion about national surface transportation policy.
    We believe it is time to have a clear statement of national 
purpose, accompanied by goals, objectives, and performance reporting 
for our surface transportation system; that the goals should include 
areas affected by the transportation sector, such as energy and 
climate; that there be meaningful accountability for results that 
reflect issues of national interest.
    We stand ready to work with this Committee to help make this a 
reality.
    Thank you for this opportunity to provide comments on the future of 
national transportation policy.

                              Attachment 1

Declaration of Policy: Intermodal Surface Transportation Efficiency Act
    It is the policy of the United States to develop a National 
Intermodal Transportation System that is economically efficient and 
environmentally sound, provides the foundation for the Nation to 
compete in the global economy, and will move people and goods in an 
energy efficient manner.
    The National Intermodal Transportation System shall consist of all 
forms of transportation in a unified, interconnected manner, including 
the transportation systems of the future, to reduce energy consumption 
and air pollution while promoting economic development and supporting 
the Nation's preeminent position in international commerce.
    The National Intermodal Transportation System shall include a 
National Highway System which consists of the National System of 
Interstate and Defense Highways and those principal arterial roads 
which are essential for interstate and regional commerce and travel, 
national defense, intermodal transfer facilities, and international 
commerce and border crossings.
    The National Intermodal Transportation System shall include 
significant improvements in public transportation necessary to achieve 
national goals for improved air quality, energy conservation, 
international competitiveness, and mobility for elderly persons, 
persons with disabilities, and economically disadvantaged persons in 
urban and rural areas of the country.
    The National Intermodal Transportation System shall provide 
improved access to ports and airports, the Nation's link to world 
commerce.
    The National Intermodal Transportation System shall give special 
emphasis to the contributions of the transportation sectors to 
increased productivity growth. Social benefits must be considered with 
particular attention to the external benefits of reduced air pollution, 
reduced traffic congestion and other aspects of the quality of life in 
the United States.
    The National Intermodal Transportation System must be operated and 
maintained with insistent attention to the concepts of innovation, 
competition, energy efficiency, productivity, growth, and 
accountability. Practices that resulted in the lengthy and overly 
costly construction of the Interstate and Defense Highway System must 
be confronted and ceased.
    The National Intermodal Transportation System shall be adapted to 
``intelligent vehicles,'' ``magnetic levitation systems,'' and other 
new technologies wherever feasible and economical, with benefit cost 
estimates given special emphasis concerning safety considerations and 
techniques for cost allocation.
    The National Intermodal Transportation System, where appropriate, 
will be financed, as regards Federal apportionments and reimbursements, 
by the Highway Trust Fund. Financial assistance will be provided to 
State and local governments and their instrumentalities to help 
implement national goals relating to mobility for elderly persons, 
persons with disabilities, and economically disadvantaged persons.
    The National Intermodal Transportation System must be the 
centerpiece of a national investment commitment to create the new 
wealth of the Nation for the 21st Century.

                              Attachment 2

 Excerpts from the September 1975 Statement of National Transportation 
               Policy by the Secretary of Transportation

1. The Federal Role--Predominant Concerns of the Federal Government
    a. The Federal Government should define its role vis-a-vis State 
and local governments by exercising responsibility pursuant to 
Constitutional and statutory authority;

        (1) In international commerce;

        (2) Over interstate commerce, particularly in supporting the 
        development, viability, and modernization of major interstate 
        networks in rail, highways, air, and water;

        (3) In defining and working to advance national priorities 
        through persuasion, incentive, regulation and enforcement where 
        the magnitude of the problems and their national importance 
        require a Federal response (e.g., safety, revising the city 
        centers, energy conservation);

        (4) In shoring up weak elements of the transportation system on 
        a temporary basis where the national interest is served by 
        helping to preserve diversity and prevent nationalization;

        (5)To assist States and municipalities on the basis of shared 
        responsibility and priorities;

        (6) In direct, selective investments in research and 
        development, planning and activities that are in the interest 
        of national security and other exclusively Federal concerns.

    b. The Federal Government must move in the direction of encouraging 
more rational public and private financing of capital and operating 
costs in the transportation sector, consistent with:

        (1) Sound fiscal policy and cost controls, including vigorous 
        assessment of the inflationary impact of Federal actions;

        (2) Increased participation, where possible, of State and local 
        governments in projects primarily benefiting their residents;

        (3) More equitable use of Federal subsidies, insuring that they 
        are necessary to achieve a clearly defined national interest 
        and minimizing their detrimental impact on competing modes;

        (4) Careful assessment of the costs and benefits of alternative 
        uses of Federal funds;

        (5) Recognition of the real costs of transportation services, 
        including their environmental consequences;

        (6) Allocating limited Federal resources on the basis of 
        comparative merit without reference to fixed trust fund 
        revenues;

        (7) Encouraging the user to pay for full cost of federally 
        financed services and facilities, except where the public 
        interest correctly dictates a subsidy;

        (8) Economic and regulatory policies that enable transportation 
        industries to earn a reasonable rate of return on investment, 
        attract capital, provide expanding job opportunities and 
        protect the legitimate needs of the employee, consumer and 
        investor;

        (9) Reasonable labor policies and practices that will enable 
        the efficient use of Federal transportation funds in reducing 
        unemployment and poverty.

    c. The Federal Government should improve its performance measures--
in assessing the effectiveness of alternative Federal programs and 
policy options and evaluating the health and progress of the 
transportation system--even though the diversity in transportation 
needs and costs of providing services make infeasible the formulation 
of uniform performance standards for all States and localities.
    d. Government must promote consumer participation in public 
decisionmaking.

2. U.S.-International Transportation Concerns
    a. In a world of increasing internal interdependency, 
transportation most protect vital national interests by:

        (1) Enabling the United States to compete effectively in the 
        world market;

        (2) Enabling people, freight, and mail to travel abroad at the 
        lowest possible price, consistent with good, safe, and regular 
        service and an appropriate rate of return on capital;

        (3) Enabling U.S. carriers to compete effectively with foreign 
        carriers;

        (4) Supporting national security requirements;

        (5) Reducing dependency on foreign energy resources;

        (6) Supporting continued U.S. leadership in technology through 
        sound research and development planning.

3. Federal-State-Local Relations
    Most transportation activity involves primarily local movement. 
Consequently, the largest share of existing Federal assistance programs 
requires shared Federal, State, and local priorities and 
decisionmaking. The extent of Federal financial participation and 
program control is a function of the national priorities served. As we 
decentralize authority and increase State and local program 
flexibility, States and localities must improve program management and, 
where possible, increase their financial participation in projects that 
primarily benefit their residents. We have a further responsibility to 
define residual Federal interests--connections to interstate commerce, 
preserving urban centers, overall national economic and social well-
being, civil rights etc.--and to simplify the process by which 
responsiveness to these national priorities is assured.

4. Government and the Private Transportation Sectors
    a. A dynamic, competitive, and effective private sector should meet 
the Nation's transportation needs to the maximum extent feasible.
    b. The private sector and government should interact effectively, 
performing functions and pursuing priorities for which each is best 
suited, working in a mutually reinforcing way where appropriate and at 
``arms length'' where necessary.
    c. Representing 10 percent of the Gross National Product, the 
transportation sector must attract adequate capital for sound 
investment in the future and promote a stable and growth-oriented 
economy by exercising fiscal responsibility, helping to control 
inflation, and creating employment opportunities.
    d. The Government must promote increased efficiency, energy 
conservation, capital development, job opportunity, and productivity 
through economic and regulatory policies that create a climate 
conducive to healthy competition among financially viable suppliers, 
carriers, operators, and modes. In responding to specific short-term 
economic ills of an industry, direct Federal subsidy should be 
considered as a last resort.
    e. We should seek balanced reform of the Federal regulatory 
process--not deregulation, sudden chaotic changes, or abrupt policy 
reversals. We must also realize that financial commitments have been 
made under existing regulatory ground rules, and we should be cautious 
in the application of theoretical solutions . . . Increased emphasis 
must be given to competition and the market mechanism as a more of 
effective judge of efficient resource allocation and a more reliable 
barometer of consumer preference.
    f. We should determine the most efficient restructuring in various 
modes and encourage new methods of intermodal cooperation.
    g. As economic regulatory charges are implemented, we also 
recognize that large financial sums have been invested in reliance, in 
part, on the present regulatory system. Therefore, some otherwise 
laudatory reforms will have to be altered or staged over a transitional 
period to enable appropriate adjustment to market conditions. We should 
evaluate the consequences of each modification to assure that the 
financial viability of the industry is preserved and other public 
interests are being served.
    h. Whereas less government intervention through economic regulation 
is desirable, this should not be at the expense of consumer protection 
or the financial well-being of the industry. Government should devote 
sufficient resources to the development and enforcement of reasonable 
standards of safety, environmental protection and civil rights, 
consistent with cost-benefit analysis where appropriate.
    i. The strength of our transportation system lies in its diversity, 
with each mode contributing its unique and inherent advantages, and 
responding to different consumer demands at various levels of cost and 
quality of service. The Government should preserve and encourage this 
diversity by:

        (1) Promoting equal competitive opportunity for all forms of 
        transportation;

        (2) Encouraging cooperation, connectivity, and integration 
        among the modes.

5. Public Interests--Enhanced Quality of Life
    a. The transportation sector should contribute substantially to an 
improved quality of life by:

        (1) Attaining high standards of safety;

        (2) Protecting our air and water from pollution, reducing 
        excessive noise, and supporting sound land use patterns and 
        community development;

        (3) Bringing people together and closer to the variety of 
        benefits that our culture and economy offer;

        (4) Minimizing the waste of human resources that results from 
        congestion, inadequate transportation service, and inefficiency 
        in transport operations;

        (5) Providing the lowest cost services to the consumer 
        consistent with safety, a reasonable rate of return on capital, 
        a sound government fiscal policy, and other public interests;

        (6) Promoting the most efficient use of scarce, finite, and 
        costly energy supplies;

        (7) Creating and maintaining employment and capital 
        opportunities.

    b. Our transportation system should be accessible to and provide 
equal job opportunities for all our citizens--with special recognition 
of the needs and potential contribution of the elderly, the 
handicapped, the poor, minorities, and women. It must respond to 
varying demands of the tourist, the family, and business. The consumer 
should be an active participant in the formulation of transportation 
policy.

                              Attachment 3
                          Title 23--Chapter 1

Section 104
    (j) Report to Congress.--The Secretary shall submit to Congress a 
report, and also make such report available to the public in a user-
friendly format via the Internet, for each Fiscal Year on----

        (1) the amount obligated, by each State, for Federal-aid 
        highways and highway safety construction programs during the 
        preceding Fiscal Year;

        (2) the balance, as of the last day of the preceding Fiscal 
        Year, of the unobligated apportionment of each State by Fiscal 
        Year under this section and sections 105 and 144;

        (3) the balance of unobligated sums available for expenditure 
        at the discretion of the Secretary for such highways and 
        programs for the Fiscal Year; and

        (4) the rates of obligation of funds apportioned or set aside 
        under this section and sections 105, 133, and 144, according 
        to----

                (A) program;

                (B) funding category or subcategory;

                (C) type of improvement;

                (D) State; and

                (E) sub-State geographic area, including urbanized and 
                rural areas, on the basis of the population of each 
                such area.

    Senator Lautenberg. Thank you all for your excellent 
testimony.
    I think it is kind of a breath of realism that is being 
discussed today. We know that we have got to include all parts 
of our country and all means available to solve this problem. 
We are so delinquent it is awful when you think about the 
deficient bridges that pervade our system and the inadequacy of 
highways.
    When President Eisenhower came up with his plan, and it was 
Senator Moynihan of great memory who called attention to the 
fact that this brilliant system had a secondary effect and that 
is, it permitted people to leave the cities, abandon the 
problems, get out of town, and as a consequence, we found all 
of these cities without the proper income or the appropriate 
energy that it took to build these. So we are in kind of a 
second phase of building America, and I think that we can do it 
and will do it.
    I will ask a question here. There have been a number of 
policy goals mentioned today, and those are to relieve 
congestion, improve safety, facilitate freight movement. And 
you are transportation experts. What can you, in summary form, 
deliver as a specific goal that you think should be 
established?
    Now, in your presentations, there were several things 
mentioned by each of you. Is there a particular thing that you 
think that we should focus on to get this job done, or is it 
too amorphous to say that there is a single thing? Sir?
    Mr. Heminger. Mr. Chairman, if I could start. In our 
report, we identified 10 new focus areas for the Federal 
program. As I said in my testimony, there are over 100 now, and 
they are not really focus areas. I do not know how you could 
focus on 100 things. We recommend that there be a performance 
objective for each of those 10 areas. Other areas of Federal 
policy where the Federal Government invests in certain 
activities come with accountability. This is one of the few 
places where that accountability is largely lacking. The money 
is invested and projects are certainly built, but there is no 
standard or measurement against which to judge success or 
failure. Did we increase or reduce congestion? Did we increase 
or reduce fatalities?
    If you look at the evidence that we have racked up in what 
I would call the T era, ever since the substantial completion 
of the interstate in the 1980s, fatalities have not improved. 
They have improved slightly recently just because we are 
driving less for the most part. Congestion has gotten 
considerably worse. Goods movement has bogged down to a crawl 
in many ports. So, by most objective measures--and I think the 
amount we have invested over that period is something around 
$600 billion of Federal money--things have gotten worse.
    So, I guess like that old joke goes, if it is not working, 
stop doing what you are doing. That is the first thing you do.
    And so I do believe that in each area of Federal 
investment, there ought to be a performance objective and there 
ought to be consequences if it is not met, either positive or 
negative, carrots or sticks. And I think the best way to 
develop those measures actually is not for the Congress to 
establish them, but for the Congress to require that DOT work 
with the States and the metropolitan areas to establish 
standards. Let people have some flexibility in the standards 
they choose----
    Senator Lautenberg. Fair enough.
    Mr. Heminger.--then hold them accountable to them.
    Senator Lautenberg. It was said in these premises before--
and I extend it because I did not like the way it was presented 
at the time. It was trust and verify. The fact is that you have 
got to go along and see what you are doing.
    Mr. Holmes, you are on a tight timeline. So I ask you for 
your response.
    Mr. Holmes. Thank you, Mr. Chairman.
    I think you heard a common thread really that ran through 
all four presentations, and that is flexibility, 
accountability, transparency. If we have, I think it is, 109 
different funding categories, we also recommended reducing 
those significantly, and then having the states develop their 
plan that meets the broad goals that the Federal DOT outlines 
in conjunction with Congress and then measuring those results.
    Senator Lautenberg. I learned one thing in the business I 
ran. The business I ran was called ADP, and I was the founder 
of that company. It has over 40,000 employees today. And the 
one thing I learned in my business years is that when it is 
such a massive program that you want to introduce, you have got 
to do it piecemeal. And I have seen it here in Government. We 
have seen it in health care. We have seen it in the FAA. As 
soon as you tackle it at this size, you just never get anywhere 
until the money is gone.
    Ms. Canby, do you want to volunteer? And I ask the 
indulgence of my colleagues here for a moment.
    Ms. Canby. Thank you, Senator. I certainly would.
    It seems to me that, first, we need to be clear on why we 
have a national program, what it is we are trying to 
accomplish, and define that very clearly so that then the 
agencies that are actually implementing have the flexibility to 
figure out how best to deliver it in their particular 
situation, whether it is in your state, my state, South Dakota, 
Texas, or Alaska or wherever, and then hold people accountable 
for reaching and addressing national interests. Now we are all 
addressing different interests in our own ways, and it is not 
adding up to dealing with an energy problem or a climate 
problem or a health issue or whatever the national concern 
might be.
    Senator Lautenberg. Thank you.
    Mr. Corless?
    Mr. Corless. Senator, we provided, obviously, in both our 
written and oral remarks, at least six over-arching objectives, 
and I think you, obviously, want to get down from a point where 
you have 108 programs to something manageable.
    But I would say we think whatever objectives we choose in 
the next authorization, it actually has to be a package because 
there are a number of complementary but quite different goals 
we are trying to accomplish, I think, both in terms of safety, 
congestion, repairing and maintaining our system, energy 
security, climate stability, public health. So those things 
have to work together as a package.
    Senator Lautenberg. I will try to move it along and give my 
colleagues equal time.
    But the one thing that I see here--and I have skilled 
colleagues at this table, people who know government from all 
sides. Even the junior member has been a mayor, and they say 
there is no place like a mayor's job to feel the pain and the 
inadequacy at the same time.
    I will say this. To me, the problem is of such magnitude, 
such importance that this kind of a forum is by no means a way 
to get the kind of information that we have. I talk to Senator 
Hutchison as the next senior person here and say that I think 
somehow or other this has to develop into a more traditional 
meeting format where these things can be discussed at length, 
and it is not in a 5-minute squeeze that we do it. I would 
reserve the opportunity to invite each of the four of you to a 
panel discussion that may take some time, but I think we can 
develop some thoughts.
    Please, Senator Hutchison, it is up to you.
    Senator Hutchison. Am I next you mean? Oh, OK.
    Well, I think that is a very good idea actually because I 
think having heard their different views, they have studied 
this. They have had commissions and they have some good ideas.
    Senator Lautenberg. I misplaced his ranking position. Go 
ahead. Kay, I am sorry.
    Senator Hutchison. See, I had left, and I did not realize 
that John had not already gone. You go ahead. I do not mind.
    Senator Thune. Let me just ask you all sort of a general 
question about the funding issue and how can we most 
responsibly provide for continued, adequate funding to ensure 
we truly continue to have a national transportation system. 
Some of you kind of talked about it a little bit around the 
edges, but does anybody care to take that one on?
    Mr. Heminger. Senator, I will speak on behalf of our 
Commission which spent 2 years, days of testimony on that 
subject. And one way you can characterize what we did is we 
spent about 2 years looking for an alternative to the fuel tax 
because no one likes it and it is hard to raise. We could not 
find one. I know I regret to report that to you. You probably 
regret to hear it.
    We took a lot of testimony on public-private partnerships, 
and they will play a role in the future, but I think a fairly 
modest one. About half of our current investment shortfall is 
just meat and potatoes maintenance of our existing system, and 
there are not a lot of investment bankers lining up to pay for 
that. A lot of our transit systems, the new systems we need to 
build, will operate at a loss, not a profit. So, there is no 
financial return there in many of them, conceivably.
    So, I think where you will see private capital play a role 
is in high-growth areas with a lot of congestion. I think a 
number of freight improvements could very well benefit from 
that strategy.
    But for the most part, I think we are going to need public 
investment. The only two places we saw where that investment 
could come from--one is the fuel tax, the traditional source, 
and the second is the general fund. And we strongly oppose the 
notion of essentially converting this user fee program, which 
has been a user fee program for 60 years now, into another 
general fund drain on the U.S. treasury which, God knows, is 
under strain already for a lot of other reasons.
    So, as unwelcome as that message might be, we believe the 
fuel tax has continued to play a major role. As you know, it 
has not been adjusted here in Washington since 1993. That is 
true in many States. In my State of California, it is 1989. 
Secretary LaHood said earlier that he was not sure now is a 
good time. I am not sure it is either, but I will tell you $2 
gasoline might be a better time than $4 gasoline. And it is 
only a matter of time before that is where we are again.
    So our report does emphasize the use of user fees, whether 
it is the fuel tax or a container fee for freight improvements 
or a ticket tax for rail improvements. We think all the users 
have a stake in the system and ought to help pay for its 
improvement.
    Senator Thune. Does anybody else want to comment on that?
    Mr. Holmes. I would like to make a couple of comments. We 
believe that the continuation of the fuel tax is important, in 
fact, critical. The time that it is going to take to transition 
from the fuel tax to another type of user fee is going to be 
lengthy, but ultimately the fuel tax is a dinosaur. As the 
average miles per gallon in the fleet in America increases, 
funding for the transportation system, if it is solely based on 
that, is in terrible jeopardy. It is, obviously, difficult to 
increase. Witness the fact that it has not increased in 
California since 1989; in Texas, since 1991; the Federal level, 
since 1993.
    We think that there needs to be a very broad array. It is 
not going to be solved out of one source. The public-private 
has a role, but it is a limited role. In Texas, we looked at a 
number of different toll opportunities that might be subject to 
private interest. There were about 90 different toll projects. 
There were only a handful of those that would be subject to an 
appropriate public-private type partnership. There were only a 
handful that would attract the interest of investment bankers, 
as Steve said, because most of them require toll equity as 
opposed to being toll rich. So it is going to take, I think, a 
fairly long time to move from a total reliance on a fuel tax to 
other user fees.
    Senator Thune. Let me direct this one, if I might, to Mr. 
Corless. I appreciate your comments. Those are both very 
insightful.
    You had suggested addressing freight demand through 
reinvestment in short haul freight railroads. How much funding 
do you believe would be needed to effectively improve short 
line rail movements?
    Mr. Corless. Senator, I know we have been working with NADO 
and others on this question. I do not have a number for you 
today, but I am happy to get back to you certainly with 
something. I would also defer to my colleague here, Anne Canby, 
with the OneRail Coalition, among others, who may have a more 
specific answer.
    But we do know that the short line railroads are in 
desperate need of repair. We do know that they are an asset and 
that we need to actually reinvest in them fairly quickly.
    Senator Thune. All right. Thank you, Mr. Chairman. I 
appreciate very much all your testimony and responses. Thanks.
    Senator Lautenberg. We will go back. Senator Hutchison.
    Senator Hutchison. Thank you.
    I would like to ask Mr. Holmes. Obviously, in your 
testimony you basically have said that the Federal Government 
is many times an impediment to being able to build the highways 
that are so needed in a high-growth state like Texas, and you 
propose some solutions from your transportation research group.
    My question is on the bill that I have introduced that 
would allow states to opt out with the requirement that they 
maintain the Federal highway system, but then allow them to 
make other choices in the transportation needs with their own 
transportation dollars. What would be your thought about 
legislation like that, and if you have other thoughts, what 
would those be?
    Mr. Holmes. It sounds, Senator, as though that bill would 
provide significant increased flexibility to the states to 
design and implement their systems in accordance with 
appropriate Federal standards. I think that would be a 
tremendous benefit. Basically there is not enough money and 
there is not enough flexibility, and it takes too long to 
produce a new asset. 13 years to produce a new roadway is 
incredibly counterproductive. To shorten that cycle, provide 
more money, less time, more flexibility would be a great 
benefit.
    Senator Hutchison. Thank you. I really do appreciate your 
coming because we are all dealing with these issues of high 
growth and having to look for innovative ways to fund our 
transportation systems. Of course, we all, I think, have dealt 
also with the issue of congestion and trying to build 
transportation infrastructure when a place already congested is 
the most expensive way to go, which Houston, your hometown, is 
learning right now. It was my hometown as well.
    Let me ask both of you, Mr. Holmes and Mr. Heminger. Mr. 
Heminger was on the commission that basically said that private 
investment should be a relatively small part of the solution, 
and it was a bone of contention among the commissioners whether 
that was something that should be considered a major part. The 
State of Texas has gone into private partnerships pretty 
heavily, and I would like to ask you, Mr. Heminger, what was 
the debate and how did you all come out on the side of it not 
being as important and, Mr. Holmes, why it has become a major 
focus of the Texas solutions. First, Mr. Heminger.
    Mr. Heminger. Senator, as you said, we did have a vigorous 
debate on our Commission about it. I think it was, in large 
part, responsible for the fact that three members of our 
Commission did dissent, including the former Secretary of 
Transportation, Mary Peters.
    I think we all saw a greater role for private capital to 
play. I think where we disagreed is how big that role can be, 
not necessarily should be, but can be. And given the fact that 
a lot of our investment need, as I described in my earlier 
answer, I think is such that it will not attract private 
capital, then you are left with the issue that, well, if 
private capital can take care of 15 or 20 percent--and I think 
it is somewhere around that range, if that--what do we do with 
the other 80 percent? How are we going to raise the revenue for 
that? And I think the dissenters on our Commission did not want 
to support an increase in the fuel tax, but we, the majority, 
really did not see any other way around it.
    I would note, in conclusion, that there was another 
commission created by Congress. You were not satisfied with 
one. You created two in the last transportation bill. And they 
essentially came to the same conclusion, that over the long 
haul, we ought to move toward a new user fee, something like 
that tracks vehicle miles of travel, but in the short term, we 
really have no alternative but to raise the fuel tax to 
continue the program and to grow it as it needs to grow.
    Senator Hutchison. So your point was really not that it was 
not effective, just that it could not be relied on to make the 
big differences that are necessary.
    Mr. Heminger. It really cannot be viewed, I do not think, 
Senator, as a replacement for the fuel tax. The fuel tax is the 
workhorse of our Federal surface transportation program and I 
think for the next 15 or 20 years, until we have a replacement, 
it has to continue to be or we have to resign ourselves to much 
diminished funding levels.
    Senator Hutchison. Mr. Holmes?
    Mr. Holmes. I happen to agree with that. I think it seems 
like Texas has moved in the direction of PPPs very heavily, but 
in point of fact, out of the 87 toll projects that TxDOT looked 
at a couple of years ago, there were less than 20 percent of 
those that would be susceptible to a private interest. So, 
while it is an incremental help and a very important one, it 
will not solve the overall problem. It can be utilized in very 
congested areas where traffic counts are extremely high. It 
works in those areas. It does not work in rural Texas or in 
rural South Dakota or wherever there is not sufficient traffic 
volumes in order to recover the cost and maintenance of the 
roadway.
    One of the things that is beneficial, though, about a PPP 
or any type of toll road is that not only does it help pay for 
the capital costs, but it pays for the ongoing maintenance into 
the future. Texas currently needs about $4 billion a year just 
to cover maintenance and we have a total of $3 billion for 
maintenance and new capacity.
    Senator Hutchison. It is rough. Thank you very much and 
thank you for coming up from Texas because I know the problems 
you are facing.
    Mr. Holmes. It was raining there.
    Senator Hutchison. Thank you, Mr. Chairman.
    Senator Lautenberg. Are the two of you OK on your time?
    Mr. Holmes. Yes, sir.
    Mr. Heminger. I am just about out. If there is one more 
question, I would be happy to field it.
    Senator Lautenberg. I am going to ask my colleague, Senator 
Begich, to try to----
    Senator Begich. Mr. Chairman, I will just reserve my 
questions. I will make a general comment, and that is I agree 
with you. As a new person here, I will be honest with you. 
These formats are very cumbersome to really get to the meat of 
how to deal with this very complex issue. So, I really 
encourage your idea because, for example, what Senator 
Hutchison just talked about, the public-private partnerships--
you know, the country that does the most of this--actually they 
have huge operations within their bureaucracy to manage these--
is France, and they do it on water, sewer, roads. They do it on 
core infrastructure. There is very credible information and 
great experience that if we go down that path in any way--but I 
would be very interested in that work session because I think 
there is a wealth of information here that I would like to 
extract out of our witnesses and because I have questions about 
the regulatory process. How do we streamline that, for example? 
Some we require for putting benches in and some things like 
that. In Federal right-of-ways, we require NEPA. It is just a 
ridiculous process for simplistic things that we should be able 
to resolve.
    So I will reserve my questions. I thank all of you. I know 
the Chairman is interested in having something that we can have 
more engagement, and I think that is going to be great to 
extract more out of you.
    They can then catch their plane. But why would you want to 
be going to a place that is raining when you can be here? But I 
will leave that for you.
    Thank you, Mr. Chairman.
    Senator Lautenberg. I thank all of you for your time and 
your contribution. I think it was a very good session. I would 
like to follow on with some kind of a transportation conference 
mechanism. It may be at some places across the country that we 
have to go. This is too serious, too important, and flashes of 
ideas do strike a bell.
    I come out of the computer business, and if you had asked 
me 10 years ago what I would have thought was a good idea to 
raise revenues, I would have said to tax cable to the right-of-
way. But that has gone away. We do not need that anymore, but 
other ways of generating revenue that these rights-of-way can 
provide. So, we thank you all for your thoughtful and excellent 
presentations.
    Senator Hutchison?
    Senator Hutchison. Thank you, Mr. Chairman. I think it was 
very helpful. I think we have a good body of information now, 
and I hope that we can come to some conclusions that will not 
just be another highway authorization bill that is just what we 
have done in the past because I think we have new challenges. 
Thank you.
    Senator Lautenberg. This hearing is over.
    [Whereupon, at 4:39 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Prepared Statement of the American Society of Civil Engineers

    Chairman Lautenberg, Ranking Member Thune and Members of the 
Subcommittee:
    The American Society of Civil Engineers (ASCE) \1\ is pleased to 
submit this Statement for the Record of the April 28, 2009 hearing held 
by the U.S. Senate Committee on Commerce, Science and Transportation 
Subcommittee on Surface Transportation and Merchant Marine 
Infrastructure, Safety and Security: The Future of National Surface 
Transportation Policy.
---------------------------------------------------------------------------
    \1\ ASCE was founded in 1852 and is the country's oldest national 
civil engineering organization. It represents more than 146,000 civil 
engineers individually in private practice, government, industry, and 
academia who are dedicated to the advancement of the science and 
profession of civil engineering. ASCE is a non-profit educational and 
professional society organized under Part 1.501(c)(3) of the Internal 
Revenue Code.
---------------------------------------------------------------------------
    ASCE's 2009 Report Card for America's Infrastructure graded the 
Nation's infrastructure a ``D'' based on 15 categories, the same 
overall grade as ASCE's 2005 Report Card. In 2009, roads received a 
grade of D- as compared to a grade of D in 2005; bridges received a 
grade of C, the same as in 2005; transit received a D as compared to a 
D+ in 2005; and rail received a grade of C-, the same as in 2005.
    The lack of improvement in grades is caused by many factors, 
including deferred maintenance on the Nation's aging surface 
transportation systems, insufficient funding from all levels of 
government, and from a lack of compelling national leadership.
    While we appreciate that the Subcommittee does not have 
jurisdiction over all modes of the Nation's surface transportation, we 
are providing the following comprehensive comments because we believe 
for Congress to enact a progressive and effective Surface 
Transportation Program, it is imperative that the Subcommittee, and the 
Congress, work to develop an integrated, multi-modal national surface 
transportation system.
    Throughout the 20th Century, our Nation's leaders envisioned large 
scale infrastructure plans that inspired the public and contributed to 
unprecedented economic growth. Now much of that infrastructure is 
reaching the end of its design life, and we users and owners are 
experiencing increasing problems with deterioration across all public 
infrastructure. From the Works Progress Administration projects 
completed during the Great Depression to the creation of the Interstate 
Highway System in the Fifties, the Twentieth Century will be remembered 
as a time when Americans took pride in building a strong and lasting 
foundation.
    Currently, most infrastructure investment decisions are made 
without the benefit of a national vision. That strong national vision 
must originate with strong Federal leadership and be shared by all 
levels of government and the private sector. Without a strong national 
vision, infrastructure will continue to deteriorate.
    While the Report Card points out serious deficiencies in the 
Nation's infrastructure as well as the need for focused and visionary 
leadership and adequate funding, these can be addressed. The key 
solutions offered by ASCE are ambitious and will not be implemented 
overnight, but Americans are capable of real and positive change. The 
Five Key Solutions are:

  <bullet> Increase Federal leadership in infrastructure;

  <bullet> Promote sustainability and resilience;

  <bullet> Develop Federal, regional and state infrastructure plans;

  <bullet> Address life cycle costs and ongoing maintenance; and

  <bullet> Increase and improve infrastructure investment from all 
        stakeholders.

Bridges
    Usually built to last 50 years, the average bridge is now 43 years 
old. According to the U.S. Department of Transportation, of the 600,905 
bridges across the country, as of December 2008, 72,868 (12.1 percent) 
were categorized as structurally deficient and 89,024 (14.8 percent) 
were categorized as functionally obsolete. While some progress has been 
made in recent years to reduce the number of structurally deficient and 
functionally obsolete bridges in rural areas, the number in urban areas 
is rising.
    To address bridge needs, states use Federal as well as state and 
local funds. According to the American Association of State Highway and 
Transportation Officials (AASHTO), a total of $10.5 billion was spent 
on bridge improvements by all levels of government in 2004. Nearly 
half, $5.1 billion was funded by the Federal Highway Bridge Program--
$3.9 billion from state and local budgets, and an additional $1.5 
billion in other Federal highway aid. AASHTO estimated in 2008 that it 
would cost roughly $140 billion to repair every deficient bridge in the 
country--about $48 billion to repair structurally deficient bridges and 
$91 billion to improve functionally obsolete bridges.
    Simply maintaining the current overall level of bridge conditions, 
that is, not allowing the backlog of deficient bridges to grow, would 
require a combined investment from the public and private sectors of 
$650 billion over 50 years, according to AASHTO, for an annual 
investment level of $13 billion. The cost of eliminating all existing 
bridge deficiencies as they arise over the next 50 years is estimated 
at $850 billion in 2006 dollars, equating to an average annual 
investment of $17 billion.
    While some progress has been made recently in improving the 
condition of the Nation's rural bridges, there has been an increase in 
the number of deficient urban bridges. At the same time, truck traffic 
over the Nation's bridges is on the rise--a matter of great concern as 
trucks carry significantly heavier loads than automobiles and exact 
more wear and tear on bridges. The investment gap is accelerating and 
the failure to invest adequately in the Nation's bridges will lead to 
increased congestion and delays for motorists, wasted fuel, the further 
deterioration of bridge conditions, and increased safety concerns. Once 
Congress works to address these problems in the 2009 authorization of 
the Surface Transportation Program, it should establish a goal that 
less than 15 percent of the Nation's bridges be classified as 
structurally deficient or functionally obsolete by 2013 and should 
provide the funding needed to accomplish that.

Roads
    Our Nation's economy and our quality of life require a highway and 
roadway system that provides a safe, reliable, efficient, and 
comfortable driving environment. Although highway fatalities and 
traffic-related injuries declined in 2007, the drop is most likely 
attributable to people driving less. Still, in 2007, 41,059 people were 
killed in motor vehicle crashes and 2,491,000 were injured. Motor 
vehicle crashes cost the U.S. $230 billion per year--$819 for each 
resident in medical costs, lost productivity, travel delays, workplace 
costs, insurance costs, and legal costs.
    Next to safety, congestion has become the most critical challenge 
facing our highway system. Congestion continues to worsen to the point 
at which Americans spend 4.2 billion hours a year stuck in traffic at a 
cost of $78.2 billion a year in wasted time and fuel costs--$710 per 
motorist. The average daily percentage of vehicle miles traveled (VMT) 
under congested conditions rose from 25.9 percent in 1995 to 31.6 
percent in 2004, with congestion in large urban areas exceeding 40 
percent. And as a result of increased congestion, total fuel wasted 
climbed from 1.7 billion gallons in 1995 to 2.9 billion gallons in 
2005.
    Poor road conditions lead to excessive wear and tear on motor 
vehicles and can also lead to increased numbers of crashes and delays. 
According to the Federal Highway Administration (FHWA), while the 
percentage of VMT occurring on roads classified as having ``good'' ride 
quality has steadily improved, the percentage of ``acceptable'' ride 
quality steadily declined from 86.6 percent in 1995 to 84.9 percent in 
2004, with the lowest acceptable ride quality found among urbanized 
roads at 72.4 percent. These figures represent a failure to achieve 
significant increases in good and acceptable ride quality, particularly 
in heavily trafficked urbanized areas.
    Compounding the problem is steadily increasing demand on the 
system. From 1980-2005, while automobile VMT increased 94 percent and 
truck VMT increased 105 percent, highway lane-miles grew by only 3.5 
percent. From 1994-2004, ton miles of freight moved by truck grew 33 
percent. Without adequate investment and attention, the negative trends 
will continue, as will the adverse consequences.
    It is clear that significant improvements and system maintenance 
will require significant investments. The National Surface 
Transportation Policy and Revenue Commission studied the impact of 
varying investment levels (medium and high) and produced the following 
ranges of average annual capital investment needs (in 2006 dollars):

  <bullet> $130 billion-$240 billion for the 15-year period 2005-2020;

  <bullet> $133 billion-$250 billion for the 30-year period 2005-2035;

  <bullet> $146 billion-$276 billion for the 50-year period 2005-2055.

    The lower end of the ranges reflect the estimated costs of 
maintaining key conditions and performance measures at current levels, 
while the higher end ranges would allow for an aggressive expansion of 
the highway system, which would provide improved conditions and 
performance in light of increasing travel demand. Even at the lower 
range of estimates, an enormous gap exists between the current level of 
capital investment and the investment needed to improve the Nation's 
highways and roads.
    The challenges imposed by our highway infrastructure require a 
large increase in capital investment on the part of all levels of 
government and other sources as well. An overstressed infrastructure 
will slow freight delivery, create unpredictability in supply chains, 
diminish the competitiveness of U.S. businesses, and increase the cost 
of consumer goods. There must also be a significant change in the way 
we manage the system, which should include the use of emerging 
technologies and innovative operational strategies.
    Legislation to replace SAFETEA-LU, which expires on September 30, 
2009, must address the following issues if it is to set the stage for 
the major reforms needed to ensure the viability of our surface 
transportation system. First, it must more clearly define the Federal 
role and responsibilities, and from that definition, the framework for 
a performance-based and fully accountable system can emerge. Second, it 
is clear that the current funding model for the Highway Trust Fund 
(HTF) is failing. The latest projections by the U.S. Department of 
Treasury and Congressional Budget Office indicate that by the end of FY 
2009, the HTF will have a negative balance if no corrective action is 
taken.
    While acknowledging the need to move to a new, sustainable funding 
system in the long term, the National Surface Transportation Policy and 
Revenue Study Commission has recommended an increase of 5-8 cents per 
gallon in the gas tax per year over the next 5 years to address the 
current projected shortfall. And the recently released report of the 
National Surface Transportation Infrastructure Financing Commission 
calls for a 10 cent per gallon increase in the Federal gasoline tax and 
a 15 cent per gallon increase in the Federal diesel tax while also 
acknowledging the need to transition to a mileage-based user fee. 
Finally, the legislation must encourage innovative thinking and 
solutions from all sectors--public, private, and academia.
    Transportation is a significant contributor of greenhouse gas 
emissions in the U.S. As a result of increased congestion, total fuel 
wasted climbed from 1.7 billion gallons in 1995 to 2.9 billion gallons 
in 2005. Gasoline and diesel taxes cannot be relied upon in the future 
to generate the HTF revenues when national policy demands a reduction 
in both the reliance upon foreign sources of energy and the Nation's 
carbon footprint. Private investment in greenhouse-gas-reducing 
technologies must be stimulated by establishing a market value for 
greenhouse gas emissions over the long term through the auctioning of 
emissions credits, and a significant portion of the revenues from 
emissions credits should be allocated to the Highway Trust Fund and 
other infrastructure financing methods to support technology investment 
as well as the necessary investments in ``green'' upgrades to the 
Nation's public works infrastructure. However, while Congress works to 
develop a comprehensive energy and climate change policy and considers 
transitioning to a system that more directly aligns fees that a user is 
charged with to the benefits the user derives, an increase in the gas 
tax is necessary to meet surface transportation funding needs.

Transit
    In recent years, transit use has increased more rapidly than any 
other mode of transportation. Ridership increased by 25 percent from 
1995 to 2005--to 10.3 billion trips a year, the highest number of trips 
in 50 years. An estimated 34 million trips are taken on public 
transportation each weekday and of those trips, 59 percent are taken by 
individuals commuting to and from work, 11 percent by individuals 
traveling to and from school, and 9 percent by individuals traveling to 
and from leisure activities. By moving workers and shoppers, transit is 
increasingly becoming a major economic factor.
    In 2004, there were 640 local public transit operators serving 408 
large and small urbanized areas and 1,215 operators serving rural 
areas. In addition, there were 4,836 specialized services for the 
elderly and disabled in both urban and rural areas, representing a 
total increase in these types of services since 2002. These systems 
operate more than 120,000 vehicles. Transit rail operators controlled 
10,892 miles of track and served 2,961 stations. Between 2000 and 2004, 
the number of urban transit vehicles increased by 13.4 percent, track 
mileage grew by 3 percent, and the number of stations grew by 4.8 
percent. Also during that time, the number of passenger miles traveled 
by all transit passengers increased at an annual rate of 1.3 percent. 
Passenger growth on transit rail lines grew at an even greater rate, 
4.3 percent.
    SAFETEA-LU authorized more than $45 billion in transit investments. 
However, the increased popularity of transit--as evidenced by robust 
increases in transit ridership and strong support for local funding 
initiatives--has led to growth in both the number and size of transit 
systems in the U.S. While new investment brings badly needed transit 
service to more Americans, existing systems continue to require 
investments to replace aging infrastructure; thus, the revenue that is 
available must be spread further than ever before. At the same time, 
dwindling revenues in the HTF impact the transit sector's financial 
health at a time when more Americans are relying on it for travel.
    While mass transit can be an affordable and environmentally 
friendly travel alternative to automobiles, the American Public 
Transportation Association (APTA) estimates that approximately half of 
Americans do not have access to reliable transit systems. A 2005 survey 
conducted by the U.S. Department of Housing and Urban Development and 
the U.S. Census Bureau found that only 54 percent of American 
households have access to bus and rail transit and only 25 percent have 
what they consider a good alternative to such transit.
    The Federal Transit Administration (FTA) rates system conditions on 
a five-point scale--one being poor and five being excellent. FTA's 2006 
Conditions and Performance Report indicates that the condition of the 
Nation's transit infrastructure remained largely unchanged during the 
past 4 years. The estimated average condition of the urban bus fleet 
was 3.08 in 2004, a minor improvement from 3.07 in 2000. The average 
bus age was reported to be 6.1 years, down slightly from 6.8 years in 
2000. The estimated average condition of rail vehicles was 3.5 in 2004, 
down from 3.55 in 2000.
    While bus and rail fleet conditions have remained essentially the 
same, rail transit station conditions have worsened. Only 49 percent of 
stations are in adequate or good repair and 51 percent are in 
substandard or worse condition. In 2000, 84 percent of stations were 
rated as adequate or better. The FHWA notes that differences in ratings 
are due to a change in the methodology used to evaluate station 
conditions since the last report. The condition of other structures 
such as tunnels and elevated structures has improved: 84 percent were 
in adequate or better condition in 2004 compared to 77 percent in 2000.
    Funding increased modestly between 2000 and 2004. Indicating an 
increase in service demand, 23 of 32 (72 percent) of local ballot 
initiatives for public transportation--or initiatives with a public 
transit component--were passed in 2008, authorizing nearly $75 billion 
in expenditures. Much of this local revenue is intended to match 
Federal investments. Total capital spending from all sources was $12.6 
billion in 2004, up from $12.3 billion in 2002, and up more than 140 
percent during the past 15 years. Federal contributions totaled $9.8 
billion in 2008.
    The FTA estimates that an additional $6 billion should be spent 
annually to maintain current conditions; however to improve conditions, 
a total of $21.6 billion needs to be spent annually. These estimates 
are supported by the recent findings of the Federal Surface 
Transportation Study and Revenue Commission. Assuming a constant level 
of investment relative to 2006 dollars, transit ridership will continue 
to increase unimpeded to between 18 and 20 billion trips annually. If 
funding is increased, however, transit ridership will be able to 
increase more rapidly and the physical condition of the Nation's 
transit systems will improve. With a ``medium'' level of funding--
between $14 and $18 billion a year--the Commission estimates that 
between 26,000 and 51,000 new vehicles could be added to the system and 
that between 1,100 and 1,500 additional miles of rail track could be 
laid. In addition, average condition will increase to 4.0 and the 
system will be able to accommodate between 12 and 14 billion trips 
annually by 2020. During that same time period, with a ``high'' level 
of funding--between $21 and $32 billion annually--between 51,000 and 
96,000 new vehicles could be added to the fleet and between 3,000 and 
4,400 miles of track could be laid. The number of annual trips could 
increase to between 13 and 17 billion.
    The 2008 State and National Public Transportation Needs Analysis, 
commissioned by APTA and AASHTO, estimated the total funding 
requirements for various growth percentages. Assuming a moderate annual 
passenger growth rate of 3.52 percent, $59.2 billion must be spent 
annually by all levels of government in order to improve both 
infrastructure condition and service performance. Total expenditures by 
all levels of government in 2007 were $47.05 billion.

Freight Rail
    The U.S. freight rail system is comprised of three classes of 
railroad companies based on annual operating revenues: 8 Class I 
freight railroad systems; 30 Class II regional or short-line railroads; 
and 320 Class III or local line-haul carriers.
    Approximately 42 percent of all intercity freight in the United 
States travels via rail, including 70 percent of domestically 
manufactured automobiles and 70 percent of coal delivered to power 
plants. As of 2006, Class I railroads owned and operated 140,249 miles 
of track. However, most traffic travels on approximately one-third of 
the total network, which totals 52,340 miles.
    After years of shedding excess capacity, railroads have been 
increasing infrastructure investment and spending in recent years. In 
2006, overall spending on rail infrastructure was $8 billion, a 21 
percent increase from 2005. More specifically, spending on construction 
of new roadway and structures increased from $1.5 billion in 2005 to 
$1.9 billion in 2007. Increased spending on maintenance of railroad 
networks and systems has become necessary as investments are made in 
more costly signaling technology, heavier rail, and the improved 
substructure necessary to accommodate heavier trains.
    Demand for freight transportation is projected to nearly double by 
2035--from 19.3 billion tons in 2007 to 37.2 billion tons in 2035. If 
current market shares are maintained, railroads will be expected to 
handle an 88 percent increase in tonnage by 2035. However, as many look 
to rail as a more efficient and environmentally friendly freight 
shipper, rail's market share could increase and lead to additional 
increases in freight rail tonnage.
    An estimated $148 billion in improvements will be needed to 
accommodate the projected rail freight demand in 2035. Class I freight 
railroads' share of this cost is estimated at $135 billion. Through 
productivity and efficiency gains, railroads hope to reduce the 
required investment from $148 billion to $121 billion over the period 
2007 through 2035.

Passenger Rail
    Amtrak, the Nation's only intercity passenger rail provider, 
carried 28.7 million riders in Fiscal Year 2008, an 11.1 percent 
increase from Fiscal Year 2007. Further, the 2007 ridership represented 
a 20 percent increase from the previous 5 years. Corridor services 
linking major cities less than 500 miles apart, such as Milwaukee-
Chicago, Sacramento-San Francisco-San Jose and the Northeast Corridor 
are experiencing the fastest growth.
    Increased ridership has led to increased revenue, and Amtrak 
received $1.355 billion in Federal investment in Fiscal Year 2008. 
However, an additional $410 million in immediate capital needs have 
been identified, including acquiring new cars to add capacity. In 
addition, upgrades to comply with the Americans with Disabilities Act 
(ADA) and improve overall conditions of the 481 stations in its network 
are estimated at $1.5 billion.
    While electrical power in the Northeast Corridor cushioned some of 
the blow of increased fuel prices in 2008, it also represents a major 
infrastructure challenge for Amtrak. Upgrading the electrical system in 
the Northeast Corridor, parts of which were installed in the 1930s, is 
among the immediate needs identified. Failure of these critical systems 
could bring the entire line to a halt, which would impact not only 
Amtrak, but also the 8 commuter railroads that share the Northeast 
Corridor.
    In the long term, the Passenger Rail Working Group (PRWG), which 
was formed as part of the National Surface Transportation Policy and 
Revenue Study Commission, determined that an annual investment of $7.4 
billion through 2016, totaling $66.3 billion, is needed to address the 
total capital cost of a proposed intercity rail network. It is further 
estimated that an additional $158.6 billion is needed between 2016 and 
2030 and, and that an additional $132.2 billion must be invested 
between 2031 and 2050 to achieve the ideal inter-city network proposed 
by PRWG. These costs do not include the mandated safety upgrades for 
freight rail lines that carry both passenger as well as freight traffic 
and for those routes that carry toxic chemicals as required by the Rail 
Safety Improvement Act of 2008.
    While the investments set forth by the PRWG are significant, the 
benefits would be significant as well. The PRWG estimated a net fuel 
savings of nearly $4 billion per year by diverting passengers to rail 
if the proposed vision was adopted. In addition, the investments would 
reduce the need for even greater capacity investments in other modes.
    Intercity passenger rail faces particular concerns not faced by 
other modes of transportation, such as the lack of a dedicated revenue 
source. Amtrak owns and/or operates 656 miles of track that are 
maintained and upgraded using funds from its general operating budget, 
impacting its ability to fund other projects. The annual congressional 
appropriations process has provided minimal funding in recent years, 
leading to a major backlog of deferred track maintenance on the track 
that Amtrak owns and operates, more than half of which is shared with 
commuter and freight railroads. For the remainder of its 21,095-mile 
network, Amtrak relies on freight rail lines that make maintenance and 
upgrade decisions on the basis of their own business models and 
shareholders' interests while preserving Amtrak's statutory rights for 
access. Freight and passenger rail interests are becoming more aligned 
as both require increases in rail network capacity, but successful 
alignment of interests will require both a public and private 
investment.
    ASCE supports the development, construction and operation of an 
expanded passenger rail transportation system within the United States, 
including advanced technology high speed ground transportation (HSGT) 
systems. As regional and intercity transportation corridors in the 
United States become increasingly congested, investments in intercity 
passenger rail systems, including HSGT, are increasingly attractive as 
part of an overall transportation mobility strategy to provide added 
capacity and high quality service. Investments in this technology are 
cost effective, environmentally responsive and energy efficient and 
should be considered as companion investments to traditional highway 
and air modes. These investments include both conventional wheel-on-
rail systems and new technologies. Other nations, in Europe and Asia in 
particular, have invested heavily in the development and construction 
of new HSGT systems and intercity passenger rail networks over the past 
four decades. While the U.S. has spent substantial sums in highway and 
air passenger networks, North America has lagged in the development and 
implementation of efficient, relatively non-polluting, and high-
capacity intercity passenger rail and HSGT networks. The $8 billion 
included in the American Recovery and Reinvestment Act along with $5 
billion (over the next 5 years) proposed by the President in his FY 
2010 budget for HSGT provides a foundation for developing a 
comprehensive high-speed intercity passenger rail network.
    Substantial investments in freight and passenger rail 
infrastructure will help to maximize efficiencies and ultimately reap 
broad benefits for passengers, shippers and the general public.

Expanding Infrastructure Investment
    Establishing a sound financial foundation for future surface 
transportation expansion and preservation is an essential part of 
authorization. Despite increased funding levels in TEA-21 and SAFETEA-
LU, the Nation's surface transportation system requires even more 
investment.
    ASCE supports the following items for surface transportation 
infrastructure investment:

  <bullet> A 25 cent-per-gallon increase in the motor fuels user fee. 
        To maintain the current conditions of the surface 
        transportation infrastructure, as defined by the U.S. 
        Department of Transportation's Conditions and Performance (C&P) 
        Report, a 10-cent increase is necessary. The additional 15-cent 
        increase would go toward system improvement including 
        congestion relief, freight mobility, and traffic safety.

  <bullet> A maintenance of effort requirement to ensure that all 
        levels of government are making comparable financial 
        commitments to improve the Nation's surface transportation 
        system.

  <bullet> The user fee on motor fuels should be indexed to the 
        Consumer Price Index (CPI), in order to preserve the purchasing 
        power of the fee.

  <bullet> All motor fuels should be taxed equitably.

  <bullet> The Highway Trust Fund balances should be managed to 
        maximize investment in the Nation's infrastructure.

  <bullet> Congress should preserve the current firewalls to allow for 
        full use of trust fund revenues for investment in the Nation's 
        surface transportation system.

  <bullet> The authorization should maintain funding guarantees.

  <bullet> Tolling, vehicle taxes, state sales taxes, congestion 
        pricing, container fees, and transit ticket fees must all be 
        considered in the development of revenues for the maintenance 
        and improvement of the surface transportation system.

  <bullet> The current flexibility provisions should be maintained. The 
        goal of the flexibility should be to establish an efficient 
        multi-modal transportation system for the Nation.

  <bullet> The development of a freight mobility program to guarantee 
        the efficient movement of freight and reduce system congestion.

  <bullet> The creation of a permanent commission to determine the 
        levels at which motor fuel user fees should be set, and when 
        those fees should be increased.

  <bullet> Efficiency in delivering infrastructure projects to shorten 
        delivery times and decrease costs.

    ASCE supports the need to address the issue of future sources of 
revenue for surface transportation funding. Congress should allow for 
the exploration of the viability of the most promising funding options 
that will maintain the viability of the HTF. In particular, the impacts 
of increased fuel efficiency and alternate fuel technologies such as 
fuel cells should be studied. A mileage-based system for funding our 
Nation's surface transportation systems also needs further study. A 
large scale demonstration project, to follow up on the work done in 
Oregon, should be executed to determine the practicality of such a 
program. The data will be critical in determining how to generate HTF 
revenue as the Nation's dependence on gasoline as a fuel source for 
automobiles is reduced.
    While recognizing that innovative financing is not a replacement 
for new funding, ASCE supports innovative financing programs and 
advocates making programs available to all states where appropriate. 
Additionally, the Federal Government should make every effort to 
develop new programs. These types of programs include the 
Transportation Infrastructure Finance and Innovation Act, State 
Infrastructure Banks, and Grant Anticipation Revenue Vehicles. It 
should be noted, however, that innovative financing does not produce 
revenue, and should not be seen as an alternative to increasing direct 
user fee funding of surface transportation infrastructure.
    Innovative financing techniques can greatly accelerate 
infrastructure development and can have a powerful economic stimulus 
effect compared to conventional methods. This is the current approach 
in South Carolina, Georgia, Louisiana, Florida, and Texas, where 
expanded and accelerated transportation investment programs have been 
utilized.
    ASCE recognizes Public Private Partnerships (PPPs) as one of many 
methods of financing infrastructure improvements. ASCE supports the use 
of PPPs only when the public interest is protected and the following 
criteria are met:

  <bullet> Any public revenue derived from PPPs must be dedicated 
        exclusively to comparable infrastructure facilities in the 
        state or locality where the project is based;

  <bullet> PPP contracts must include performance criteria that address 
        long-term viability, life cycle costs, and residual value;

  <bullet> Transparency must be a key element in all aspects of 
        contract development, including all terms and conditions in the 
        contract. There should be public participation and compliance 
        with all applicable planning and design standards, and 
        environmental requirements; and

  <bullet> The selection of professional engineers as prime consultants 
        and subconsultants should be based solely on the qualifications 
        of the engineering firm.

    ASCE supports the development of criteria by governing agencies 
engaging in PPPs to protect the public interest. Examples of criteria 
include input from affected individuals and communities, effectiveness, 
accountability, transparency, equity, public access, consumer rights, 
safety and security, sustainability, long-term ownership, and 
reasonable rate of return.
    ASCE is greatly appreciative of the investment made by the American 
Recovery and Reinvestment Act of 2009 toward restoring and upgrading 
the Nation's surface transportation system. This much needed down-
payment represents a significant first step toward enhancing the 
Nation's deteriorating surface transportation system while 
simultaneously creating millions of jobs.
    ASCE also appreciates the infrastructure investments included in 
the Administration's Fiscal Year 2010 budget blueprint, as well as the 
proposal calling for the establishment of a National Infrastructure 
Bank. We believe that the budget submission accurately recognizes that 
infrastructure improvements are not only necessary, but that they will 
create and sustain jobs and provide a foundation for long-term economic 
growth.

Conclusion
    Transportation is a critical engine of the Nation's economy. It is 
the thread which knits the country together. To compete in the global 
economy, improve quality of life and raise the standard of living, we 
must successfully rebuild America's public infrastructure. Faced with 
that task, the Nation must begin with a significantly improved and 
expanded surface transportation system. The 2009 surface transportation 
authorization must be founded on a new paradigm; instead of focusing on 
the movement of cars and trucks from place to place, it must be based 
on moving people, goods, and services across the economy. Beyond simply 
building new roads or transit systems, an intermodal approach must be 
taken to create a new vision for the future. Included in this new 
vision must be plans to deal with the possible effects of climate 
change, a strong link to land use, sustainability of the system, the 
use of commodities, and anticipation of the expected changes in the 
population's demographics, especially age and urbanization.
    ASCE looks forward to working with the Subcommittee and assisting 
in its efforts to help develop a progressive surface transportation 
authorization bill which is founded on a strong national vision, 
adequate funding and new technology, and which creates an integrated, 
multi-modal national transportation system second to none.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Hon. Ray LaHood

    Question 1. How can we ensure that taxpayer dollars in the next 
surface transportation bill are spent to meet specific performance 
goals to relieve congestion, improve safety, and facilitate freight 
movement? Does the DOT currently have tools to track the progress 
toward these goals?
    Answer. The Department has advocated that transportation funds be 
focused on projects that produce measurable outcomes in terms of 
economic, environmental, and safety benefits for both passenger and 
freight movements. The analytical tools needed to measure these 
benefits exist, but in many cases States and metropolitan areas have 
not been using them. However, progress is being made as the Department 
has reached agreement with the States on fifteen (15) highway safety 
program performance measures for implementation beginning in FY 2010. 
Application of analytical tools will allow our transportation dollars 
to yield greater overall value and productivity than under current 
Federal programs that do not hold State and local transportation 
agencies accountable to any significant degree for spending their funds 
in a manner that achieves maximum net benefits and attainment of 
national goals.

    Question 2. Major transit projects like the Hudson River Rail 
Tunnel, which is ready to build in New Jersey, often take a long time 
to be completed, and any delays can result in millions and sometimes 
billions of dollars in extra costs. What can the Department of 
Transportation do to speed delivery of projects like the Hudson River 
Tunnel?
    Answer. I, together with Federal Transit Administrator, Peter M. 
Rogoff, intend to focus on streamlining the project evaluation process 
under the Federal Transit Administration's (FTA) New Starts program, 
which funds major capital public transportation projects such as the 
Hudson River Tunnel project. Certainly, as stewards of Federal taxpayer 
dollars, and in a fiscal environment where resource demands far exceed 
available funding, it is important that FTA--and local project 
stakeholders--have good information on which to base resource 
allocation decisions. However, I am concerned that unnecessary delays 
in the evaluation process may be causing project costs to creep upward 
unnecessarily. In 2006, FTA hired Deloitte Consulting to analyze the 
New Starts program and to identify opportunities for streamlining. FTA 
has begun to implement Deloitte's recommendations while conducting its 
own ``bottom up'' streamlining review of the entire program.
    In addition, FTA believes that it can make the environmental review 
process more efficient by taking full advantage of the flexibility 
inherent in the National Environmental Policy Act process and other 
environmental regulations. To this end, FTA has aggressively developed 
pertinent guidance and enhanced its outreach and training efforts. For 
example, FTA produced and published a manual entitled ``Keys to 
Efficient Development of Useful Environmental Documents'' (September 
2007), which was designed to promote production of concise, readable 
documents for the benefit of the public and agency decision-makers. 
Collectively, these measures should greatly accelerate project delivery 
while assuring adequate protection for the quality of the human 
environment.

    Question 3. As we look to reauthorize our motor carrier and highway 
safety programs, how can we make our highways safer for all travelers?
    Answer. The Department's top priority is to ensure the safety of 
all travelers. We plan on working closely with Congress as it develops 
a reauthorization proposal that enhances public safety.
    In order to make progress in achieving our safety goals, I believe 
Congress should take a comprehensive approach to safety, including the 
four Es: engineering, enforcement, education, and EMS. Research has 
shown that States that have improved highway safety have done so by 
addressing all these areas. While all States would benefit from safety 
activities in each of these four areas, their effectiveness may differ 
among States, depending on the specific safety problems they encounter. 
Therefore, I also believe that a national program must provide enough 
flexibility to allow States to focus on their particular safety 
problems.
    There are many good ideas to help address surface transportation 
safety, but I believe we need to make sure reauthorization addresses 
safety in a comprehensive, flexible fashion. I am confident that the 
Congress, working with the Administration, can develop a 
reauthorization bill that makes our highways safer for all travelers.

    Question 4. How would having a defined national surface 
transportation policy, which does not currently exist, better enable 
you to make decisions regarding more efficient and effective 
implementation of current surface transportation-related programs or 
assess the need for potential changes to those programs?
    Answer. Current surface transportation programs, because of 
statutory modal and programmatic restrictions, often do not allow for 
directing investments toward transportation improvements that 
efficiently address these national surface transportation goals. These 
same restrictions are major impediments to addressing policy priorities 
which can often best be achieved with multi-modal solutions. If the 
Department had increased flexibility to allocate Federal transportation 
funds, it could direct resources in a manner that uses the efficiency 
advantages of the individual modes working together for maximum 
efficiency and effectiveness. Key to addressing national (and 
international) problems like improving freight delivery or improving 
environmental conditions is retaining funding and policymaking 
authority at the Department. Currently, most Federal transportation 
programs devolve funds which are granted to the states and localities, 
where decisions are made. DOT does not have the ability now to set and 
pursue goals for the Nation.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Ray LaHood

    Question 1. Secretary LaHood, President Obama has called for one 
million plug-in electric vehicles by the year 2015, a goal I strongly 
support and was pleased to have authored legislation with then-Senator 
Obama and Senator Hatch to provide tax incentives for consumers to buy 
plug-ins. Additionally, the hope is by 2015 there will be other 
alternatively fueled vehicles on the road in significant numbers. But 
plug-ins, electric vehicles, and other alternatively fueled vehicles 
will require a fueling infrastructure that corresponds to drivers' 
local and long-distance driving patterns. What do you see as the 
Federal Government's role in developing an infrastructure for 
alternatively fueled vehicles? What do you see as the Department's 
role?
    Answer. Battery-equipped electric vehicles and plug-in hybrids will 
probably require recharging for a prolonged period of time, and, for 
both economic and environmental reasons, are best charged using off-
peak electricity. This suggests that most charging stations should be 
located at homes or in places where vehicles are normally parked 
overnight. Expensive ``convenience'' electricity might be provided at 
places where vehicles might be parked for several hours during the day. 
A `smart' recharging station should be able to charge the `correct' 
hourly price for electricity, whenever the station is used.
    These operational details suggest that the design and deployment of 
recharging stations should be integrated with the `smart grid' 
initiative. Within this context there are opportunities to integrate 
recharging stations with various federally-funded transportation 
facilities.
    In the case of renewable fuels, the Pipeline and Hazardous 
Materials Safety Administration is working on R&D and safety issues 
related to both ethanol pipelines and to batching ethanol and ethanol 
blends in existing products pipelines. This work, if successful, may 
eventually permit ethanol and ethanol-blended fuels to be more widely 
distributed around the United States.

    Question 2. In Washington State, I have encouraged communities 
pursuing Federal funds for developing new Park & Rides or garages to 
set aside several parking spaces for recharging batteries. Do you think 
it would be beneficial to require all new Park & Rides or parking 
garages supported by Federal funds set aside a percentage of parking 
spots for recharging batteries?
    Answer. It is likely that there will be substantial regional 
variation in the early penetration of electric and plug-in hybrid 
vehicles, based on local circumstances. It is also likely that the 
design of recharging stations (and vehicles) will undergo a substantial 
evolution over the next five or 10 years, as operational experience 
with early designs is reflected in subsequent modifications. Therefore 
a uniform national requirement at this juncture would often put the 
wrong equipment in the wrong place.
    A more targeted approach might be preferable, for example, funding 
the deployment of recharging stations in communities where there is an 
integrated program to promote the deployment of electric or plug-in 
hybrid vehicles.

    Question 3. In 2007, the States of Washington, Oregon and 
California submitted a proposal to the Department under Corridors of 
the Future program requesting funds for the Columbia River Bridge 
Crossing project between Oregon and Washington, intelligent 
transportation system improvements, and an alternative fuels corridor. 
The proposed alternative fuels corridors would consist of service 
stations for fueling alternatively powered vehicles along the I-5 right 
of way. One possible permutation is a public-private partnership with 
local utilities to develop recharging stations for plug-in electric and 
hybrid vehicles.
    I recognize that Title 23 Section 111 places restrictions on what 
State transportation departments can do with respect to permitting 
automotive service stations or other commercial establishments for 
serving motor vehicle users that would be constructed or located on the 
rights-of-way of the Interstate System. Secretary LaHood, do you have 
the ability to grant waivers to State transportation departments from 
the restrictions in Title 23 Section 111 if you determine it is in the 
public interest to do so? More broadly, what are your thoughts about 
having services for alternatively fueled vehicles available along the 
Interstate System's right-of-way as one means for jump-starting the 
development of the infrastructure necessary to meet the President's 
2015 goals for plug-in electric vehicles?
    Answer. The Department does not have broad authority to waive 
statutory requirements, even if it would be in the public interest to 
do so. I do think that we need to fully examine all available options 
to ensure that the infrastructure necessary to support use of 
alternative fuel vehicles, including electric vehicles, is put into 
place as quickly and efficiently as possible.

    Question 4. Secretary LaHood, as you know, the EPA uses one formula 
to establish the fuel economy rating placed on the vehicle's window 
sticker, and the Department of Transportation uses a different formula 
for fuel economy to calculate a manufacturer's fleetwide fuel economy 
average--the basis for the Federal CAFE standards.
    This has meant that the miles per gallon tests automakers use to 
meet CAFE standards are actually quite a bit more generous than the 
miles per gallon on a window sticker label or a driver would get in 
real world driving conditions.
    I am concerned that this dynamic will be exacerbated when it comes 
to plug-in electric vehicles. A Department of Energy pilot program in 
Seattle and other communities is showing that driver technique and 
route selection make all the difference for a plug-in hybrid to realize 
the full fuel economy savings potential. Has NTHSA given thought how it 
will calculate the contribution of plug-in hybrids to calculating a 
manufacturer's fleetwide fuel economy average?
    Answer. The fuel economy value differences largely reflect 
differences in statutory requirements. For determining the compliance 
of passenger cars with the CAFE standards, the Energy Policy and 
Conservation Act requires EPA to use the same laboratory test 
procedures that EPA used for emissions testing for model year 1975 or 
ones that give comparable results. EPA uses 1975 test procedures for 
light trucks as well.
    The current fuel economy ratings on vehicle window stickers are 
based on new adjustment factors that EPA adopted in response to the 
Energy Policy Act of 2005. That Act required EPA to update or revise 
adjustment factors to better reflect a variety of real-world factors 
that affect fuel economy and use those factors in generating the fuel 
economy ratings. The new factors are used by EPA to adjust the 1975 
laboratory test results downward to reflect real world driving 
conditions.
    As to the fuel economy values for plug-in hybrid electric vehicles, 
the 1975 statutory test procedures will still be used. NHTSA is working 
with EPA to determine what the appropriate miles per gallon conversion 
values to assign to a plug-in vehicle using stored electricity versus 
using electricity generated by an on-board gasoline powered engine. 
These conversion values will then be used to constitute a single miles 
per gallon value that will factor into a manufacturer's overall fleet 
value.

    Question 5. Secretary LaHood, your predecessor Secretary Peters 
believed in a strong private sector role in funding our future 
transportation investments. I think we need to look into the 
possibility of long-term leases where they make sense, but need to do 
so cautiously. The public benefit would have to be clearly stated. 
There would need to be accountability measures in place to ensure that 
the concerns of users and other citizens will not be ignored. And 
safeguards would have to ensure that privatization efforts do not just 
benefit private entities.
    Private sector financing can work when there is a revenue stream 
that can be used to finance future investments. But for the majority of 
nation's transportation system, that simply is not possible. Most, if 
not all, rural transportation projects and many urban mega projects 
don't pencil out for the private sector, and can't be tolled at a rate 
high enough to build the project.
    What has the Department learned from the handful of surface 
transportation infrastructure privatization deals to date?
    Answer. The Department has learned that several State and local 
governments consider the long-term lease of existing toll roads to be 
an important tool which can realize significant upfront value that can 
be spent for transportation or other public purposes. Long-term leases 
are one tool in the tool box and each potential project must be judged 
on its own merits. The public benefit must be clearly stated and 
understood.
    To date, four projects for the long-term lease, or concession, of 
existing toll roads have closed in the United States. These are as 
follows:

        1. The Chicago Skyway, which closed in January 2005,

        2. The Indiana Toll Road, which closed in June 2006,

        3. The Pocohontas Parkway near Richmond, Virginia, which closed 
        in June 2006, and

        4. The Northwest Parkway near Denver, Colorado, which closed in 
        August 2007.

    The City of Chicago received $1.8 billion from a concessionaire for 
a 99-year lease of the Chicago Skyway. In return, the concessionaire 
was granted the right to collect and keep all toll revenues during the 
99-year term. The City used the proceeds to redeem other City of 
Chicago debt, $500 million to fund a long-term reserve account, $375 
million to fund a midterm annuity account, and $100 million to fund 
various City of Chicago programs, such as home heating assistance and 
assistance for the disabled to make home modifications.
    The State of Indiana received an upfront payment of $3.8 billion 
from a concessionaire for the 75-year lease of the Indiana Toll Road. 
This payment fully funded Indiana's 10-year road improvement plan. In 
addition, the payment provided funding to each county in Indiana, and 
counties where the Indiana Toll Road is located received one-time 
payments of between $40 million and $120 million for local 
transportation projects.
    The concession payments in the case of the Pocahontas Parkway and 
the Northwest Parkway were used to help bridge a gap in financing these 
projects.

    Question 5a. Has the Administration taken a position on the long-
term leasing or privatization of infrastructure, including highways?
    Answer. In general, the Department supports efforts by State and 
local governments to look for new and creative ways to expand beyond 
traditional approaches to funding transportation infrastructure. We 
have not taken a specific position on the long-term leasing of existing 
transportation infrastructure.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Hon. Ray LaHood

    Question 1. Secretary LaHood, you state in your testimony that the 
Dept. of Transportation is working to improve livability and 
sustainability in rural areas. Isolated small towns face particular 
challenges to attracting jobs and economic investment. You note that 
transportation investment in rural communities can be designed to 
support new development while not ruining their small town character. 
Could you elaborate on this point?
    Answer. Livability is an important part of all transportation 
considerations for major metropolitan areas as well as small town, 
rural America. The Department recognizes that not all strategies for 
building livable communities will work for both urban and rural areas; 
one-size-fits-all solutions are not optimal standards of practice. It 
is imperative to ensure that both metro and rural areas have the 
technical capacity and funding flexibility to create and maintain a 
transportation infrastructure that fits their individual community 
needs. This flexibility in design and implementation will help small 
towns maintain their character while still providing the needed 
infrastructure improvements to attract jobs and economic investment.

    Question 2. Transit authorities in small towns and rural areas face 
particular challenges with funding their operations. Yet Federal 
transportation assistance is historically reserved for capital 
investments rather than funding operations and maintenance at the local 
level. How does the Dept. of Transportation intend to promote transit, 
vanpools and rideshare initiatives for rural America given the 
significant fiscal challenges rural communities face when trying to 
fund their transit operations?
    Answer. I appreciate your concern regarding the particular funding 
challenges facing transit operators in small towns and rural areas 
around our Nation. Addressing these unique challenges has long been an 
area of focus for FTA's formula programs.
    While capital investments are the focus of Federal assistance for 
large urbanized areas, I note that all recipients of FTA's ``other than 
urbanized areas'' formula program (commonly referred to as Section 
5311) and recipients in urbanized areas of less than 200,000 in 
population under FTA's Urbanized Area formula program (Section 5307), 
can use formula apportionment funds for transit operations. Under these 
two programs, FTA formula fund recipients, including those in New 
Mexico's small towns and rural areas, are currently eligible to utilize 
Federal funds toward operating assistance at up to a 50-percent Federal 
cost share.
    In addition, all recipients of FTA Section 5307 and 5311 formula 
funds may use capital funds for expenses that support operations--that 
is, for preventive maintenance. Preventive maintenance for vehicles and 
non-vehicles includes all the activities, supplies, materials, labor 
(wages, salaries, and benefits for maintenance workers, as well as 
casualty insurance), services, and associated costs required to 
preserve or extend the functionality and serviceability of the asset in 
a cost effective manner. Preventive maintenance is funded at an 80-
percent Federal share.
    I am committed to working to assist transit providers in small 
towns and rural areas as they explore all Federal resources that are 
available to help develop and fund transit, vanpool, and rideshare 
services. One of FTA's goals is to ensure that affordable mobility is 
available to all citizens, and supporting efforts to promote and fund 
transit, vanpools, and rideshare programs in nonurbanized areas is a 
major component of our Section 5311 program. FTA is pleased that the 
number of rural counties participating in the program has grown 
significantly since the passage of SAFETEA-LU and the increased 
financial support for the 5311 program. Additional funding for Section 
5311 provided by the Act has resulted in increased mobility for many 
people living in rural areas across America.
    In addition to capital and operating assistance available from 
FTA's formula programs, I want to highlight the Rural Transit 
Assistance Program (RTAP), a vital resource that provides training and 
technical assistance to transit operators in small towns and rural 
areas. Each State has an RTAP program that is keyed to the technical 
assistance needs of its transit providers; and, these include the 
promotion of mobility management initiatives such as ridesharing. FTA 
sponsors a national RTAP program as well, that develops information and 
materials for use by local operators and state administering agencies 
and supports research and technical assistance projects of national 
interest.

    Question 3. Secretary LaHood, you noted that safety will continue 
to be a high priority for your department and that we must explore 
``innovative ways'' to reduce death and injury from impaired driving. 
The State of New Mexico is aggressively addressing the problem of drunk 
driving through a combination of enforcement and education efforts. Yet 
in 2007 alone, there were still 133 fatalities involving alcohol-
impaired drivers in my state. Although the last highway bill provided 
grant programs to help states tackle drunk driving, it is a still a 
problem of great concern. What more can the Dept. of Transportation do 
to further efforts to reduce drunk driving? Do ignition locks or other 
new technologies under evaluation at the Federal or state level show 
promise for reducing impaired driving?
    Answer. The State of New Mexico is to be commended for their 
remarkable rate of progress over recent years in reducing drunk 
driving. Governor Richardson recently announced that the number of DWI-
related deaths in New Mexico has decreased 35 percent since 2002. Even 
at this reduced level, there are still far too many drunk-driving 
deaths--in New Mexico and across the Nation--and we need to continue 
looking for every possible remedy for this problem.
    I believe the Department can assist States by highlighting 
effective strategies and providing technical assistance and available 
resources that allow States flexibility in implementing solutions that 
best address their specific problems. States need support in assessing 
and adopting a range of potential countermeasures, including effective 
public awareness campaigns, law enforcement operations, and 
improvements in adjudication and sanctioning systems, including the use 
of ignition interlocks. Interlocks have shown great promise in helping 
to reduce recidivism, and we intend to continue to promote them as a 
key part of a State's comprehensive impaired driving programs.

    Question 4. Secretary LaHood, in your written testimony, you state 
that the Dept. of Transportation expects freight and passenger 
transportation to increase by about two-and-a-half times over the next 
40 years. This means more trucks as well as traffic on our rails. In my 
state, safety at railroad crossings is an important issue since we have 
had several fatal accidents. These accidents have taken place with cars 
at grade crossings and with people walking along tracks when they 
should not be. The Railroad Safety Enhancement Act of 2008 included 
grants to states for grade crossing safety and the ``Operation Life 
Saver'' program to raise public awareness of railroad safety hazards. 
What actions will your department take to address rail safety and 
provide adequate funding to meet critical needs such as improved grade 
crossing controls and Positive Train Control?
    Answer. To address rail safety, my chief priority is to ensure that 
the Federal Railroad Administration (FRA) and the Department of 
Transportation (DOT) as a whole continue to implement the Rail Safety 
Improvement Act of 2008. The Act mandates more than 40 rail safety 
rulemakings, studies, and model state laws, including a rulemaking to 
establish the essential functionalities required for positive train 
control systems that the Act requires to be installed on major freight 
and passenger railroads by 2015 (section 104). The Act also includes a 
range of measures to improve highway-rail grade crossing safety, 
including fostering the development and implementation of effective new 
technologies for use at highway-rail grade crossings (section 210). 
Highway-rail grade crossing safety is a central focus of my Department 
and is supported by the efforts of the Federal Highway Administration, 
Federal Motor Carrier Safety Administration, Federal Transit 
Administration, and the National Highway Traffic Safety Administration, 
in addition to those of FRA. Overall, we will seek to ensure that the 
Department's rail safety efforts are properly funded, recognizing that, 
in promoting rail safety, the Department is also promoting 
transportation efficiency, which benefits our Nation economically, 
environmentally, and in other ways.

    Question 5. It is my understanding that there are no current plans 
for including the southwest region of the United States in efforts to 
promote high speed rail. Why is the southwest region not being 
considered for high speed rail projects? What needs to be done at the 
Federal, regional, or state level for the southwest to be considered 
for high speed rail initiatives?
    Answer. The Department's strategic plan, Vision for High-Speed Rail 
in America, included a discussion of the ten designated high-speed 
corridors in the background section in identifying efforts that had 
been undertaken by the Federal Government over the past twenty years to 
lay the groundwork for an expansion of high speed rail and intercity 
passenger rail in America. The corridor designations were based on 
State applications for corridors expected to achieve 90 miles per hour 
for grade crossing safety purposes. The American Recovery and 
Reinvestment Act of 2009 provides $8 billion to the Secretary for 
expenditure on three different rail passenger programs with the 
allocation among the programs to be decided at the Secretary's 
discretion. The three programs are capital investment grants to support 
intercity passenger rail service (authorized by section 301 of the 
Passenger Rail Investment and Improvement Act of 2008 (PRIIA)), 
congestion grants (authorized by section 302 of PRIIA), and high-speed 
rail corridor development (authorized by Section 501 of PRIIA). Only 
the high-speed rail corridor development program is limited to 
designated high-speed rail corridors listed in PRIIA (also see 49 
U.S.C.  26106(b)(2)). This is not a limiting factor because of the 
broad discretion provided to the Secretary under the Recovery Act. The 
strategic plan indicates that DOT will have three separate ``tracks'' 
for funding under the Recovery Act and available annual appropriations: 
(1) grants to complete individual projects eligible under the intercity 
passenger rail service program ( 301) and the congestion program ( 
302) for the benefit of existing services; (2) cooperative agreements 
to develop entire segments or phases of corridor programs eligible 
under the intercity passenger rail service program ( 301) and high-
speed rail corridor development program ( 501) benefiting new or 
existing services; and (3) cooperative agreements for planning 
activities (including development of corridor plans and State Rail 
Plans eligible for funding under Section 301 of PRIIA) using non-
Recovery Act funds. This third track provides States an opportunity to 
prepare themselves for any funding remaining in subsequent application 
processes under the Recovery Act and/or future year appropriations. 
Applicants located in the southwest region of the United States are 
eligible to apply for grant funds under any of the three tracks to the 
same extent as applicants in other regions of the country. Application 
requirements building on the proposed strategy outlined in pages 13-18 
of the strategic plan were identified in the Department's application 
guidance that was issued on June 17, 2009. The Federal Railroad 
Administration held a series of High-Speed and Intercity Passenger Rail 
Workshops to seek input from the rail community in seven regions across 
the country. One of those sessions was held in Houston, Texas on May 
29, 2009.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             Steve Heminger

    Question 1. One of the recommendations of your commission was to 
condense the 108 existing Federal surface transportation programs into 
ten programs. How would condensing these existing programs improve our 
surface transportation system?
    Answer. Any agency of government with more than 100 priorities 
really has none at all. Consolidating the number of Federal surface 
transportation programs down to 10 (as recommended by the National 
Surface Transportation Policy and Revenue Study Commission on which I 
sat) would focus Federal aid in the policy areas that really matter to 
national goals such as national security, economic competitiveness, and 
energy independence.

    Question 2. Transportation accounts for one-third of greenhouse gas 
emissions in the United States. How can we focus our transportation 
investments to reduce the impact of the transportation sector on global 
warming?
    Answer. We must first acknowledge that the vast majority of 
reductions in CO<INF>2</INF> emissions in the transportation sector 
will come from technological improvements to the vehicles and fuels 
that comprise our on-road motor vehicle fleet. At the same time, we 
will need to pursue strategies that reduce the number of miles that 
each person travels by motor vehicle on an average day. This does not 
mean eliminating auto use, nor does it mean prohibiting new road 
construction. Rather, it means offering commuters and other travelers 
better options to auto travel for some of the trips they make--options 
such as public transit, ridesharing, telecommuting, and the like. It 
also means that Federal policy should permit metropolitan areas to 
experiment with congestion pricing and other demand management 
strategies that convey more of the full cost of travel to motorists as 
a way of encouraging them to travel by other modes, especially at 
congested times of day.

    Question 3. There has been little Federal investment in our freight 
rail infrastructure, even as we face a significant increase in freight 
traffic. What should be the Federal Government's role in maintaining 
and enhancing freight-related infrastructure?
    Answer. Congress has the constitutional responsibility to regulate 
interstate commerce, yet in surface transportation there is neither a 
national goods movement strategy nor a Federal freight investment 
program. If the next surface transportation authorization does nothing 
else, it should remedy this oversight. Such a Federal freight program 
should invest in both truck/highway and freight rail capacity, while at 
the same time encouraging a greater share of goods to be moved by rail 
for both traffic congestion and energy consumption purposes. Obviously, 
public investment in privately-owned freight rail infrastructure must 
be shown to have a public benefit, but our national commission work 
convinced us that pairing public and private investment in freight rail 
capacity is in the national interest.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Steve Heminger

    Question 1. Mr. Heminger, you state that there are far too many 
different Federal transit grant programs, with each one often 
containing different sets of rules, eligibility restrictions, and 
requirements. This can place extra administrative burdens on our state 
and local officials. How could the Federal transportation program 
requirements be streamlined to provide more flexibility for state and 
local officials while still ensuring accountability and transparency?
    Answer. Our national commission report devoted considerable 
attention to this subject, and as the old saying goes, ``the devil is 
in the details.'' I would direct the committee to Chapter 6 of our 
final report for full details of our streamlining proposals.

    Question 2. As a member of the Senate Bike Caucus, I appreciate how 
commuting to work by bicycle burns calories rather than fossil fuels. 
What policies or initiatives should be included in our future surface 
transportation plans to encourage greater use of bicycles and improve 
safety where drivers and cyclists share the same roadways?
    Answer. Our commission report advocated creation of a 
``Metropolitan Mobility'' program that would be performance-driven to 
reduce traffic congestion and auto emissions in our major metropolitan 
areas. It is my firm belief that local officials in many of those areas 
would likely include an expansion of bicycle and pedestrian facilities 
in their plans to achieve those performance objectives.

                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                             Ned S. Holmes

    Question. Last year, more than 37,000 people were killed and 
millions more were injured on our Nation's highways. How can Congress 
help more effectively enforce safety regulations on our highways?
    Answer. Safety is a top priority for all of us, and an important 
goal. With the need to develop new surface transportation legislation 
before us, now is a good time to adopt a new approach for Federal 
policy. An opportunity exists to redefine Federal priorities, 
transition to an outcome based approach, and allow states more 
flexibility to develop alternative funding, contracting and operating 
solutions. Clearly defined performance measures will add transparency 
to assessing state performance in meeting national goals, and funding 
can be linked to performance.
    Instead of considering procedural methods such as the enforcement 
of safety regulations, Congress could focus on national transportation 
system priorities, goals that reflect these priorities, and desired 
outcomes. An outcome based policy instead of a process based policy 
will change the way Federal programs are created and funds are 
distributed. By focusing on the vision and goals for the national 
transportation system, Congress can lead us to a modally integrated 
system that enhances our role in the global economy.
    For each system-wide goal, such as reducing fatalities, states will 
be empowered to develop performance measures and accurately track 
progress to meet these performance measures. States will have 
flexibility to develop a variety of programs that meet the needs of 
their unique situations, as long as desired outcomes are achieved. The 
ultimate measure for the safety goal will be how many lives are saved, 
the states will be responsible, and funding will be tied to 
performance. This outcome based approach will result in more 
transparent and accountable state programs and a simpler, more 
strategic Federal program.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Ned S. Holmes

    Question 1. Mr. Holmes, relocating freight rail out of congested 
urban areas is an issue across the country, including in your home 
state of Texas. In the border areas of Texas and New Mexico, several 
proposed rail relocation projects could potentially reduce congestion, 
improve border security, and increase safety. Yet freight-related 
projects of national significance that compete with state projects 
remain a challenge for our state DOTs and Metropolitan Planning 
Organizations. What more can be done at the Federal level to assist 
freight rail relocation projects?
    Answer. Not surprisingly, the biggest obstacle for relocating 
freight rail is lack of funding. In Texas, funds that are dedicated to 
the state highway fund may not be spent on rail. Our urban centers are 
actively pursuing rail funding options at the regional level, with some 
success to date. The most recent attempts for expanded regional taxing 
authority in state law did not pass. We have identified over $10 
billion in freight rail relocation projects that would provide a 
substantial public benefit. While we have some funds to perform 
preliminary studies, we don't have funds to plan, design and construct 
the projects. These projects could provide more congestion relief for 
area commuters than the same funds spent on area road projects. Both a 
modally integrated national transportation vision and more flexible 
funding would accelerate our efforts to reduce congestion through rail 
relocations. For example, if reducing congestion were a performance 
measure for mode-neutral transportation funds, rail relocations may 
reduce more congestion than other projects being considered. There are 
also many complex issues related to security and customs, at both our 
borders and ports, which could be better addressed through additional 
funds and a national approach.
    Texas was pleased by the modal flexibility of the stimulus funds, 
and one rail project was funded with the potential still remaining to 
fund others. However, due to a lack of funds to develop rail projects, 
there are few ``shovel-ready'' rail projects in Texas, so we were not 
able to take advantage of the modal flexibility as much as possible. 
Projects could be accelerated if more funds were available for 
development efforts such as planning in addition to other project 
costs.
    TxDOT is in the process of updating its statewide rail system plan 
to identify projects throughout the state and we are also considering 
the creation of a rail division. Through these efforts, we hope to 
improve awareness of rail needs, benefits, and obstacles. These rail 
efforts include moving both people and freight. There are also a number 
of railroads and organizations in Texas that are actively working to 
advance freight and commuter rail including the Gulf Coast Freight Rail 
District, an organization in the Houston region that includes multiple 
cities and counties, and on whose board I serve.

    Question 2. As a member of the Senate Bike Caucus, I appreciate how 
commuting to work by bicycle burns calories rather than fossil fuels. 
What policies or initiatives should be included in our future surface 
transportation plans to encourage greater use of bicycles and improve 
safety where drivers and cyclists share the same roadways?
    Answer. If the Federal transportation program transitions to 
outcome based initiatives in lieu of process based programs, there 
could be mode neutral funding that better facilitates cycling and other 
alternative modes of travel perhaps through national goals such as air 
quality improvement or planning for multi-use development and livable, 
sustainable communities. Bicycle safety could be improved through the 
broader goal of improved safety along with state performance measures 
that specifically addresses cyclists. It is important that data for 
cycling related accidents is accurately compiled for tracking purposes 
to measure performance, and to determine how to best address the risks.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                             James Corless

    Question 1. The Federal, state, and local governments currently all 
play a role in determining transportation priorities and deciding what 
projects should be funded. How can we ensure that regional projects are 
contributing to meeting our national transportation goals?
    Answer. Congress should set clear goals and targets for making the 
transportation system safer, cleaner and less congested by including a 
coherent set of national goals and performance targets in the next 
Federal transportation bill. Articulating performance targets and 
holding states and local governments accountable for meeting these 
goals will help Americans spend less time and money when they choose to 
drive, while improving the performance of all modes of transportation. 
By providing states and local governments the flexibility to plan and 
build transportation projects that best meet local needs while 
demonstrating progress toward national goals, the Federal Government 
can ensure that regional projects are contributing to national goals.

    Question 2. Transportation accounts for one-third of greenhouse gas 
emissions in the United States. How can we focus our transportation 
investments to reduce the impact of the transportation sector on global 
warming?
    Answer. Transportation alternatives such as biking, walking, and 
transit, paired with more efficient land use, are critical tools if we 
are serious about addressing climate change. These strategies can 
significantly reduce global warming emissions, and they help reduce our 
dependence on oil, save people money at the gas pump, save communities 
money on infrastructure costs, and deliver the kind of vibrant, 
walkable places that are in demand. Research has shown that compact 
development patterns reduce carbon emissions from automobiles by up to 
10 percent, compared to typical sprawl-type developments. Public 
transportation in the U.S. already saves an estimated 6.9 MMT of carbon 
each year. Effective system management also has a vital role to play 
both in making our transportation system more efficient and allowing us 
to measure results so we know what we're getting for our money. 
Intelligent Transportation Systems (ITS), Transportation Demand 
Management (TDM), and other technology solutions are showing remarkable 
promise in squeezing more productivity out of our existing 
transportation networks. In the recently completed long range 
transportation plan for the San Francisco Bay Area, the Metropolitan 
Transportation Commission determined that one of the most cost-
effective investments is a package of operational and technology 
improvements to the regional freeway system.

    Question 3. There has been little Federal investment in our freight 
rail infrastructure, even as we face a significant increase in freight 
traffic. What should be the Federal Government's role in maintaining 
and enhancing freight-related infrastructure?
    Answer. Improving goods movement by investing in multimodal long-
distance freight is a critical component of Federal transportation 
legislation. At the Federal level, these efforts must include new 
national incentives to create efficient connections from ports and 
distribution centers to national freight corridors, including state-of-
the-art intermodal facilities to transfer freight between rail and 
truck, expanded cross-country rail freight mainlines, and improvements 
in the condition of short line railroad track. Reducing emissions while 
keeping our economy moving also requires targeting Federal investments 
where they are the most efficient and effective. Port infrastructure 
improvements, such as mechanisms for reducing pollution from ships, 
trucks, trains, cargo-handling equipment, and harbor craft and 
increasing the efficiency of shifts between marine, truck, and rail 
modes, not only benefit the economy but the climate the environment as 
well.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             James Corless

    Question 1. Mr. Corless, in your testimony, you stress the 
importance of a Federal commitment to transportation for rural areas 
and support additional funds for rural planning districts. You also 
recommend that rural areas should develop flexible forms of 
transportation such as vanpools and ridesharing. I know from 
discussions with transportation agencies in New Mexico that it can be 
especially difficult for rural districts to support the operation and 
maintenance of such services. How can the Federal Government encourage 
sustainable public transportation options for rural Americans?
    Answer. Rural communities face a number of challenges in providing 
accessibility and mobility, challenges that are amplified by global 
changes in the economic marketplace, as well as demographic shifts 
within the US. Nearly every community struggles with insufficient 
funding to maintain and improve substandard or unpaved roads, improve 
public transit services, and upgrade or replace substandard and 
deteriorating bridges. Developing effective, integrated forms of public 
transportation, vanpools and ridesharing for rural areas can provide 
increased transportation choices to travelers while realizing 
efficiencies through the use of technology, shared vehicles and 
volunteer services. Dispersed, very low-density land uses make it 
harder for transit, active transportation and ridesharing strategies to 
succeed. Small towns and rural areas should be provided the tools and 
technical assistance by the Federal Government to adopt smart growth 
policies that link transportation and land-use decisions, increasing 
the viability of public transportation options.

    Question 2. As a member of the Senate Bike Caucus, I appreciate how 
commuting to work by bicycle burns calories rather than fossil fuels. 
What policies or initiatives should be included in our future surface 
transportation plans to encourage greater use of bicycles and improve 
safety where drivers and cyclists share the same roadways?
    Answer. Nonmotorized transportation is a critical element of any 
multimodal transportation program, creating affordable travel options, 
reducing energy use, and promoting improved health. The Federal 
Government must begin by breaking down the existing barriers or funding 
silos that separate planning and design for pedestrian and bicycle 
projects from that of highway or transit modes. Policies that require 
new roads to be built as ``complete streets'' will also ensure that all 
users, including bicyclists, pedestrians and transit riders are 
accommodated in the transportation system. The policy would improve 
safety, reduce congestion and air pollution and create a stronger sense 
of community.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                               Anne Canby

    Question 1. The Federal, state, and local governments currently all 
play a role in determining transportation priorities and deciding what 
projects should be funded. How can we ensure that regional projects are 
contributing to meeting our national transportation goals?
    Answer. The metropolitan planning organizations (MPOs) have 
responsibility for identifying projects of a regional nature through 
their long range transportation plan and the selection of projects to 
be incorporated into the TIP (Transportation Improvement Program).
    The planning process must require that MPOs and state 
transportation agencies explicitly demonstrate how their plan addresses 
all national objectives and goals included in the Federal surface 
transportation statute. Current law only requires that national polices 
be `considered.' As indicated in my statement, these should include key 
external issues, such as energy use and climate related emissions. 
Second, the law must include a mechanism that automatically redirects 
Federal funds to those areas where states or MPOs are falling short of 
meeting their goals. For example, if a region is failing to meet its 
goal for the reduction of fatalities, they should be required to 
increase the amount of funds spent on safety improvements. Similarly, 
if the shortfall is for climate related emissions, then funds would be 
required to be allocated to programs and projects that will provide 
increased travel options, such as transit, rail, walking and bicycling, 
implementation of land-use development patterns that enable people to 
shift from their cars. Finally, MPOs and states must report on a 
regular basis to the U.S. Transportation Department on their progress 
toward meeting the national goals. These reports should be readily 
available for public review via websites. If all of these processes 
were in place, it would be possible to determine if national goals were 
being met and corrective action would be automatic.

    Question 2. Transportation accounts for one-third of greenhouse gas 
emissions in the United States. How can we focus our transportation 
investments to reduce the impact of the transportation sector on global 
warming?
    Answer. The first step would be to establish the linkage between 
our transportation investments and the greenhouse gas emissions 
produced by the transportation sector by changing the mission of the 
national surface transportation program. Establishing a national 
transportation objective for reducing greenhouse gas emissions and 
linking this to transportation outcomes would be a first step toward 
accomplishing this. Second, would be to strengthen the transportation 
planning process to make the long range plan the governing document 
rather than the TIP by focusing on establishing objectives and goals 
and measuring outcomes based on the plan. Requiring regular reporting 
on progress toward meeting established goals, along with mandatory 
reallocation of Federal funds if there is a shortfall in meeting a 
milestone or goal would put in place a self-enforcing mechanism. The 
prioritization of projects in the TIP should be required to support 
achieving the objectives and goals in the long-range plan. The long-
range plan should be subject to a NEPA analysis, which is not the case 
today.
    Additionally, national programs, particularly those that support 
new capacity investments, should include the goal of reducing 
transportation related greenhouse gas emissions. This could be 
accomplished by giving states and MPOs the flexibility to invest in the 
most effective greenhouse reduction projects regardless of mode. 
Including eligibility for passenger and freight rail along with transit 
and bicycle and pedestrian facilities for those programs that focus on 
adding new capacity would give the states and MPOs this flexibility. 
Any new funding sources for capacity programs should be mode neutral so 
no one mode feels that `their' funds are being diverted.
    Including discretionary as well as formula based approaches in the 
overall program structure could provide an incentive for metro regions, 
states and even multi-state partnerships to focus their creative 
energies on exploring new approaches with new partners on investments 
that reduce GHG emissions. The ARRA High Speed Rail program has 
fostered numerous discussions that might not have happened under a 
normal formula driven program structure. In addition, the $1.5 billion 
discretionary TIGER fund is fostering new multi-state partnerships with 
rail carriers to expand capacity along significant freight corridors 
facilitating a shift from truck to rail. The CSX Gateway and Norfolk 
Southern's Heartland corridors are both examples of multi-state 
initiatives with private rail operators.

    Question 3. There has been little Federal investment in our freight 
rail infrastructure, even as we face a significant increase in freight 
traffic. What should be the Federal Government's role in maintaining 
and enhancing freight-related infrastructure?
    Answer. Heightened awareness of the growth of freight volumes in 
concert with the need to reduce greenhouse gas emissions has focused on 
the need to expand rail freight capacity and market share for rail 
freight, particularly intermodal freight. There is an need for 
additional public and private capital. Examples of how the Federal 
Government can provide financial support for added investment in rail 
include expanding eligibility in Federal surface transportation 
programs to include rail freight, providing low cost loans through a 
multi-modal infrastructure bank, use of investment tax credit for 
specific public benefit related investments, such as lowering 
greenhouse gas emissions and reducing energy use, and potentially by 
allowing rail companies to sell emission credits or receive allowances 
through a cap and trade program. Expanding program eligibility 
establishes the flexibility for states to make investment decisions 
best suited to achieving national objectives and goals. Low cost loans 
and investment tax credits expand private capital to support improving 
rail infrastructure. Including rail in climate programs reflects the 
value and benefit that rail contributes to reducing carbon emissions in 
the transportation sector.
    Investing public resources in private assets, e.g., rail 
infrastructure, can be justified by clearly defining the public 
benefits derived from such an investment. Public benefits could be 
numerous, including reducing the need for public investment in highways 
and ongoing maintenance costs, improved highway safety, reduced energy 
use and climate emissions. The Federal Government could provide a best 
practices guide for determining public benefits that justify public 
investment.
    The current surface transportation program structure needs to move 
beyond single mode programs to incorporate multimodal eligibility tied 
to achievement of national objectives. To support multi-modal programs, 
the Federal Government should support the research to establish 
methodologies for cross modal analysis to determine the costs and 
benefits of various investment options. Work in this area is being 
pursued by the Canadian government.

                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               Anne Canby

    Question 1. Ms. Canby, you note in your testimony the need for 
energy efficient transportation. Ridership on commuter rail systems 
across the country has been continuously growing to meet passenger 
demand. I have seen this first hand with our popular Rail Runner 
service from Belen to Santa Fe. What should the Federal Government do 
to further encourage commuter rail?
    Answer. The allocation of Federal funds currently is weighted 
heavily toward the state transportation agencies, which routinely favor 
highway investments over other modes. The Federal Government should 
increase the authority of the regional planning organization (MPOs) to 
select transportation projects for their region by increasing the share 
of Federal funds over which they have direct programming control. The 
regional planning organizations are often more open-minded in terms of 
looking at transit or rail options as alternatives to driving and 
expanding travel choices. Past research by STPP illustrates that MPOs 
tend to include more transit and bicycle/pedestrian projects in their 
capital programs than the state transportation agencies.
    As you are aware, the PRIIA required implementation of PTC. 
Providing the funds to install PTC would augment safety and reduce 
pressure surrounding liability issues.
    The allocation between highway and transit funds was established in 
the early 1980s when transit received 20 percent of new gas tax 
revenues. This has become an ongoing argument over the proper 
allocation. Clearly today, there is a tremendous demand to add more 
transit options in our metro regions as well as our rural areas both to 
provide greater travel options as well as to reduce our energy use and 
greenhouse gas emissions. With the need to add new revenues, the 
source(s) should be mode neutral to fund new capacity which would make 
it easier to allocate a greater share of resources to support transit 
and rail options.

    Question 2. As a member of the Senate Bike Caucus, I appreciate how 
commuting to work by bicycle burns calories rather than fossil fuels. 
What policies or initiatives should be included in our future surface 
transportation plans to encourage greater use of bicycles and improve 
safety where drivers and cyclists share the same roadways?
    Answer. There are numerous policies and initiatives that could be 
included in Federal surface transportation legislation to foster the 
use of bicycle transportation. First, would be for the Federal 
Government to strengthen data collection for bicycle and pedestrian 
trips by establishing (1) a consistent national bicycle and pedestrian 
count and survey methodology to assess levels, trends and safety of 
bicycling and walking; (2) a national database of bicycle and 
pedestrian information generated by these consistent methods and 
practices; and (3) by providing funding support for data collection.
    The long-range transportation plans prepared by both states and 
MPOs must integrate bicycle and pedestrian networks for all 
communities. Standards for the design of streets and roads must include 
providing for bicycle and pedestrian travel. Fatalities and accidents 
should be reported in proportion to the percent of trips by each mode. 
This will draw attention to the higher rate for bicycle and pedestrian 
accidents than for motor vehicle accidents. Allocation of safety funds 
should be proportional to the percentage of fatalities by mode.
    Initiatives and activities such as bike sharing programs and bike 
parking facilities should be routinely eligible program activities.
    The surface transportation legislation should establish a Complete 
Streets policy requiring that all road projects that utilize Federal 
funds shall include appropriate provisions to accommodate bicyclists, 
pedestrians, and disabled travelers.

                                  <all>

</pre></body></html>
